<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 THE PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY 

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2010

                               __________

                           Serial No. 111-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

56-784 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     5

                               Witnesses

The Honorable Janet Napolitano, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                             For the Record

The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana:
  Slides.........................................................    36
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama:
  Letter to Honorable Janet Napolitano, February 12, 2010........    42
  Letter to Honorable Nancy Pelosi, February 16, 2010............    45

                                Appendix

Questions Submitted by Chairman Bennie G. Thompson...............    77
Question Submitted by Honorable Henry Cuellar....................    88
Questions Submitted by Honorable Christopher P. Carney...........    89
Questions Submitted by Honorable Laura Richardson................    90
Questions Submitted by Honorable Bill L. Owens...................    92
Questions Submitted by Honorable Bill Pascrell, Jr...............    93
Questions Submitted by Honorable Daniel E. Lungren...............    95
Questions Submitted by Honorable Mike Rogers.....................    96
Questions Submitted by Honorable Michael T. McCaul...............    99


 THE PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                      Thursday, February 25, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 2:07 p.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Lofgren, Jackson 
Lee, Cuellar, Carney, Clarke, Richardson, Kirkpatrick, Lujan, 
Owens, Pascrell, Cleaver, Green, Titus, King, Smith, Souder, 
McCaul, Dent, Bilirakis, Broun, Miller, Olson, Cao, and 
Austria.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
receive testimony from Secretary Janet Napolitano on the 
President's fiscal year 2011 budget request for the Department 
of Homeland Security.
    I want to thank Secretary Napolitano for being flexible 
about testifying in support of the President's fiscal year 2011 
budget request for the Department of Homeland Security after 
back-to-back snowstorms forced us to postpone this hearing.
    On February 1 President Obama requested just over $56 
billion for the Department of Homeland Security as part of his 
fiscal year 2011 budget request. Overall, under the President's 
proposal, the Department's budget is slated to increase by 
about 3 percent over last year's funding level. Given the 
current fiscal environment, the President is to be commended 
for showing an on-going commitment to enhancing our Nation's 
preparedness response and recovery capabilities.
    The Department's mission, both homeland security and non-
homeland security, requires a budget request that is far-
reaching and impacts the security of Americans who travel by 
air, rail, and sea; the capacity of communities to be prepared 
for and respond to terrorism and other hazards, including the 
threat posed by dangerous criminal aliens; and the ability of 
our Nation and operators of critical infrastructure to find 
innovative approaches to foster resiliency in the face of an 
ever-evolving terrorist threats.
    In reviewing this budget request, I am pleased to see that 
you tackle the issue of over-reliance on contractors and 
presenting a balanced workforce strategy. Since its inception 
in 2003, contractor dependence has stood in the way of DHS 
becoming the Federal agency that Congress envisioned and the 
American people deserve.
    Madame Secretary, you are to be commended for taking on 
this challenge that for so many years went unaddressed by your 
predecessors and for setting a goal of converting 3,300 
contractor positions to DHS positions by the end of the year. 
This is a step in the right direction. However, given that that 
the Department relies on more than 200,000 contractors to 
operate, a great deal more work will need to be done to ensure 
that DHS moves away from an over-reliance on contractors.
    While I support the substance of most of this budget 
request, I do have some concerns. While I understand that 
reducing personnel at the U.S. Border Patrol and U.S. Coast 
Guard will bring short-term savings to the Department, I am 
concerned that years of knowledge and experience will be lost 
and that there may be a resulting reduction in DHS' resource 
and capabilities to fulfill all its missions.
    I am also greatly concerned the budget seeks to consolidate 
a number of important free-standing grant programs into the 
State Homeland Security Grant Program. I worry that this 
consolidation will make it more difficult for local communities 
to receive much-needed funding. It also troubles me that for 
the second year in a row, the budget decreases funding for 
vital first responder grant programs just as State and local 
communities are struggling to maintain the capability gains 
that have been achieved in recent years.
    I am particularly disappointed that Centers of Excellence 
and other university programs, including the Minority Serving 
Institutions Program that DHS has supported since DHS was 
established would be cut by nearly 20 percent under this 
budget.
    One last area that I strongly believe was not well-served 
by this budget is maritime cargo screening. I find it 
incredulous that this budget decreases funding for 
international cargo screening programs by almost 48 percent. It 
is hard to believe that these programs, which got short-shifted 
by previous administrations, are being further downscaled under 
this budget when there has not been a single legislative 
proposal submitted to alter the statutory mandate on 
international cargo screening.
    As you know, under the Implementing Recommendations of the 
9/11 Commission Act, DHS is responsible for ensuring that 100 
percent of the cargo that enters into the United States is 
scanned. I just do not see how moving the few DHS personnel 
that you have in the field, targeting cargo for screening, back 
to the United States gets you any closer to meeting the 
mandate.
    That said, I look forward to working with you, Madame 
Secretary, to ensure that the Department has the resources it 
needs to execute all its missions, including to prevent and 
respond to the threat of terrorism.
    Thank you, and I look forward to your testimony.
    The Chairman now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman.
    Thank you very much, Madame Secretary. We welcome you here 
this morning. I hope your ankle or your leg is doing better. It 
was not caused by any Republican, was it--the injury?
    [Laughter.]
    No? Okay.
    But on a--seriously now, let me thank you for offering to 
meet with Republican Members of the committee on a regular 
basis. I think it will go a long way to resolving some issues 
that we have before they become major issues and also let us 
get the benefit of your thinking before we just read about it 
in the newspaper and draw wrong conclusions. So I thank you for 
it.
    I think it is going to be very, very helpful to both sides. 
Also I think it will go a long way to continuing the bipartisan 
cooperation we have tried to have on this committee since the 
inception under both parties.
    Madame Secretary, much has happened since you last 
testified before the committee last May. We had the Vinas case, 
which actually involved someone from Long Island, who was--his 
indictment and conviction were announced. He was captured in 
Afghanistan-Pakistan.
    We had the Headley case involving Mumbai. We had the Zazi 
case in New York. We have had the Major Hasan case in Fort 
Hood. We had the Christmas Day bombing. We have the whole issue 
involving the trial of Khalid Shaikh Mohammed and where that is 
going to be held and under the conditions where it will be 
held.
    So a lot has happened. Obviously, it shows that the threat 
is as real as it ever was--maybe worse in that it is morphing, 
or it is almost like mercury. As we go after it in one place, 
it moved somewhere else and adopts a different form.
    So, obviously, your job is more significant and more 
important than ever, and the world is probably as dangerous, if 
not more dangerous--certainly, different types of danger from 
the same enemy, but different types of dangers, which is why 
there are several points I want to mention about your budget. I 
will follow up in questions. Other Members have various issues. 
I know Congressman Olson has a specific issue he is going to 
raise with you later.
    But on the issue, for instance, as the threat is getting 
larger and changing more, I am very concerned that Secure the 
Cities has been zeroed out. While this primarily benefits New 
York, it also involved other cities. It could be a prototype 
for other cities, as money is going to be shared with other 
cities.
    Just last month, I believe, on the House floor we adopted 
an authorization calling for continued funding of Secure the 
Cities, and on last year's budget there was nothing in there. 
The House passed legislation for $40 million, came back from 
conference with $20 million, but this year there is nothing in 
there, which to me it is wrong.
    It is a mistake that is being made, and it involves not 
just New York, the entire tri-State region, and also, as I 
said, the money is available for other cities around the 
country. The system itself can be a prototype. Basically, this 
is to protect urban areas from attacks launched from suburban 
areas.
    Also, the issue which Chairman Thompson raised about the 
Coast Guard maritime safety and security teams. I believe five 
of the 12 are being decommissioned. Again, just speaking for 
the New York area, I realize how valuable these teams are--how 
invaluable they are, actually.
    We have to have them, and how well-coordinated they are 
with the FBI and with local law enforcement. Again, whatever 
short-term savings there might be, to be eliminating five of 
these 12 teams I think is really going to be very, very 
counterproductive, and it is going to increase, you know, the 
danger level.
    Also, with the whole issue of the trials in New York City, 
we have the Federal Protective Service that was in here 
testifying, saying they do not have the funding or the 
personnel to adequately safeguard the Federal courts in New 
York in the event that a trial was held, and yet there is no 
increase in the budget at all for the Federal Protective 
Service.
    With UASI, while that has gone up $213 million, $200 
million of that is allocated for court security in the event 
that the trials are held here in the United States. So in 
effect, there was no increase in the UASI funding, even though 
I believe the threats have increased.
    As far as the $200 million or whatever the final number 
ends up being, I do know that the Department of Homeland 
Security and other law enforcement agencies did do an analysis 
as to what the course could be, and to the extent you can 
discuss that with us and how that approximates the $200 million 
and without trying to sound overly partisan here, I know the 
Vice President said he thought the $200 million that Mayor 
Bloomberg spoke about was an exaggerated number, and yet that 
turns out to be the number that is in the President's budget or 
in your budget, so I would just see if you can perhaps explain 
the Vice President to us.
    The issue of Guantanamo. Obviously, Members of this 
committee have different concerns and different beliefs as to 
what should be done with Guantanamo. I personally believe it 
should be open. I know others feel strongly it should be 
closed. But also, you are on the board, I believe, or the panel 
which is to decide the fate of Guantanamo or the prisoners at 
Guantanamo. I was wondering if any progress has been made on 
that at all?
    Similarly, the issue that really caused a lot of debate 
after the Christmas bombing is the whole issue of Miranda 
warnings and who should give them, when they should be given. I 
would like to hear from you or discuss with you during the 
question period as to who should be making that decision.
    Since obviously there was much more involved here than just 
an individual being apprehended on the ground and since the 
intelligence community is so far-reaching, it appears the 
attorney general was making that decision, but in making that, 
does he discuss that with the Director of National 
Intelligence?
    Does he discuss that decision with you? Does he discuss it 
with the CIA? Does he discuss it with any of the other 
counterterrorism or terrorism agencies and departments we have? 
Or does he just make that on his own without realizing the full 
consequences of what could happen?
    So in any event, these are all issues I would like to 
discuss with you, hear your thoughts on them. I am sure as the 
year goes on and we have our regular meetings, a lot more of 
these will be discussed.
    With that, I yield back the balance of my time and look 
forward to your testimony.
    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record.
    [The statement of Honorable Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                           February 25, 2010
    Mister Chairman, thank you for convening this very important 
hearing today on the President's fiscal year 2011 budget request for 
the Department of Homeland Security. Thank you to Secretary Napolitano 
for being here as well.
    It is an important duty of Congress to work with the President and 
the various agencies to come up with an appropriate budget, especially 
in these economic hard times. But it is equally important that we know 
exactly where these funds are going so the American public knows that 
taxpayer dollars are spent efficiently and effectively.
    The 37th Congressional District of California, which I am 
privileged to represent, has a vital interest in ensuring our homeland 
security needs are adequately funded. My district is located in 
Southern California, which is no stranger to natural disasters ranging 
from earthquakes to mudslides to wildfires. The 37th district is also 
home to many high-value terrorist targets, such as the Port of Long 
Beach.
    Therefore, I share the committee's concern about the decrease in 
funding for international cargo screening. The proposal is $84.45 
million, a decrease of $77.56 million below the fiscal year 2010 
enacted amount of $162 million. This decrease is part of a shift 
towards remote targeting and examinations of freight instead of a 
physical presence of personnel at the ports. The 9/11 Act set forth a 
goal of working towards 100 percent cargo screening, and this budget 
decrease indicates a movement away, instead of towards, that goal. 
While I recognize the fiscal constraints facing the President and the 
Department, I question the decision to deemphasize cargo screening at 
the expense of the safety of our ports.
    In addition, as chair of the Subcommittee on Emergency, 
Communications, Preparedness, and Response, I am pleased to see a 2.31 
percent increase in FEMA's budget. However, I notice that there is a 
cut of $200 million to the Staffing for Adequate Fire and Emergency 
Response (SAFER) Program and the Assistance to Firefighter Grants 
(AFG). I believe these cuts will severely limit the ability of local 
fire departments to meet community needs and maintain the readiness of 
local first responders during all types of emergencies.
    I agree with the committee that overall, we are pleased with the 
President's budget request. However, I look forward to hearing 
Secretary Napolitano's insight on the questions and concerns we have 
raised.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back the balance of my time.

    Chairman Thompson. Again, I welcome our witness today, 
Janet Napolitano. She was confirmed by the Senate and sworn in 
on January 21, 2009, as the third Secretary of the Department 
of Homeland Security. In her first year as the Secretary, she 
has conducted a Department-wide efficiency review, released the 
first Quadrennial Homeland Security Review, and submitted her 
first budget request to Congress.
    Madame Secretary, I thank you for your service and for 
appearing before this committee today.
    Without objection, the witness' full statement will be 
inserted in the record.
    Secretary Napolitano, I now recognize you to summarize your 
statement as close to 5 minutes as possible.

 STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Mr. Chairman and 
Representative King and Members of the committee. It is a 
pleasure to be before you today to discuss the President's 2011 
budget request for the Department of Homeland Security.
    I want to thank the committee for the strong support it has 
shown the Department during my tenure as Secretary. I am glad 
to work with you as we work to secure the American homeland and 
also to ensure that we have the resources we need and that they 
are put to use effectively and efficiently.
    As noted, President Obama's budget for the Department 
focuses our resources where they can be put to best use. The 
2011 budget request is $56.3 billion. It equates to more than a 
2 percent increase over last year's funding. While we are 
always focused on securing and protecting the American people, 
we are also committed to exercising strong fiscal discipline, 
making sure that we are investing in what works.
    While this budget will not go into effect until next 
October, I think the events of the past months underscore the 
importance of the investment to our mission and to our on-going 
activities. The attempted attack on Flight 253 on Christmas was 
a powerful illustration that terrorists, especially al-Qaeda 
and its affiliates, will go to great lengths to try to defeat 
the security measures that have been put in place since 
September 11, 2001.
    This administration is determined to thwart those plans, to 
disrupt, dismantle, and defeat terrorist networks by employing 
multiple layers of defense, working in concert with one another 
to secure the country. This effort involves not just the 
Department of Homeland Security, but many other Federal 
agencies with responsibilities related to the safety of the 
homeland.
    As President Obama made clear, the administration is also 
determined to find and fix the vulnerabilities in our systems 
that have allowed not just the Christmas day breach to occur, 
but as we think forward proactively what could the next attempt 
be? What needs to be done in advance of that?
    We are working hand-in-hand across the Federal Government 
also on a number of other areas. A more recent example would be 
the response to the catastrophic earthquake in Haiti.
    As the Chairman noted, this year we submitted our first 
Quadrennial Homeland Security Review. This gives us a long-
distance vision and template for the homeland security 
enterprise and identifies five major mission areas for us.
    The first is preventing terrorism and enhancing security. 
The second is securing and managing our borders. The third is 
smart and effective enforcement of our Nation's immigration 
laws. The fourth, and a new one, is safeguarding and securing 
cyberspace. The fifth is ensuring resiliency to disasters. Let 
me briefly go through those with budget highlights related to 
each one.
    Preventing terrorism and enhancing security, the 
President's budget request enhances multiple layers of aviation 
security, a critical investment. We want to accelerate the 
placement of advanced imaging technology machines, that kind of 
machines that will increase our ability to detect nonmetallic 
explosives.
    We also want to add to the Federal Air Marshal Service to 
train K-9 teams and the behavior detection officers in our 
domestic airports while we work internationally across the 
globe on increasing worldwide aviation security.
    To secure and manage the borders, the budget request 
strengthens initiatives that have already resulted in concrete 
border security successes this past year. We want to expand the 
border enforcement security task force teams, the best teams. 
They have helped increase seizures of contraband across the 
border.
    We want to continue to increase the use of intelligence for 
battling the drug cartels that are housed in Mexico, so the 
budget contains additional monies for intelligence analysts 
that will be focused on those efforts.
    We also have in the budget the money that is necessary to 
protect the Customs and Border Protection staffing levels, and 
I want to pause they are a moment. There has been some 
confusion. We have delivered a clarifying document. There was 
no cut to Border Patrol staffing contemplated in this budget. I 
think that needs to be made very, very clear.
    In addition, we want to continue our efforts with respect 
to Mexico. Just south of our border, the city of Juarez is one, 
quite frankly, where the rule of law has been lost. The fact 
that it is a bridge away from the United States should give us 
all pause. We are working very closely with the federal 
government of Mexico, just met last week with the president of 
Mexico, the Mexican federal police and others to make sure 
border-wide that we make sure that border is secure as 
possible.
    Additionally, in terms of enforcement and administration of 
the Nation's immigration laws, the President's budget request 
bolsters critical initiatives, such as our efforts to 
strengthen E-Verify, which is the tool we use to ensure that 
employers verify the legal presence of the workforce.
    We also want to expand Secure Communities. This is a 
program where we put access to immigration databases rights in 
local jails and State prisons so that we proceed with 
immigration removal and deportation while someone is still 
incarcerated.
    To safeguard and secure cyberspace, the budget request 
includes a total funding level of $379 million for our 
cybersecurity division in addition to the monies for the Secret 
Service for their investigation of cyber-related crimes.
    Under this, Mr. Chairman, we have already been granted by 
the Office of Personnel Management the ability to hire up to 
1,000 cyber experts by direct hiring authority over the next 3 
years. This is an effort that we need to proceed on with due 
haste so that we have on the civilian side of cyber command 
just as we are developing on the military side.
    To ensure resilience to disasters, the President's budget 
request includes an increase in support of the disaster relief 
fund and $100 million in pre-disaster mitigation grants in 
support of State, local, and Tribal governments to reduce the 
risks associated with disasters.
    Finally, the budget includes increases that are 
attributable to our efforts to mature and strengthen the unity 
of the Department. Continuing to build out St. Elizabeths as a 
consolidated headquarters, continuing to consolidate leases so 
that we are not in more than four dozen locations around the 
District, continuing to integrate various legacy data systems 
and IT systems that came into the Department when it was 
created that now need to be unified into one IT system are just 
several of the administrative functions here.
    They are put in headquarters, but they are designed to 
provide support and operational efficiency throughout all of 
the operating components.
    Mr. Chairman, I have more detail. It is contained in my 
complete statement, which I ask be included in the record. But 
I look forward to addressing the questions that you have posed, 
that Representative King has posed, and that the other Members 
might have. Thank you very much.
    [The statement of Secretary Napolitano follows:]
                 Prepared Statement of Janet Napolitano
    Mr. Chairman, Representative King, and Members of the committee: 
Let me begin by saying thank you for the strong support you have 
provided me and the Department this past year. I look forward to 
another year working with you to make certain that we have the right 
resources to protect the homeland and the American people and that we 
make the most effective and efficient use of those resources.
    I am pleased to appear before the committee today to present 
President Obama's fiscal year 2011 Budget Request for the Department of 
Homeland Security (DHS).
    As you know, the attempted attack on Northwest Flight 253 on 
December 25 was a powerful illustration that terrorists will go to 
great lengths to try to defeat the security measures that have been put 
in place since September 11, 2001. This administration is determined to 
thwart those plans and disrupt, dismantle, and defeat terrorist 
networks by employing multiple layers of defense that work in concert 
with one another to secure our country. This effort involves not just 
DHS, but also many other Federal agencies as well as State, local, 
Tribal, territorial, private sector and international partners. As 
President Obama has made clear, this administration is determined to 
find and fix the vulnerabilities in our systems that allowed this 
breach to occur--and the fiscal year 2011 Budget Request prioritizes 
these security enhancements.
    The Department is also working hand-in-hand with our Federal 
partners to respond to the devastation and loss of life in Haiti 
following the January 12 earthquake. Collaboration within DHS among our 
many components has allowed us to leverage unprecedented resources and 
personnel to assist with the humanitarian efforts in Haiti, once again 
demonstrating what these offices can accomplish together. The fiscal 
year 2011 Budget Request strengthens the on-going work in each of our 
Department's offices to fulfill our unified mission.
    I will now summarize the fiscal year 2011 budget request along with 
some of our key accomplishments from last year.
                    fiscal year 2011 budget request
    The fiscal year 2011 DHS budget will strengthen efforts that are 
critical to the Nation's security, bolster the Department's ability to 
combat terrorism and respond to emergencies and potential threats, and 
allow DHS to tackle its responsibilities to protect the Nation and keep 
Americans safe.
    DHS executes a wide array of responsibilities in its unified 
security mission. To bolster these efforts, DHS collaborates and 
coordinates with many partners--State, local, and Tribal governments 
and law enforcement agencies, international allies, the private sector, 
and other Federal departments. These partnerships are essential to DHS' 
ability to fulfill its security mission.
    The fiscal year 2011 budget continues efforts to use our resources 
as efficiently and effectively as possible. We must exercise strong 
fiscal discipline, making sure that we are investing our resources in 
what works, cutting down on redundancy, eliminating ineffective 
programs and making improvements across the board.
    To institutionalize a culture of efficiency across the Department, 
DHS launched the Department-wide Efficiency Review Initiative in March 
2009. One major element of the Efficiency Review is the Balanced 
Workforce Strategy, a three-pronged approach to ensuring that the right 
workforce balance is achieved. First, we are taking steps to ensure 
that no inherently Governmental functions are performed by contractors. 
Second, we put in place rigorous review procedures to ensure that 
future activities do not increase our reliance on contractors. Third, 
we are coordinating workforce assessments across the Department to seek 
economies and service improvements and reduce our reliance on 
contractors. In fiscal year 2011, the Department will continue 
executing the Balanced Workforce Strategy by converting contractor 
positions to Federal jobs.
    DHS secures the United States against all threats through five main 
missions, each of which is strengthened by this budget:
  <bullet> Preventing Terrorism and Enhancing Security.--Guarding 
        against terrorism was the founding mission of DHS and remains 
        our top priority today. A key element of preventing terrorism 
        is recognizing the evolving threats posed by violent extremists 
        and taking action to ensure our defenses continue to evolve to 
        deter and defeat them.
  <bullet> Securing and Managing Our Borders.--DHS monitors our air, 
        land, and sea borders to prevent illegal trafficking that 
        threatens our country, while facilitating lawful travel and 
        trade. We will continue to strengthen security efforts on the 
        Southwest border to combat and disrupt cartel violence and 
        provide critical security upgrades--through infrastructure and 
        technology--along the Northern border.
  <bullet> Enforcing and Administering Our Immigration Laws.--DHS is 
        responsible for enforcing the Nation's immigration laws while 
        streamlining and facilitating the legal immigration process. In 
        fiscal year 2011, we will continue to strengthen enforcement 
        activities while targeting criminal aliens who pose a threat to 
        public safety and employers who knowingly violate the law.
  <bullet> Safeguarding and Securing Cyberspace.--The Department 
        defends against and responds to attacks on the cyber networks 
        through which Americans communicate with each other, conduct 
        business, and manage infrastructure. DHS analyzes and reduces 
        cyber threats and vulnerabilities, distributes threat warnings, 
        coordinates the response to cyber incidents and works with the 
        private sector and our State, local, international, and private 
        sector partners to ensure that our computers, networks, and 
        cyber systems remain safe.
  <bullet> Ensuring Resilience to Disasters.--The Department provides 
        the coordinated, comprehensive Federal response in the event of 
        a terrorist attack, natural disaster, or other large-scale 
        emergencies while working with Federal, State, local, and 
        private sector partners to ensure a swift and effective 
        recovery effort. DHS will continue its increased efforts to 
        build a ready and resilient Nation by bolstering information 
        sharing, providing grants and training to our homeland security 
        and law enforcement partners and further streamlining 
        rebuilding and recovery along the Gulf Coast.
    Ensuring shared awareness of risks and threats, increasing 
resilience in communities and enhancing the use of science and 
technology underpin these National efforts to prevent terrorism, secure 
and manage our borders, enforce and administer our immigration laws, 
safeguard and secure cyberspace, and ensure resilience to disasters.
    The total fiscal year 2011 budget request for DHS is $56.3 billion 
in total funding; a 2 percent increase over the fiscal year 2010 
enacted level. The Department's fiscal year 2011 gross discretionary 
budget request \1\ is $47.1 billion, an increase of 2 percent over the 
fiscal year 2010 enacted level. The Department's fiscal year 2011 net 
discretionary budget request is $43.6 billion,\2\ an increase of 3 
percent over the fiscal year 2010 enacted level. For purposes of 
comparison the Overseas Contingency Operation funding and transfer from 
the National Science Foundation are not included in the fiscal year 
2010 enacted level.
---------------------------------------------------------------------------
    \1\ Gross Discretionary funding does not include funding such as 
Coast Guard's retirement pay account and fees paid for immigration 
benefits.
    \2\ This does not include fee collections such as funding for the 
Federal Protective Service (NPPD), aviation security passenger and 
carrier fees (TSA), credentialing fees (such as TWIC--TSA), and 
administrative costs of the National Flood Insurance Fund (FEMA).
---------------------------------------------------------------------------
    The following are highlights of the fiscal year 2011 budget 
request:
              preventing terrorism and enhancing security
  <bullet> Advanced Imaging Technology (AIT).--An increase of $214.7 
        million is requested to procure and install 500 advanced 
        imaging technology machines at airport checkpoints to detect 
        dangerous materials, including non-metallic materials. This 
        request, combined with units the Transportation Security 
        Administration (TSA) plans to install in 2010, will mean that 
        1,000 AIT scanners, will total AIT coverage at 75 percent of 
        Category X airports and 60 percent of the total lanes at 
        Category X through II airports.
  <bullet> Transportation Security Officers (TSOs) to Staff AITs.--An 
        increase of $218.9 million is requested for additional 
        Transportation Security Officers (TSOs), managers, and 
        associated support costs to operate additional AITs at airport 
        checkpoints. Passenger screening is critical to detecting and 
        preventing individuals carrying dangerous or deadly objects and 
        materials from boarding planes.
  <bullet> Federal Air Marshals (FAMs).--An increase of $85 million is 
        requested for additional FAMs to increase international flight 
        coverage. FAMs help detect, deter, and defeat terrorist and 
        other criminal hostile acts targeting U.S. air carriers, 
        airports, passengers, and crew.
  <bullet> Portable Explosive Trace Detection (ETD).--An increase of 
        $60 million is requested to purchase approximately 800 portable 
        ETD machines ($39 million) and associated checkpoint 
        consumables ($21 million).
  <bullet> Canine Teams.--An increase of $71 million and 523 positions 
        (262 Full-Time Equivalents, or FTE) is requested to fund an 
        additional 275 proprietary explosives detection canine teams, 
        112 teams at 28 Category X airports and 163 teams at 56 
        Category I airports.
  <bullet> Behavior Detection Officers (BDOs).--An increase of $20 
        million and 350 BDOs (210 FTE) is requested to further enhance 
        TSA's Screening Passengers by Observation Techniques program. 
        The fiscal year 2011 request includes a total of 3,350 officers 
        to enhance coverage at lanes and shifts at high-risk Category X 
        and I airports and expand coverage to smaller airports.
  <bullet> Domestic Nuclear Detection Office Systems Engineering and 
        Architecture.--An increase of $13.4 million is requested to 
        fund systems engineering efforts to address vulnerabilities in 
        the Global Nuclear Detection Architecture, the multi-layered 
        system of detection technologies, programs, and guidelines 
        designed to enhance the Nation's ability to detect and prevent 
        a radiological or nuclear attack.
  <bullet> Radiological/Nuclear Detection Systems.--An increase of $41 
        million is requested for the procurement and deployment of 
        radiological and nuclear detection systems and equipment to 
        support efforts across the Department.
  <bullet> Law Enforcement Detachment Teams.--An increase of $3.6 
        million is requested to bring deployable U.S. Coast Guard Law 
        Enforcement Detachment (LEDET) teams to full capacity. LEDETs 
        help prevent terrorism, secure U.S. borders, disrupt criminal 
        organizations and support counter drug missions overseas. In 
        fiscal year 2009, for example, LEDETs aboard U.S. naval and 
        partner nation assets accounted for more than 50 percent of 
        total maritime cocaine removals.
  <bullet> 2012 Presidential Campaign.--Total funding of $14 million is 
        requested for start-up costs associated with the 2012 
        Presidential Campaign including training for candidate/nominee 
        protective detail personnel. The Secret Service will also begin 
        to procure and pre-position equipment, services, and supplies 
        to support candidate/nominee protective operations throughout 
        the country.
  <bullet> Secret Service Information Technology.--Total funding of $36 
        million is requested for the Information Integration and 
        Transformation program. This funding will allow the Secret 
        Service to successfully continue its comprehensive Information 
        Technology (IT) transformation and provide a multi-year, 
        mission-integrated program to engineer a modernized, agile, and 
        strengthened IT infrastructure to support all aspects of the 
        Secret Service's mission.
                   securing and managing our borders
  <bullet> Journeyman Pay Increase.--In the spring of 2010, DHS will 
        implement the journeyman pay increase, raising the journeyman 
        grade level for frontline Customs and Border Protection (CBP) 
        Officers (including Border Patrol agents and Agricultural 
        Specialists) from GS-11 level to the GS-12 level. An adjustment 
        to the base of $310.4 million will fund the full-year impact of 
        the salary and benefit requirements associated with this 
        implementation.
  <bullet> CBP Officers.--An increase of $44.8 million is requested to 
        fund 318 CBP Officer FTEs within the Office of Field Operations 
        and 71 support FTEs for CBP. The decline in the number of 
        passengers and conveyances entering the United States in fiscal 
        year 2009 resulted in an almost 8 percent decrease in revenues 
        from inspection user fees. CBP, therefore, has fewer resources 
        to maintain critical staffing levels for CBP officers. The 
        proposed funding will allow CBP to maintain staffing for 
        critical positions to protect the United States at its ports of 
        entry.
  <bullet> Border Enforcement Security Task Forces (BESTs).--An 
        additional $10 million is requested to establish BESTs in three 
        additional locations: Massena, NY; San Francisco, CA and 
        Honolulu, HI. These multi-agency teams work to identify, 
        disrupt, and dismantle criminal organizations posing 
        significant threats to border security, including terrorist 
        groups, gang members, and criminal aliens.
  <bullet> Intellectual Property Rights (IPR) Enforcement.--An increase 
        of $30 million is requested to support CBP and ICE IPR 
        enforcement efforts. This includes information technology 
        systems that support IPR activities and implementation of the 
        5-year IPR Plan. An increase of $5 million is also requested 
        for the Immigration and Customs Enforcement (ICE)-led National 
        Intellectual Property Rights Coordination Center (IPR Center). 
        The IPR Center brings key U.S. Government agencies together to 
        combat IPR violations that threaten our economic stability, 
        restrict the competitiveness of U.S. industry and endanger the 
        public's health and safety. ICE will also use these funds to 
        focus on disrupting criminal organizations through the internet 
        and support for anti-counterfeiting efforts.
  <bullet> Intelligence Analysts.--An increase of $10 million is 
        requested to fund 103 Intelligence Analysts for CBP. This 
        staffing increase will support 24/7 operations of CBP 
        Intelligence Watch, Operations Coordination, and the 
        Commissioner's Situation Room.
  <bullet> Coast Guard Asset Recapitalization.--A total of $1.4 billion 
        is requested to continue recapitalization of aging Coast Guard 
        surface and air assets. Included in this request is $538 
        million for production of the Coast Guard's fifth National 
        Security Cutter to continue replacement of the 378-foot High 
        Endurance Cutters fleet. Also included is $240 million for 
        production of four Fast Response Cutters to continue 
        replacement of the 110-foot Class Patrol Boat fleet. The Fast 
        Response Cutters have enhanced capability, high readiness, 
        speed, and endurance, which will allow them to quickly and 
        effectively respond to emerging threats. Additionally, $40 
        million is requested to purchase one Maritime Patrol Aircraft 
        (MPA) HC-144A. The HC-144A will address the Coast Guard's MPA 
        flight hour gap by providing 1,200 hours every year per 
        aircraft. Finally, $13.9 million is requested for improvement 
        and acquisition of housing to support military families.
            enforcing and administering our immigration laws
  <bullet> E-Verify.--A total of $103.4 million and 338 FTEs is 
        requested for the E-Verify Program. In fiscal year 2011, U.S. 
        Citizenship and Immigration Services (USCIS) will develop and 
        implement an E-Verify portal that will provide a single-user 
        interface for the program's products and services. In addition, 
        USCIS will enhance E-Verify's monitoring and compliance 
        activities through analytical capabilities that will support 
        more robust fraud detection and improved analytic processes and 
        will continue developing system enhancements in response to 
        customer feedback, surveys, mission requirements, and capacity 
        needs.
  <bullet> Secure Communities.--Total funding of $146.9 million is 
        requested to continue fiscal year 2010 progress toward Nation-
        wide implementation of ICE's Secure Communities program--which 
        involves the identification, apprehension, and removal of all 
        Level 1 criminal aliens in State prisons and local jails 
        through criminal alien biometric identification capabilities. 
        Secure Communities, in cooperation with Federal, State, and 
        local law enforcement agencies, will provide a safeguard to 
        American communities by removing those criminal aliens from the 
        United States who represent the greatest threats to public 
        safety and by deterring their re-entry through aggressive 
        prosecution.
  <bullet> Immigrant Integration.--A total of $18 million is requested 
        to fund USCIS Office of Citizenship initiatives, including 
        expansion of the competitive Citizenship Grant Program to 
        support National and community-based organizations preparing 
        immigrants for citizenship, promoting, and raising awareness of 
        citizenship rights and responsibilities, and enhancing English 
        language education and other tools for legal permanent 
        residents. The Office of Citizenship will support the 
        implementation of the Immigration Integration program and lead 
        initiatives to educate aspiring citizens about the 
        naturalization process, monitor, and evaluate the 
        administration and content of the new naturalization test, and 
        develop educational materials and resources for immigrants and 
        the organizations that serve them.
                  safeguarding and securing cyberspace
  <bullet> National Cyber Security Division (NCSD).--Total funding of 
        $379 million is requested for the NCSD to support the 
        development of capabilities to prevent, prepare for, and 
        respond to incidents that could degrade or overwhelm the 
        Nation's critical information technology infrastructure and key 
        cyber networks. These funds will identify and reduce 
        vulnerabilities, mitigate threats, and ensure that cyber 
        intrusions and disruptions cause minimal damage to public and 
        private sector networks.
  <bullet> National Cyber Security Center (NCSC).--A total of $10 
        million is requested for the NCSC to enhance cyber security 
        coordination capabilities across the Federal Government 
        including mission integration, collaboration and coordination, 
        situational awareness and cyber incident response, analysis and 
        reporting, knowledge management, and technology development and 
        management.
                    ensuring resilience to disasters
  <bullet> Disaster Relief Fund (DRF).--The budget seeks funding of 
        $1.95 billion, an increase of $350 million for the DRF. The DRF 
        provides a significant portion of the total Federal response to 
        victims in declared major disasters and emergencies.
  <bullet> Federal Emergency Management Agency (FEMA) Facilities.--An 
        additional $23.3 million is requested to address critical FEMA 
        real estate needs. By fiscal year 2011, the capacity of FEMA 
        facilities will be unable to accommodate key mission 
        responsibilities and staff. FEMA also faces a critical need to 
        maintain and repair aging and deteriorating National 
        facilities. To address these needs, FEMA has developed a 5-year 
        capital plan to begin critical regional facility acquisitions 
        and repairs.
  <bullet> Pre-Disaster Mitigation Grants.--Total funding of $100 
        million is requested to provide program support and technical 
        assistance to State, local, and Tribal governments to reduce 
        the risks associated with disasters, support the National grant 
        competition and provide the required $500,000 per State 
        allocation. Resources will support the development and 
        enhancement of hazard mitigation plans, as well as the 
        implementation of pre-disaster mitigation projects.
  <bullet> Flood Map Modernization.--A total of $194 million is 
        requested to analyze and produce flood hazard data and map 
        products and communicate flood hazard risk. The funding will 
        support the review and update of flood hazard data and maps to 
        accurately reflect flood hazards and monitor the validity of 
        published flood hazard information.
  <bullet> Rescue 21.--A total of $36 million is requested for the 
        Rescue 21 system, enabling the U.S. Coast Guard to enhance 
        preparedness, ensure efficient emergency response, and rapidly 
        recover from disasters. The Rescue 21 system replaces the U.S. 
        Coast Guard's legacy National Distress and Response System and 
        improves communications and command and control capabilities in 
        the coastal zone. The system is the foundation for coastal 
        Search and Rescue and enhances maritime situational awareness 
        through increased communications ability with mariners and 
        other responders.
      maturing and strengthening the homeland security enterprise
  <bullet> St. Elizabeths Headquarters Consolidation.--To streamline 
        the Department's core operations, $287.8 million is requested 
        to consolidate executive leadership, operations coordination, 
        and policy and program management functions in a secure setting 
        at St. Elizabeths. The Department's facilities are currently 
        dispersed over more than 40 locations throughout the National 
        Capital Region (NCR). This consolidation at St. Elizabeths will 
        reduce the fragmentation of components and will improve 
        communications, coordination, and cooperation across all DHS 
        headquarters organizations.
  <bullet> Lease Consolidation--Mission Support.--A total of $75 
        million is requested to align the Department's real estate 
        portfolio in the NCR to enhance mission performance and 
        increase management efficiency in conjunction with St. 
        Elizabeths Headquarters Consolidation.
  <bullet> Data Center Migration.--A total of $192.2 million is 
        requested for the continuation of system and application 
        migration of legacy data centers to two enterprise-wide DHS 
        Data Centers to meet current and anticipated data service 
        requirements. Funding will also be utilized for upgrading 
        infrastructure requirements.
  <bullet> Acquisition Workforce.--The fiscal year 2011 request 
        includes an increase of $24.2 million to strengthen the 
        Department's acquisition workforce capacity and capabilities. 
        The increase is requested to mitigate the risks associated with 
        skill gaps of the acquisition workforce, ensure that the 
        Department achieves the best terms possible in major 
        acquisitions and improve the effectiveness of the workforce.
  <bullet> Science and Technology (S&T) Safe Container (SAFECON)/Time 
        Recorded Ubiquitous Sensor Technology (TRUST) R&D.--A total of 
        $8 million is requested for the S&T SAFECON and TRUST programs. 
        These initiatives develop high reliability, high-throughput 
        detection technologies to scan cargo containers entering the 
        country for weapons of mass destruction, explosives, 
        contraband, and human cargo.
  <bullet> Grants.--A total of $4 billion is requested for grant 
        programs to support our Nation's first responders. This funding 
        assists State and local governments in the prevention of, 
        protection against, response to, and recovery from incidents of 
        terrorism and other events.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

                                     TOTAL BUDGET AUTHORITY BY ORGANIZATION
                               Gross Discretionary & Mandatory, Fees, Trust Funds
----------------------------------------------------------------------------------------------------------------
                                Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year
                                2009 Revised     2010 Revised         2011       2011 +/- Fiscal     2011 +/-
                                Enacted \1\      Enacted \2\      President's       Year 2010       Fiscal Year
                             ----------------------------------      Budget          Enacted       2010 Enacted
                                                               -------------------------------------------------
                                [Thousands]      [Thousands]      [Thousands]      [Thousands]       [Percent]
----------------------------------------------------------------------------------------------------------------
Departmental Operations \3\.        $659,109         $802,931       $1,270,821         $467,890            58
Analysis and Operations.....         327,373          335,030          347,930           12,900             4
Office of the Inspector              114,513          113,874          129,806           15,932            14
 General....................
U.S. Customs & Border             11,250,652       11,449,283       11,180,018         (269,265)           -2
 Protection.................
U.S. Immigration & Customs         5,968,015        5,741,752        5,835,187           93,435             2
 Enforcement................
Transportation Security            6,992,778        7,656,066        8,164,780          508,714             7
 Administration.............
U.S. Coast Guard............       9,624,179       10,122,963       10,078,317          (44,646)            0
U.S. Secret Service.........       1,640,444        1,702,644        1,811,617          108,973             6
National Protection and            1,188,263        2,432,755        2,361,715          (71,040)           -3
 Programs Directorate.......
Office of Health Affairs....         157,621          139,250          212,734           73,484            53
Federal Emergency Management       5,971,159        6,194,268        6,527,406          333,138             5
 Agency.....................
FEMA: Grant Programs........       4,220,858        4,165,200        4,000,590         (164,610)           -4
U.S. Citizenship &                 2,876,348        2,859,997        2,812,357          (47,640)           -2
 Immigration Services.......
Federal Law Enforcement              332,986          282,812          278,375           (4,437)           -2
 Training Center............
S&T Directorate.............         932,587        1,006,471        1,018,264           11,793             1
Domestic Nuclear Detection           514,191          383,037          305,820          (77,217)          -20
 Office.....................
                             -----------------------------------------------------------------------------------
      TOTAL.................      52,771,076       55,388,333       56,335,737          947,404             1.71
Less Rescission of Prior             (61,373)         (40,474)  ...............          40,474          -100
 Year Carryover Funds \4\...
                             -----------------------------------------------------------------------------------
      ADJUSTED TOTAL BUDGET       52,709,703       55,347,859       56,335,737          987,878             2
       AUTHORITY............
                             -----------------------------------------------------------------------------------
SUPPLEMENTAL \5\............       3,354,503          295,503   ...............        (295,503)  ..............
Less Rescission of Prior            (100,000)  ...............  ...............  ...............  ..............
 Year Carryover Funds \5\...
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal Year 2009 revised enacted reflects: (1) Net reprogramming/transfer adjustments for OSEM ($17.4
  million); OIG ($16.0 million); CBP (-$24.1 million); ICE ($16.4 million); TSA ($14.4 million); USCG ($.400
  million); USSS ($2.5 million); NPPD ($30 million); OHA ($.430 million); FEMA (-$39.5 million). (2) Technical
  adjustments to revise fee/trust fund estimates for ICE--Immigration Inspection User Fee ($7.0 million); ICE--
  Detention and Removal Examination Fee ($1.4 million); ICE--Breached Bond/Detention Fund ($15.0 million); TSA--
  Transportation Threat and Credentialing--Registered Traveler (-$10.0 million), TSA--Transportation Threat and
  Credentialing--Transportation Worker Identification Credentials ($22.7 million); TSA--Transportation Threat
  and Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and Credentialing--Alien Flight School
  ($1.0 million); CIS ($185.4 million); USCG ($7.9 million). (3) Realignment of USCG Operating Expenses funding
  and Pursuant to Pub. L. 110-53 reflects TSA realignment of funds for 9/11 Commission Act implementation
  ($3.675 million--Aviation Security, $13.825 million--Surface, $2.5 million--Support). (4) Scorekeeping
  adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$20.0 million).
\2\ Fiscal year 2010 revised enacted reflects: (1) Technical adjustments for TSA Aviation Security Fees of
  ($128.9 million); USCG Health Care Fund ($5.0 million). (2) Scorekeeping adjustment for a rescission of prior
  year unobligated balances from USCG--AC&I (-$.800 million). (3) For comparability purposes, excludes USCG
  Overseas Contingency Operations ($241.5 million) and National Science Foundation transfer to USCG of $54.0
  million.
\3\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of
  the Federal Coordinator for Gulf Coast Rebuilding, the Office of the Under Secretary for Management, the
  Office of the Chief Financial Officer, the Office of the Chief Information Officer, and the National Special
  Security Events Fund (NSSE).
\4\ Pursuant to Pub. L. 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances:
  Analysis and Operations (-$21.373 million); TSA (-$31.0 million); FEMA--Cerro Grande (-$9.0 million). Pursuant
  to Pub. L. 111-83, reflects fiscal year 2010 rescissions of prior year unobligated balances: Analysis and
  Operations (-$2.4 million); TSA (-$4.0 million); Counter-Terrorism Fund (-$5.6 million); FEMA (-$5.6 million);
  S&T (-$6.9 million); DNDO (-$8.0 million).
\5\ In order to obtain comparable figures, Net Discretionary, Gross Discretionary, and Total Budget Authority
  excludes: (1) Fiscal year 2009 supplemental funding pursuant to Pub. L. 110-252: USCG ($112 million). (2)
  Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-5 (ARRA): USM ($200 million); OIG ($5 million);
  CBP ($680 million); ICE ($20 million); TSA ($1.0 billion); USCG ($240 million); FEMA ($610 million). (3)
  Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-8: USSS ($100 million). (4) Fiscal year 2009
  supplemental funding pursuant to Pub. L. 111-32: CBP ($51.2 million); ICE ($66.8 million); USCG ($139.5
  million); FEMA ($130.0 million). (5) Pursuant to Pub. L. 111-32 reflects fiscal year 2009 rescissions of prior
  year unobligated balances: FEMA (-$100.0 million). (6) Fiscal year 2010 Overseas Contingency Operations
  funding provided in Pub. L. 111-83: USCG ($241.5 million). (7) Fiscal year 2010 Supplemental funding pursuant
  to Pub. L. 111-117: USCG ($54.0 million).


                                   NET DISCRETIONARY AUTHORITY BY ORGANIZATION
             Excludes Discretionary Offsetting Fees & Mandatory, Non-Offsetting Fees, & Trust Funds
----------------------------------------------------------------------------------------------------------------
                                Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year
                                2009 Revised     2010 Revised         2011       2011 +/- Fiscal     2011 +/-
                                Enacted \1\      Enacted \2\      President's       Year 2010       Fiscal Year
                             ----------------------------------      Budget          Enacted       2010 Enacted
                                                               -------------------------------------------------
                                [Thousands]      [Thousands]      [Thousands]      [Thousands]       [Percent]
----------------------------------------------------------------------------------------------------------------
Departmental Operations \3\.        $659,109         $802,931       $1,270,821         $467,890            58
Analysis and Operations.....         327,373          335,030          347,930           12,900             4
Office of the Inspector              114,513          113,874          129,806           15,932            14
 General....................
U.S. Customs & Border              9,803,667       10,134,554        9,817,117         (317,437)           -3
 Protection.................
U.S. Immigration & Customs         5,005,615        5,436,952        5,523,800           86,848             2
 Enforcement................
Transportation Security            4,369,358        5,129,505        5,724,000          594,495            12
 Administration.............
U.S. Coast Guard............       8,104,707        8,541,749        8,466,537          (75,212)           -1
U.S. Secret Service.........       1,415,444        1,482,644        1,571,617           88,973             6
National Protection and            1,188,263        1,317,755        1,246,715          (71,040)           -5
 Programs Directorate.......
Office of Health Affairs....         157,621          139,250          212,734           73,484            53
Federal Emergency Management       2,777,560        2,963,268        3,292,860          329,592            11
 Agency.....................
FEMA: Grant Programs........       4,220,858        4,165,200        4,000,590         (164,610)           -4
U.S. Citizenship &                   152,490          224,000          385,800          161,800            72
 Immigration Services.......
Federal Law Enforcement              332,986          282,812          278,375           (4,437)           -2
 Training Center............
S&T Directorate.............         932,587        1,006,471        1,018,264           11,793             1
Domestic Nuclear Detection           514,191          383,037          305,820          (77,217)          -20
 Office.....................
                             -----------------------------------------------------------------------------------
      TOTAL.................      40,076,342       42,459,032       43,592,786        1,133,754             2.67
Less Rescission of Prior             (61,373)         (40,474)  ...............         -40,474          -100
 Year Carryover Funds \4\...
Mandatory, Fees, and Trusts.      12,694,734       12,929,301       12,742,951   ...............  ..............
ADJUSTED TOTAL BUDGET             52,709,703       55,347,859       56,335,737          987,878             2
 AUTHORITY..................
                             -----------------------------------------------------------------------------------
SUPPLEMENTAL \5\............       3,354,503          295,503   ...............        (295,503)  ..............
Less Rescission of Prior            (100,000)  ...............  ...............  ...............  ..............
 Year Carryover Funds \5\...
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 revised enacted reflects: (1) Net reprogramming/transfer adjustments for OSEM ($17.4
  million); OIG ($16.0 million); CBP (-$24.1 million); ICE ($16.4 million); TSA ($14.4 million); USCG ($.400
  million); USSS ($2.5 million); NPPD ($30 million); OHA ($.430 million); FEMA (-$39.5 million). (2) Technical
  adjustments to revise fee/trust fund estimates for ICE--Immigration Inspection User Fee ($7.0 million); ICE--
  Detention and Removal Examination Fee ($1.4 million); ICE--Breached Bond/Detention Fund ($15.0 million); TSA--
  Transportation Threat and Credentialing--Registered Traveler (-$10.0 million), TSA--Transportation Threat and
  Credentialing--Transportation Worker Identification Credentials ($22.7 million); TSA--Transportation Threat
  and Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and Credentialing--Alien Flight School
  ($1.0 million); CIS ($185.4 million); USCG ($7.9 million). (3) Realignment of USCG Operating Expenses funding
  and Pursuant to Pub. L. 110-53 reflects TSA realignment of funds for 9/11 Commission Act implementation
  ($3.675 million--Aviation Security, $13.825 million--Surface, $2.5 million--Support). (4) Scorekeeping
  adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$20.0 million).
\2\ Fiscal year 2010 revised enacted reflects: (1) Technical adjustments for TSA Aviation Security Fees of
  ($128.9 million); USCG Health Care Fund ($5.0 million). (2) Scorekeeping adjustment for a rescission of prior
  year unobligated balances from USCG--AC&I (-$.800 million). (3) For comparability purposes, excludes USCG
  Overseas Contingency Operations ($241.5 million) and National Science Foundation transfer to USCG of $54.0
  million.
\3\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of
  the Federal Coordinator for Gulf Coast Rebuilding, the Office of the Under Secretary for Management, the
  Office of the Chief Financial Officer, the Office of the Chief Information Officer, and the National Special
  Security Events Fund (NSSE).
\4\ Pursuant to Pub. L. 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances:
  Analysis and Operations (-$21.373 million); TSA (-$31.0 million); FEMA--Cerro Grande (-$9.0 million). Pursuant
  to Pub. L. 111-83, reflects fiscal year 2010 rescissions of prior year unobligated balances: Analysis and
  Operations (-$2.4 million); TSA (-$4.0 million); Counter-Terrorism Fund (-$5.6 million); FEMA (-$5.6 million);
  S&T (-$6.9 million); DNDO (-$8.0 million).
\5\ In order to obtain comparable figures, Net Discretionary, Gross Discretionary, and Total Budget Authority
  excludes: (1) Fiscal year 2009 supplemental funding pursuant to Pub. L. 110-252: USCG ($112 million). (2)
  Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-5 (ARRA): USM ($200 million); OIG ($5 million);
  CBP ($680 million); ICE ($20 million); TSA ($1.0 billion); USCG ($240 million); FEMA ($610 million). (3)
  Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-8: USSS ($100 million). (4) Fiscal year 2009
  supplemental funding pursuant to Pub. L. 111-32: CBP ($51.2 million); ICE ($66.8 million); USCG ($139.5
  million); FEMA ($130.0 million). (5) Pursuant to Pub. L. 111-32 reflects fiscal year 2009 rescissions of prior
  year unobligated balances: FEMA (-$100.0 million). (6) Fiscal year 2010 Overseas Contingency Operations
  funding provided in Pub. L. 111-83: USCG ($241.5 million). (7) Fiscal year 2010 Supplemental funding pursuant
  to Pub. L. 111-117: USCG ($54.0 million).

             key fiscal year 2009 accomplishments & reforms
    In 2009, our 230,000 employees strengthened existing efforts and 
launched new initiatives to meet our five key responsibilities: 
Guarding against terrorism; securing our borders; engaging in smart, 
effective enforcement of immigration laws; preparing for, responding 
to, and recovering from disasters of all kinds; and building a mature 
and unified Department.
    DHS has emphasized three cross-cutting approaches to achieve these 
aims--increasing cooperation with Federal, State, Tribal, local, 
private sector, and international partners; deploying the latest 
science and technology to support our mission; and maximizing 
efficiency and streamlining operations across the Department.
    As a result, we have made major advances in addressing new and 
emerging threats to keep our homeland safe, fostering lawful trade and 
travel and continuing to build a ready and resilient Nation able to 
meet the challenges of the 21st century. The following are some key 
initiatives accomplished this past year.
Guarding Against Terrorism and Threats to Cyber Networks and Critical 
        Infrastructure
    Protecting the American people from terrorist threats is the 
founding purpose of the Department and a top priority. Over the past 
year, DHS has continued to guard against terrorism by enhancing 
explosives detection and other protective measures in public spaces and 
transportation networks, working with the private sector to protect 
critical infrastructure and cyber networks from attack, improving 
detection of chemical, biological, radiological, and nuclear materials, 
and building information-sharing partnerships with State and local law 
enforcement that enable law enforcement to better mitigate threats.
  <bullet> Fulfilling a key 9/11 Commission recommendation, TSA began 
        implementing Secure Flight, which prescreens passenger name, 
        date of birth, and gender against Government watch lists for 
        domestic and international flights.
  <bullet> TSA achieved the 9/11 Act requirement of screening 50 
        percent of air cargo transported on domestic passenger 
        aircrafts by February 3, 2009. Currently, 100 percent of cargo 
        is screened on more than 95 percent of flights originating in 
        the United States and 100 percent of all baggage is screened 
        for explosives.
  <bullet> The Domestic Nuclear Detection Office directly trained more 
        than 3,600 Federal, State, and local officers and first 
        responders in radiological and nuclear detection and began 
        demonstrating the first-of-its-kind Cargo Advanced Automated 
        Radiography System, which aims to detect special nuclear 
        materials and shielding material in cargo at ports of entry.
  <bullet> DHS opened the new National Cyber Security and 
        Communications Integration Center--a 24-hour, DHS-led 
        coordinated watch and warning center that will improve National 
        efforts to address threats and incidents affecting the Nation's 
        critical IT and cyber infrastructure.
  <bullet> DHS worked with the Office of Personnel Management to attain 
        new authority to recruit and hire up to 1,000 cyber security 
        professionals across the Department over the next 3 years to 
        help fulfill DHS' broad mission to protect the Nation's cyber 
        infrastructure, systems, and networks.
  <bullet> S&T partnered with the U.S. Secret Service, industry, and 
        academia to digitize more than 9,000 ink samples to expedite 
        the investigation of criminal and terrorist activities by 
        reducing matching times from days to minutes.
  <bullet> DHS held the 5-day National Level Exercise 2009--the first 
        National-level exercise to focus on terrorism prevention--in 
        conjunction with Federal, State, local, Tribal, private sector, 
        and international partners.
  <bullet> In accordance with the Chemical Facilities Anti-Terrorism 
        Standards Act (CFATS), which allows DHS to regulate the 
        security measures at high-risk chemical facilities, DHS is 
        working with 2,300 facilities on strengthening security 
        measures. In 2009, DHS received Site Security Plans from over 
        900 regulated facilities.
  <bullet> DHS signed agreements to prevent and combat crime with 
        Italy, Greece, Portugal, and Spain. These agreements allow for 
        the exchange of biometric and biographic data to bolster 
        counterterrorism and law enforcement efforts while emphasizing 
        privacy protections.
  <bullet> DHS and Spanish Interior Minister Perez Rubalcaba signed a 
        Declaration of Principles formalizing the Immigration Advisory 
        Program--which identifies high-risk travelers at foreign 
        airports before they board aircraft bound for the United 
        States.
  <bullet> DHS forged partnerships with Germany and Spain to facilitate 
        scientific research and collaboration to combat transnational 
        threats.
  <bullet> DHS and Canadian Public Safety Minister Peter Van Loan 
        announced a series of cooperative initiatives between the 
        United States and Canada to address terrorism and organized 
        crime while expediting the lawful flow of travel and trade--
        including a biometric data sharing initiative also involving 
        Australia, the United Kingdom and, eventually, New Zealand.
Securing Our Borders While Facilitating Lawful Travel and Trade
    In 2009, DHS continued to strengthen security on the Southwest 
border through additional manpower and new technology to disrupt the 
flow of illegal drug, cash, and weapon smuggling that fuels cartel 
violence in Mexico. The Department also reinforced security on the 
Northern border while facilitating lawful travel and trade.
  <bullet> The Obama administration announced the Southwest Border 
        Security Initiative, a joint effort of the Departments of 
        Homeland Security, Justice, and State to crack down on Mexican 
        drug cartels by enhancing border security through additional 
        personnel, increased intelligence capability, and better 
        coordination with State, local, and Mexican law enforcement 
        authorities. As of December 8, 2009, CBP has seized more than 
        $38.3 million in southbound currency--an increase of more than 
        $29.3 million compared to the same period in 2008. In total 
        thus far in 2009, CBP and ICE have seized more than $101.7 
        million and nearly 1.59 million kilograms of drugs--an increase 
        of more than $48.2 million and more than 423,167 kilograms of 
        drugs compared to the same period in 2008.
  <bullet> DHS implemented the Western Hemisphere Travel Initiative for 
        land and sea travel to the United States, increasing border 
        security while facilitating lawful travel and trade by 
        requiring U.S. and Canadian citizens to present a passport or 
        other approved secure document that denotes identity and 
        citizenship when crossing the border.
  <bullet> DHS and the Department of Justice joined with the Office of 
        National Drug Control Policy to release the National Southwest 
        Border Counternarcotics Strategy, the Obama administration's 
        strategy to stem the flow of illegal drugs and their illicit 
        proceeds across the Southwest border and reduce associated 
        crime and violence.
  <bullet> The Department announced the expansion of Global Entry--a 
        CBP pilot program that streamlines the screening process at 
        airports for trusted travelers through biometric 
        identification--as a permanent voluntary program at airports 
        across the United States. Global Entry reduces average wait 
        times by more than 70 percent and more than 75 percent of 
        travelers using Global Entry are admitted in less than 5 
        minutes.
  <bullet> DHS launched a joint Coast Guard-CBP effort to use Predator 
        Unmanned Aerial Systems (UAS) to provide improved surveillance 
        of the United States' maritime borders. DHS will conduct the 
        first UAS operations along maritime borders in 2010.
  <bullet> DHS, the Department of Justice, and the Government of Mexico 
        signed a Letter of Intent to develop a coordinated and 
        intelligence-driven response to the threat of cross-border 
        smuggling and trafficking of weapons and ammunition. This 
        first-of-its-kind arrangement leverages the combined 
        investigative capabilities of ICE, the Bureau of Alcohol, 
        Tobacco, Firearms and Explosives, and the Attorney General of 
        Mexico to combat violence and criminal activity along the U.S.-
        Mexico border.
  <bullet> Through Global Entry, DHS launched a first-of-its-kind 
        initiative with the Netherlands to open membership in U.S. and 
        Dutch expedited air travel programs to citizens of both 
        countries in an effort to streamline entry processes for pre-
        screened fliers.
Engaging in Smart, Effective Immigration Law Enforcement
    Over the past year, DHS has strengthened its immigration 
enforcement activities, targeting criminal aliens and employers who 
violate the Nation's immigration laws, while making improvements to the 
legal immigration system.
  <bullet> DHS implemented a new, comprehensive strategy to reduce the 
        demand for illegal employment and protect employment 
        opportunities for the Nation's lawful workforce by targeting 
        employers who knowingly hire illegal workers through 
        investigations, prosecution, and civil and criminal penalties. 
        Since January 2009, DHS' new worksite enforcement policies have 
        led to 1,897 cases and 2,069 Form I-9 inspections targeting 
        employers, 58 companies and 62 individuals debarred, and 142 
        Notices of Intent to Fine totaling $15,865,181 issued.
  <bullet> DHS is reforming the immigration detention system, enhancing 
        security and efficiency Nation-wide while prioritizing the 
        health and safety of detainees. New initiatives include 
        creating an Office of Detention Policy and Planning to ensure 
        uniform conditions of confinement, medical care, and design; 
        implementing a medical classification system; centralizing all 
        detention facility contracts under ICE headquarters' 
        supervision; developing a plan for alternatives to detention; 
        more than doubling the number of Federal personnel providing 
        on-site oversight at the facilities where the majority of 
        detainees are housed; creating two advisory boards comprised of 
        community and immigration advocacy groups; and establishing an 
        independent Office of Detention Oversight reporting directly to 
        the ICE Assistant Secretary.
  <bullet> DHS expanded the Secure Communities initiative--which uses 
        biometric information to target criminal aliens in U.S. 
        correctional facilities--from 14 to 107 locations in 2009, 
        reflecting an increased emphasis on identifying and removing 
        criminal aliens who pose the greatest threat to public safety. 
        To date, the program has identified more than 111,000 aliens in 
        jails and prisons who have been charged with or convicted of 
        criminal offenses.
  <bullet> USCIS and the FBI cleared the backlog of a year or more for 
        background checks on people seeking to work and live in the 
        United States or become citizens--reflecting DHS' commitment to 
        quick, thorough, and fair adjudication of immigration 
        applications. The vast majority of these checks are now 
        answered within 30 days. At the end of fiscal year 2009, USCIS 
        also reduced the backlog of pending immigration applications 
        and petitions by more than 90 percent and reduced average 
        processing times for naturalization applicants by nearly 5 
        months as compared to fiscal year 2008.
  <bullet> USCIS launched a redesigned website--available in English 
        and Spanish--which provides a one-stop location for immigration 
        services and information, including real-time alerts on the 
        status of immigration applications via text message and e-mail.
  <bullet> USCIS increased employer participation in E-Verify, the 
        Nation's preeminent employment eligibility verification system, 
        from 88,000 companies at the end of fiscal year 2008 to more 
        than 177,000 employers today.
Preparing for, Responding to, and Recovering From Disasters
    In the event of a terrorist attack, natural disaster, or other 
large-scale emergency, the Department provides a coordinated, 
comprehensive Federal response and works with Federal, State, local, 
and private sector partners to ensure a swift and effective recovery 
effort. This year, DHS increased efforts to build a ready and resilient 
Nation by providing grants and training to our homeland security and 
law enforcement partners, coordinating the Federal Government's 
response to H1N1, and streamlining rebuilding and recovery along the 
Gulf Coast.
  <bullet> DHS led the Federal response to the H1N1 outbreak, creating 
        regional coordination teams comprised of representatives from 
        DHS and the Departments of Defense and Health and Human 
        Services to oversee, coordinate, and execute National incident 
        management responsibilities. DHS also coordinated outreach 
        efforts to Congressional, State, local, Tribal, private sector, 
        and international officials regarding the H1N1 outbreak.
  <bullet> Since January 20, 2009, Louisiana and Mississippi have 
        received more than $2.1 billion in public assistance from DHS, 
        including $125 million for debris removal and emergency 
        protective measures, $935.5 million in public works and 
        infrastructure projects, $258 million for mitigation activities 
        to increase resilience and more than $542 million for K-12 
        education. In addition, more than 6,000 displaced households in 
        Louisiana and Mississippi have been transitioned to permanent 
        housing.
  <bullet> To cut through red tape and streamline and expedite the 
        decision-making process for public assistance for recovery 
        efforts in the Gulf Coast, DHS established two joint public 
        assistance teams and a new arbitration process to resolve long-
        standing issues over public assistance funding. Over the past 
        10 months, the Joint Expediting Team and the Unified Public 
        Assistance Project Decision Team have resolved 156 projects, 
        distributing more than $100 million dollars to support the 
        repair and replacement of fire and police stations, schools 
        like the Southern University of New Orleans and Holy Cross 
        School, libraries, and other infrastructure critical to the 
        recovery of Gulf Coast communities.
  <bullet> FEMA has responded to 47 declared disasters since January 
        21, 2009, including the Red River flooding in North Dakota and 
        Minnesota, the September flooding in Georgia, and the 
        earthquake and tsunami that struck American Samoa.
Unifying and Maturing DHS
    Six years since the Department's creation, DHS' goal remains the 
same: One enterprise dedicated to a shared vision for homeland 
security. Over the past year, DHS implemented a series of wide-ranging 
efficiency initiatives that leverage the economies of scale in DHS in 
order to recover millions of dollars and create a culture of 
responsibility and fiscal discipline. At the same time, the Department 
leveraged new technology to improve DHS operations, coordination, and 
outreach.
  <bullet> DHS broke ground on its new headquarters at the St. 
        Elizabeths Campus. While DHS currently operates in more than 40 
        offices around the National Capitol Region, the consolidated 
        headquarters will unify DHS' many components into one cohesive 
        department and is expected to save taxpayers $163 million over 
        the next 30 years.
  <bullet> DHS launched the Efficiency Review Initiative to improve 
        efficiency, streamline operations, and promote greater 
        accountability, transparency, and customer satisfaction through 
        a series of initiatives--including eliminating non-mission 
        critical travel, renegotiating contracts, utilizing Government 
        facilities instead of private rentals, reducing printing and 
        postal mail and maximizing the use of web-based communication, 
        training and meetings, implementing energy efficiencies in DHS 
        facilities and maximizing DHS' buying power to receive the 
        lowest price possible when acquiring office supplies and 
        software licenses. These initiatives collectively are expected 
        to lead to hundreds of millions of dollars in cost avoidances. 
        This past year, DHS identified more than $100 million in cost 
        savings including $22 million by eliminating non-mission 
        critical travel; $16 by utilizing software licensing agreements 
        DHS-wide; $7 million through the mandatory review of contracts; 
        $9 million by eliminating redundancy in processing mariner 
        credentials; $8 million by consolidating the DHS sensitive-but-
        unclassified portal system; almost $4 million by posting 
        documents on-line or using e-mail in lieu of printing and 
        postal mail; $2 million by streamlining boat maintenance and 
        support schedules; $2 million by utilizing Government 
        facilities instead of private rentals; almost $2 million by 
        increasing energy efficiencies at facilities and many more 
        examples across the Department.
  <bullet> S&T launched the Virtual USA initiative, an innovative, 
        information-sharing initiative that helps Federal, State, 
        local, and Tribal first responders communicate during 
        emergencies by linking disparate tools and technologies in 
        order to share the location and status of critical assets and 
        information--such as power and water lines, flood detectors, 
        helicopter-capable landing sites, emergency vehicle and 
        ambulance locations, weather and traffic conditions, evacuation 
        routes and school and Government building floor plans--across 
        Federal, State, local, and Tribal governments.
              selected dhs high-priority performance goals
Preventing Terrorism and Enhancing Security
  <bullet> Improve security screening of passengers, baggage, and 
        employees while expediting the movement of the traveling public 
        (aviation and surface transportation security).--Fiscal year 
        2011 initiatives include deploying new technology, law 
        enforcement, and canine assets at domestic airports, enhancing 
        checkpoint technology, implementing the Transportation Workers 
        Identification Credential (TWIC) program--which requires 
        transportations workers to obtain a biometric identification 
        card to gain access to secure areas of transportation 
        facilities, and strengthening our Visible Intermodal Prevention 
        and Response (VIPR) teams-- which use unpredictability to 
        deter, detect, and disrupt potential terrorist activities, will 
        help us to achieve these goals.
Securing and Managing Our Borders
  <bullet> Prevent terrorist movement at land ports of entry and 
        maritime borders through enhanced screening while expediting 
        the flow of legitimate travel.--Fiscal year 2011 initiatives 
        include implementing the Western Hemisphere Travel Initiative 
        by deploying new technology, upgrading our processing 
        capabilities at border checkpoints, and enhancing information 
        sharing among law enforcement, as well as continuing 
        recapitalization of aging Coast Guard surface and air assets to 
        quickly and effectively respond to emerging threats.
Enforcing and Administering Our Immigration Laws
  <bullet> Improve the efficiency of the process to detain and remove 
        illegal immigrants from the United States.
  <bullet> Improve the delivery of immigration services.--Fiscal year 
        2011 initiatives include increasing our targets for detaining 
        and removing dangerous criminal aliens from the United States 
        through our Secure Communities program--which uses biometrics 
        to identify and remove criminal aliens incarcerated in State 
        and local jails--by 4 percent per year. Additionally, we will 
        improve the delivery of immigration services by modernizing our 
        adjudication process for new immigrants and potential citizens.
Ensuring Resilience to Disasters
  <bullet> Strengthen disaster preparedness and response by improving 
        FEMA's operational capabilities and enhancing State, local, and 
        private citizen preparedness.--In fiscal year 2011, FEMA will 
        continue to enhance its training programs to help State and 
        local entities prepare for all types of disasters. FEMA is also 
        developing a National strategy to house up to half a million 
        households within 60 days of a disaster--increasing current 
        capacity by 200 percent.
Maturing and Strengthening the Homeland Security Enterprise
  <bullet> Mature and unify the Homeland Security Enterprise through 
        effective information sharing.
  <bullet> Improve acquisition execution across the DHS acquisition 
        portfolio, by ensuring key acquisition expertise resides in 
        major program office and acquisition oversight staffs 
        throughout the Department.--In fiscal year 2011, our efforts 
        will focus on information sharing across all departmental 
        components. Additionally, the Department is undertaking an 
        initiative to enhance the capability and capacity of its 
        acquisition workforce to ensure that major acquisition projects 
        do not exceed cost, schedule, and performance objectives.
    We will focus on these goals over the next 2 years and continue to 
work closely with the Office of Management and Budget in the monitoring 
and reporting of milestones and performance measures associated with 
them. As we continue the Bottom-Up Review associated with the QHSR, we 
may update these goals and associated measures.
                               conclusion
    The fiscal year 2011 budget proposal reflects this administration's 
continued commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, the Department will build on past successes in 
several areas including information sharing with our partners, aviation 
and port security measures, and immigration reform efforts.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2011 budget request and other issues.

    Chairman Thompson. Thank you very much for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the Secretary. I will now recognize myself 
for the first question.
    Madame Secretary, it goes to the issue of maritime cargo 
screening. Congress thought, along with leadership, Ms. Harman 
and some other folks, that our ports and the whole issue of 
screening and the vulnerabilities associated with not knowing 
what is coming into the country was a real issue. We passed 
legislation mandating 100 percent scanning by 2012.
    Since that time the Secretary before you and now you have 
taken the position that it can't be done. This budget reflects 
a 48 percent decrease in resources to do that. Explain that to 
the committee, please.
    Secretary Napolitano. The monies requested for the 
Container Security Initiative reflects the fact that with 
increasing technology and increasing implementation of 
initiatives that were begun under my predecessor, that we can 
achieve the screening necessary of containers and cargo with 
the 10+2 rule, which is now in effect with electronic records 
of what is in cargo, which is now in effect with 24-hour notice 
of what is in cargo, which is now in effect, all things that 
didn't exist, really, at the time that the 100 percent 
requirement was contemplated. So we have been addressing this 
from a risk-based and a technology-based approach to get to 
where we need to be.
    Chairman Thompson. Are you going to propose to change the 
law that Congress established, saying 2012 is the date that the 
100 percent has to be maintained?
    Secretary Napolitano. Mr. Chairman, I think I have been 
pretty--my assessment, and I looked at it independently of my 
predecessor, but my assessment has turned out to be the same as 
his, which is that the 100 percent requirement is not 
achievable by 2012. So we will need to work with the committee 
this year on what we are asking for, how it will secure our 
ports, and what statutory changes may need to be made.
    Chairman Thompson. So based on what you just said, what is 
your best guess as to when 100 percent cargo screening will be 
attained?
    Secretary Napolitano. Mr. Chairman, I would like the 
opportunity to address with the committee, if not today, at 
some other time, whether the 100 percent screening is really 
the way to go, now that we know more than we did when the 100 
percent screening requirement was imposed.
    Chairman Thompson. Let me say it would benefit the 
relationship if that request would come before we read it in 
the paper that you can't do it. Our expectations, Madame 
Secretary, is that if there is a law with deadlines on it and 
there are problems, please come talk to us. But when we read 
about it in the newspaper that you are not going to do it, it 
is a problem.
    I say to you if you can't do it, we hear the part, but the 
public expects some direction toward satisfying the 100 percent 
mandate. Congress expects it.
    The other issue is last year you talked about the issue of 
collective bargaining rights for TSOs. Can you tell me, based 
on last year you told us that you were checking with general 
counsel and general counsel would tell you whether you could do 
it, do you have the authority to act administratively on 
collective bargaining rights?
    Secretary Napolitano. Let me take two points, Mr. Chairman. 
First of all, I am sorry if you read about the 100 percent in 
the paper. I have testified on that before, before in the 
Senate, and I think I also submitted some statements in that 
regard.
    But I think we need to further that dialogue, because we 
need to look at what is the best way to secure our ports, the 
cargo that comes into the ports, and the myriad ways that cargo 
comes into our ports. The plain fact of the matter is I think 
we just plain know more now than we did when the 100 percent 
requirement was developed.
    So I look forward to testifying or bringing information 
before this committee, because we have--I know I have, at 
least--testified at least once on this.
    Moving forward on the collective bargaining issue, my 
understanding is that we do have the authority to collective 
bargaining under the current law.
    Chairman Thompson. Do you plan to exercise this authority?
    Secretary Napolitano. We are working with our TSOs, but we 
are not collectively bargaining with them right now.
    Chairman Thompson. You are aware that we have had a vote in 
the House on this issue in the past----
    Secretary Napolitano. Indeed.
    Chairman Thompson [continuing]. And that the House said it 
is fine to do it.
    Secretary Napolitano. Indeed.
    Chairman Thompson. Thank you.
    I will yield to the Ranking Member for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Madame Secretary, on the issue of Secure the Cities, you 
and I have been through this before, but the House has in a 
number of times in separate votes overwhelmingly indicated 
support for this program. I believe it is absolutely essential. 
If we look at Madrid, if we look at London, it is very likely 
the next attack against a major urban area is going to come 
from outside.
    The ultimate nightmare would be a dirty bomb coming in. New 
York City has set up a Secure the Cities nuclear detection 
system, basically, which forms a guard around the city, the 
highways, the bridges, tunnels leading into the city from the 
suburbs. It involves, I believe, 70 different law enforcement 
agencies from throughout New York, New Jersey, Connecticut, and 
yet it has been zeroed out in this year's budget.
    We seem to go through the same argument. The money hasn't 
been spent. Actually, as far as I know--I have been going 
through it--all the money has either been spent or obligated or 
is awaiting approval.
    For instance, on the 2009 funding, even though the budget 
was adopted, you know, long ago, it was not awarded to New York 
until October 2009. Still, applications are in, and so there is 
really no money to be accounted for. It is either spent, 
obligated, or awaiting approval from the Department, from DNDO.
    I just think a serious mistake is being made here. It puts 
the city at risk, and not just New York City, but the way the 
legislation is drafted, money will also be spent in other 
cities around the country.
    Secretary Napolitano. Congressman, first of all, I 
recognize that New York City and the area around it is a 
target, as far--and we know that. It receives literally 
hundreds of millions in various programs because of that.
    Securing the Cities, however, was one small program 
relative to the denominator. It was designed to be a 3-year 
grant program, after which if New York City wished to pursue 
it, they could use UASI or other grant monies.
    We do have one of these budgeteer issues going on. Has New 
York City actually even obligated the money they have already 
received that is in the pipeline or not? Our budgeteers say 
they haven't. I am given to understand that New York City 
believes it has. Somewhere there ought to be an agreement 
there, but there is that.
    But the more important point, I think, is that as a pilot 
program, which it was, a 3-year, it has not yet now--it is now 
time for be--to be really assessed independently as to whether 
it is effective or not, given and comparing it to other types 
of protective technologies and programs that are available 
there.
    I think that that audit--or it is not an audit; it is 
really an assessment--will be happening this year, but we need 
to proceed forward and really make sure that if we are going to 
continue funding Securing the Cities, if the Congress wants to, 
it really is value added to the other millions of dollars that 
we are putting into the greater New York area.
    Mr. King. Again, there is, then, I would say a basic 
misunderstanding. I don't believe it was ever believed by New 
York that this was just going to end after 3 years as far as 
the funding----
    Secretary Napolitano. Yes.
    Mr. King [continuing]. Just by the nature of the program. I 
think it is not just New York. It is New York, New Jersey, 
Connecticut, over 70 police departments and law enforcement 
agencies. I will let my friend, Mr. Pascrell, discuss it later.
    But it was never my understanding or anyone in the city, I 
don't believe, that this was to end after 3 years. It just 
wouldn't make sense. But in any event, I would like to follow 
this through with you and perhaps set up meetings with 
Commissioner Kelly on that.
    On the issue of the 9/11 trial in New York, were you ever 
consulted prior to the announcement by the Attorney General 
that it was going to be held in New York?
    Secretary Napolitano. I was not.
    Mr. King. Okay. My understanding is you have been 
appointed--you were, or the DHS was, part of a task force after 
the fact to determine the security course of the trial in Lower 
Manhattan. I had sent a letter to you and to the attorney 
general and to Director Leiter on January 29 requesting a copy 
of the classified threat assessment. I have not heard from you.
    I realize you have many letters on your desk and you have a 
broken leg, but if you could get that to us, because that to 
me, I would like to see how that threat assessment is being 
analyzed, what was taken into account, even if it was after the 
fact, especially in view of the Vice President's statement that 
he thinks that the number of $200 million or $230 million is an 
exaggeration. So if you can make that classified report 
available to us on the committee, it would be very, very 
helpful.
    Secretary Napolitano. Yes, I will follow up on that. I 
believe the budget request is for up to $200 million for 
terrorism trials per se. I think that contemplates that there 
could be other trials as well during fiscal year 2011. I know, 
Representative, you are focused on the KSM announcement, the 
KSM trial, but I believe the actual budget request was a little 
broader than that.
    Mr. King. I see my time is running out. Let me just ask one 
quick question for yes or no. Are you aware of any of the 
cities that are being considered for a Guantanamo detainee 
trial? You said the money could go places other than New York. 
Are you aware of any other city?
    Secretary Napolitano. It is my understanding that those 
assessments are being done by the Department of Justice.
    Mr. King. Okay.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    Now I recognize the gentleman from Texas for 5 minutes. Mr. 
Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman. Mr. Chairman----
    Madame Secretary, good seeing you again--just to note 
procedural issue that I think was raised by the Chairman, one 
of the questions that we had asked was what was it, the 181 
Border Patrol. I think at one time you all had said we are 
going to cut them by attrition, and then it came back and said 
we are not going to cut them.
    Alison, our staff, got the e-mail from you all today 
saying, ``Let Mr. Cuellar know we are not cutting 181 Border 
Patrol as originally proposed. We are taking this money 
elsewhere out from CBP to cover the $50 million comp.''
    The problem is we get this around 12:30 today, and we read 
it before that time in the--what was it--in the newspaper 
today. It is one of the issues that we have been asking, Madame 
Chair--I mean, Madame Secretary, that, you know, we are the 
oversight committee. We would like to get this before the media 
does, because when the media gets this--and nothing against the 
media--but when they get it before we do as oversighters, it 
just puts us in a very uncomfortable situation.
    So I would ask you again, you know, if you can just have 
your staff trust us and provide us the information before the 
media does. I mean, I have the memo here from Alison. I asked 
her, ``When did you exactly get it,'' and then the newspapers. 
So I would ask you as a procedural question to do that.
    The second thing is is the Coast Guard, the memo about them 
reducing the global terrorism missions. I am looking at it 
right now, and I am not going to go into detail, but if there 
is going to be a change in the mission, the mission of the 
Coast Guard, and you are taking the global terrorism mission to 
do more search or rescue, again, like the Chairman said, let us 
know before. At least give us a little heads-up on some of the 
matters again.
    We want to work with you. We want to be your friend and 
supporter on this. We want to just ask you to work with us on 
this. Do you want to address this? I want to talk about the 
good work you do with Mexico, which is what I want to conclude 
with.
    Secretary Napolitano. Well, if I might, that clarification 
on the CBP budget request was that is an exchange that has been 
going on with the appropriators, and I will let staff work with 
your staff on it. Do you want that? But if the press picked up 
something that was going on back and forth with the 
appropriators, I think that explains that. That is 
traditionally how that has been done.
    I think the Coast Guard memo to which you refer is a 
internal draft option paper that goes all the way back to last 
November and before the President's budget was even finalized. 
It is not something that is operative, nor is it where the 
President nor I believe the Coast Guard should go.
    So, unfortunately, it is one of those things in this town. 
Paper leaks out like water through a sieve, and that should--
but that is an internal pre-decisional paper.
    Mr. Cuellar. Okay. Thank you. So it is not--okay, good.
    On the story that came out also today, and the Washington 
Post apparently picked up a lot of things today, the question 
is about contractors outnumbering Federal workers. I saw your 
response to Senator Lieberman. My thing is I can understand the 
usage of some contractors. I don't have a problem against 
contractors, but, you know, you got to have some sort of 
balance.
    My only thing is that if you provide performance and 
oversight and performance measures to make sure that we are 
measuring that is that I am hoping that that is applying to 
those individuals, because if this story, and it is probably 
wrong, says that contractors employed by Homeland outnumber the 
number of Homeland Security people, I think that is going to 
raise some issues to a lot of Members on that.
    Secretary Napolitano. Right.
    Mr. Cuellar. Does it outnumber? Do contractors outnumber?
    Secretary Napolitano. Representative, it doesn't outnumber, 
but it is too high a number. There are reasons for that. When 
the Department was put together so quickly, given all the 
missions that it had and that were added to it, in order to 
move quickly enough, the use of contractors was required.
    What the Department has not had is a plan in place to 
convert those positions into Federal employees. That is what we 
are now pursuing through the Balanced Workforce Initiative. A 
problem we have in speeding that up--and I would like to speed 
it up, Mr. Chairman--is the pure length of time that it takes 
to on-board a Federal employee under the current statute rules 
and regs that govern civilian employment.
    It is something that at Senate Homeland Security yesterday, 
I said it is a problem Government-wide. But certainly for DHS 
as the newest department, it has slowed down, a conversion that 
we would like to do as rapidly as possible.
    Mr. Cuellar. My time is up, but just whatever you do 
working with Mexico--I know you were over there, and I want to 
congratulate you--keep up the good work, because I think we 
need to do a little bit more. We might have to look at, my 
opinion, maybe at 2.0, because they are in serious situations 
in what is happening.
    Thank you, Mr. Chairman.
    Thank you, Madame Secretary, for the work that you do.
    Secretary Napolitano. Thank you.
    Chairman Thompson. Thank you very much.
    Madame Secretary, if you could provide the committee with 
some outline of who these 200,000 people are. I know you can 
categorize them, you can do whatever you want, but based on 
what Mr. Cuellar is saying, we need to know are these 
professional people? Are these clerical people, or just what 
they are? So you don't have to give the title position, but----
    Secretary Napolitano. Kind of categories?
    Chairman Thompson. Absolutely. That would help.
    Secretary Napolitano. I think we already have that, but we 
will get that to you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I would like to ask unanimous consent to recognize Mr. Dent 
out of order. He has a family emergency he is going to have to 
attend.
    Without objection. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Thank you to the Members for your accommodation.
    Madame Secretary, thank you for being here, and 
particularly under your situation with your ankle. I just have 
a few questions for you today, but first just let me discuss an 
issue near and dear to the hearts of my fellow Pennsylvanians.
    Madame Secretary, I cannot support and in fact, I will 
vehemently oppose any attempt by the administration to relocate 
Guantanamo terror detainees to the Commonwealth of 
Pennsylvania, whether for detention or for prosecution, 
especially given the Flight 93 crash in Shanksville, 
Pennsylvania, on 9/11.
    Having recently visited the Gitmo facilities, I see 
absolutely no reason why these trials must be held in this 
country in the United States, let alone in the Commonwealth of 
Pennsylvania, and I will do everything within my power to 
prevent detainee trials from being held within the 
Commonwealth. Please, please encourage the Justice Department 
to look elsewhere. Certainly, I know that--I believe that is in 
their court. Please convey that message.
    That being said, I have some issues regarding the 
Department's budget request that I would like to discuss with 
you. In 2008 the Department promulgated the Larger Aircraft 
Security Program, known as the LASP program, the proposed 
rulemaking regarding general aviation security. John Sammon 
from TSA was working with industry to redefine those 
requirements to ensure that they were smart, sensible, and most 
importantly, enforceable.
    In light of the Austin, Texas, incident, can you please 
tell me where we are in the issuance of either an amended 
rulemaking or a completely new rulemaking for general aviation 
security?
    Secretary Napolitano. Yes, Representative. We are, 
obviously, taking a fresh look. We had done a proposed rule. We 
have been working with the general aviation community. We have 
the comments back. We had been prepared to issue a revised 
rule, but I have asked that we take another look at the rules 
in light of what happened to just to make sure that we are 
making the right judgments in terms of what kinds of security 
measures should be in place for what size of aircraft.
    Mr. Dent. Okay. Thank you. I have long been a proponent of 
using this advanced imaging technology or whole body imaging, 
and I know that you have been supportive as well, for improving 
our passenger security screening capabilities. I appreciate the 
investment that this budget proposes in these new state-of-the-
art technologies.
    However, even if we had these 500 new AIT machines in 
place, they wouldn't have stopped Abdulmutallab from killing 
300 people on Christmas day. He was--from almost killing 300 
people--he was screened overseas.
    While I understand you have been working with the 
International Civil Aviation Organization to strengthen these 
international security standards, are you willing to go it 
alone and require tougher security standards for flights 
entering the United States if the ICAO proves unhelpful?
    Secretary Napolitano. Well, the international aviation 
security work that we are doing right now is going very, very 
well. We have had meetings in Spain with my colleagues from the 
European Union. We just came back from Mexico City, where we 
had a Western Hemispheric meeting.
    Everybody realized that they all had citizenry on Flight 
253--or could have--and that there was a necessity to raise 
world aviation standards in terms of information collection, in 
terms of sharing information about passengers, passenger 
vetting, and in terms of airport screening and security itself. 
So that is going very well. We will be in Tokyo next week to 
meet with the aviation community in Asia.
    We always have the option, Representative, of refusing an 
airport to have a last point of embarkation to the United 
States. I don't know that that option has ever been employed, 
but we always retain it. But I think it better, given the fact 
that people need to be able to travel and commerce needs to be 
able to move and as well as meeting our security demands, to 
see if we can in this global world raise the overall level of 
aviation security.
    Mr. Dent. Okay. Well, thank you for that update.
    In August of this year, the 9/11 Act passed by Congress 3 
years ago would require all foreign in-bound passenger aircraft 
to screen its cargo prior to the aircraft's entry into the 
United States. The Department and TSA made it quite clear that 
they will not be able to meet the statutory requirement.
    Since the law requires you to ensure that 100 percent of 
all air cargo is screened, how are you going to handle those 
foreign in-bound aircraft who on August 4 had not screened 
their cargo? Will you prohibit their entry into the United 
States?
    Secretary Napolitano. Representative, I would prefer to 
brief you a little bit individually on that, but let me just 
say by the end of the year we should meet that 100 percent 
requirement on the air-bound cargo.
    Mr. Dent. Foreign air-bound cargo?
    Secretary Napolitano. Foreign. We will by early this year 
we will be all domestic, but my understanding is by the end of 
the year we will get to 100 percent on air-bound cargo from 
international.
    Mr. Dent. Okay. I was under the impression that we were not 
going to meet that foreign standard by August 4, so I would be 
curious----
    Secretary Napolitano. Not by August 4, but by a few months 
after that. I think we are on track to meet that standard. I 
will have that double-checked.
    Mr. Dent. Okay. Thank you.
    I will yield back. Thank you, Mr. Chairman, for the 
accommodation.
    Chairman Thompson. The Chairman now recognizes the 
gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Secretary, thank you for coming in today. It is good to see 
you.
    To start, I am going to start talking to you about the 
QHSRs. As you know, as the Chairman of the Management, 
Investigations and Oversight Subcommittee, we are pretty 
concerned about it. We have held a number of hearings and a 
number of briefings. I was really pleased to see the final 
product come out, although I think that there is probably some 
detail that is missing.
    Now, I know that you are going to issue fairly soon the 
Bottom-Up Review, the BUR.
    Secretary Napolitano. The BUR, yes.
    Mr. Carney. Yes. I am very interested to know a number of 
things. First of all, what is the date we are going to have 
that?
    Secretary Napolitano. Representative, the BUR process is 
well under way. Sometime between the end of March and the 
beginning of April or the middle of April you should have the 
BUR.
    Mr. Carney. Okay. That is pushed a bit from what I was told 
earlier, but make it closer to the end of March, please. When 
will the Department start working on the next QHSR?
    Secretary Napolitano. I have kind of been focused with 
getting that BUR done. Let me get back to you on that.
    Mr. Carney. Okay. When do you begin--when do you think you 
are going to start requesting funds for the next QHSR, though?
    Secretary Napolitano. I am not sure I understand the 
question, Representative. You mean to do the QHSR?
    Mr. Carney. If you do the next one, exactly, yes.
    Secretary Napolitano. Okay. I apologize. I didn't 
understand the question. I think it may be something that we 
look at in the 2012 budget.
    Mr. Carney. Okay. Going forward, will the QHSR and the BUR 
be one document, then?
    Secretary Napolitano. I think that is ideally yes, for 
obvious reasons. But I think that in our desire and yours to 
move the QHSR through and given that when I began as Secretary, 
it really was not----
    Mr. Carney. Ready for prime time.
    Secretary Napolitano [continuing]. Had not been moved 
along, we wanted to move very, very rapidly and really 
establish the vision for the Department, matched by the BUR, 
which you will have very shortly. By the time we get to our 
second QHSR, we should be through that kind of disconnect.
    Mr. Carney. Okay. Good.
    I want to switch gears here slightly. As you know, at 
yesterday's budget hearing in the Senate Homeland Security 
Committee, the Ranking Member stated that the inspector general 
was unable to make comments on time to OMB regarding the OIG 
budget request. The Ranking Member also stated that the IG told 
her that the budget requested for the OIG would ``significantly 
inhibit his ability to carry out the responsibilities of his 
office.''
    Like many other offices, the OIG's budget was flatlined. 
For fiscal year 2011 you are requesting $129 million, and 
according to the IG Reform Act, your budget request must 
include comments from the IG's office about the resource needs, 
and no such comments were furnished for the 2011 budget. Do you 
know why that happened? Can you explain that?
    Secretary Napolitano. Again, I can explain because the IG's 
budget has been increased the last few years, it was flatlined 
this year in light of the fiscal discipline that we were all 
undertaking. As I understand it, the IG put the comments in the 
Congressional justification, but again, you know, the IG is 
kind of a semi-independent wing, and they don't go through us 
in that regard.
    Mr. Carney. Are they supposed to go through you in that 
regard?
    Secretary Napolitano. No, I don't think so.
    Mr. Carney. Okay. I want to read you an e-mail that we 
received this morning in my district office, and they forwarded 
to me before I came on.
    It said, ``Dear Congressman Carney, I am very happy to know 
that you support the work of the Border Patrol in curtailing 
illegal immigration. For this reason I feel compelled to write 
you about a matter that my son recently spoke to my husband and 
I about. My son is a Border Patrol agent stationed in Tucson, 
Arizona. He has told us that funding for the Border Patrol has 
been cut and as a result, vehicles and equipment are not being 
maintained, overtime is being cut, and adequate manpower to 
provide backup and cover the vast terrain is not available. As 
parents, our concern for his safety while on the job is 
paramount. As an agent who loves his job, however, my son's 
concern is that areas are being left unpatrolled and will allow 
free passage of drugs and illegals into the U.S.''
    How can we respond to this person's mom? Is this true?
    Secretary Napolitano. I would say, ``Dear Mom, your son is 
highly misinformed.''
    [Laughter.]
    I know that Tucson sector like the back of my hand. I 
worked that Tucson sector since 1993. We have increased every 
possible resource there--manpower, equipment. We have built a 
new Border Patrol station. It is a key area for us, because the 
Arizona Sonora quarter is a lead quarter for illegal 
immigration and drug trafficking. I would be happy to give you 
some direct numbers just on the Tucson sector, but I would be 
happy to write the mom myself, if you would like me to.
    Mr. Carney. Well, I may take you up on that offer. Thanks.
    [Laughter.]
    But I am fairly familiar with the sector as well, and we 
have some issues, of course, with P-28 and the fencing and 
things like that, and we can address that perhaps in the next 
round of questions.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Madame Secretary, let us go to the subject of worksite 
enforcement. Today in the United States there are 15 million 
people who are out of work. They and their families are hurting 
greatly, yet at the same time we have about 7 million people in 
the country who are working here illegally. If we were to just 
enforce the current immigration laws on the books, we might cut 
unemployment in half.
    When I think about the impact that could have on our 
country if we did enforce laws and cut that unemployment rate 
in half, you have the opportunity to be a National heroine by 
enforcing the laws.
    Let me give you some facts about what I perceive as a lack 
of enforcement. In the area of administrative arrests are down 
68 percent, criminal arrests down 60 percent, criminal 
indictments down 58 percent, and criminal convictions down 63 
percent. In all those categories--arrests, indictments, 
convictions--they are all down 58 to 68 percent, all in 1 year. 
That is quite a record.
    My question is why don't we enforce immigration laws and 
create more jobs for unemployed Americans?
    Secretary Napolitano. Well, Representative Smith, let me 
just say that I believe that enforcement of our Nation's 
immigration laws is not only important, but particularly when 
we have an unemployment rate in the country the way we do, to 
make sure that we have effective worksite enforcement. So let 
me describe how we have gone about it.
    Mr. Smith. Well, if you would answer my questions first 
about why these statistics are down so much. The arrests, the 
indictments, the convictions are all down.
    Secretary Napolitano. Indeed. So let me, if you might--let 
me answer that directly. First of all, I-9 audits of companies 
are up substantially--record numbers.
    Mr. Smith. Yes.
    Secretary Napolitano. We can bring more----
    Mr. Smith. Let me concede that. Audits are up, notices of 
intent to fine. By the way, notice of intent. Even when they 
are fined, the companies consider it just the cost of doing 
business. If you want to reduce the number of illegal workers, 
these statistics should have gone the opposite direction. Why 
don't you let your ICE agents arrest more people, detain more 
people, and free up those jobs for unemployed Americans?
    Secretary Napolitano. Can I speak?
    Mr. Smith. Please. I hope you will answer the question.
    Secretary Napolitano. All right. Let me describe what we 
are doing. We have substantially increased I-9 audits. More 
employers are being subject to fines. We have more employers 
than ever signed up on E-Verify to verify legal residency 
before you even begin employment. We have record numbers of 
criminal alien removals from this country, record numbers of 
criminal alien arrests in this country, more than any other 
year prior to this. We have had more I-9 audits this year----
    Mr. Smith. Right. But we are talking about worksite 
enforcement--worksite enforcement.
    Secretary Napolitano [continuing]. And worksite enforcement 
is all part of that.
    So I think if you spoke with members of the business 
community, they would say, ``Get ICE off our backs, because 
they are all over the place, making sure that we comply with 
the immigration laws.'' We will continue to do that.
    Mr. Smith. Well, I am not hearing that. I don't think many 
of those criminal aliens were worksite enforcement cases. I am 
talking about individuals who are working illegally in the 
country, and if we were to enforce immigration laws, we could 
free up those positions for a lot of unemployed Americans.
    Let me go to US-VISIT. As you know, we have a budget this 
year proposed by the administration that did not request a 
single dollar for the US-VISIT exit side of the program. US-
VISIT was implemented. It was a bill that I introduced in 1996 
that became law.
    As you know better than I, 40 percent of all the people in 
the country illegally are visa over-stayers. If you want to 
know who they are, if you want to know whether they have left 
this country or not, you have to have an exit system.
    The administration does not have any money for that 
biometric exit system. Why aren't they interested in reducing 
the 40 percent number of the people who are in the country 
illegally? You can't do it unless you know who they are.
    Secretary Napolitano. Well, I don't think--Representative, 
your question presumes that there is no money for US-VISIT. The 
fact of the matter is that----
    Mr. Smith. No, I just asked you why there wasn't an 
increase, if you are going to increase the money for US-EXIT.
    Secretary Napolitano. Please, there is $50 million that it 
has been unallocated that we are carrying forward for US-VISIT.
    Mr. Smith. Okay. Let us hope you implement the program, if 
you are serious about addressing that problem.
    My last question is a follow-up to the Ranking Member's 
question a while ago when he asked you what other cities were 
being considered as locations to try the Gitmo detainees. You 
responded by saying that DOJ was assessing it. But his 
questioning was what other cities are being considered, not who 
was assessing it. Let us stipulate that no decision has been 
made as to which city, but surely you know what cities are 
being considered. On behalf of the American people, I would 
like to ask you what are those cities.
    Secretary Napolitano. Representative, I am not privy to 
that information right now.
    Mr. Smith. You do not know what cities are being 
considered, and you are Secretary of the Department of Homeland 
Security?
    Secretary Napolitano. Sir, I personally am not part of 
those discussions.
    Mr. Smith. Okay.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Missouri, 
Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank you, Madame Secretary. I want to talk--let us talk 
technologies. Last October GAO submitted a report to us that 
identified underlying weaknesses in TSA's decision-making with 
respect to acquiring new screening technologies.
    If we are going to assess intelligently your proposal that 
TSA receive $700 million to purchase and deploy these new 
technologies, it would be important, at least for me, to know 
whether TSA plans to or has prepared risk assessments and cost 
benefit analysis with performance measures to support the 
decision to deploy these technologies.
    Does the Science and Technology Directorate have--what role 
does science play in these technologies?
    Secretary Napolitano. Right. It is in two ways. First of 
all, yes, we are using risk assessment. Yes, we are employing 
performance metrics. As part of our efforts now, actually the 
S&T Directorate of the Department has entered into MOUs with 
two of the National labs to work on a screening technology and 
how we continue to improve the airport and security screening 
environment.
    Mr. Cleaver. Let us move to the WBIs. I am in the process 
of writing an op-ed piece for my hometown newspaper, and I have 
struggled with this whole issue, as I am sure all of the 
Members of this committee. But the administration has decided 
that they are going to support this. We are talking about 100--
1,000, I guess, whole body imaging machines.
    Secretary Napolitano. Scanners, right.
    Mr. Cleaver. Scanners, equipment. There is always paranoia 
by travelers, and I think that this, while it may maybe end 
up--I may end up being one of the strongest supporters of it. 
But is there any kind of way that we can convince the public 
with factual information that the machines are not storing 
images and that we won't see them on somebody's Facebook----
    Secretary Napolitano. Yes.
    Mr. Cleaver [continuing]. Or on the internet or on the 
Salahi's program?
    [Laughter.]
    Secretary Napolitano. First of all, the current iteration 
of the technology doesn't really even show a face at all. It 
really is designed to ascertain anomalies that can be further 
looked at through secondary inspection. Second, the reader 
isn't even where the person is, so there is no association 
there.
    Third, the image is not stored. That is part of the--how 
can I say it--it is part of the contract, the technology, 
everything else, that there is no storage of the image itself. 
It is merely designed to ping upstairs to an examiner 
downstairs if there is an anomaly that shows.
    I have seen some of the newspaper pictures of the image. 
They used a very old first-generation version of what actually 
shows up. The technology now has really mitigated the privacy 
concerns, so hopefully we can work with you, but also with the 
committee, too, because I do think it is a very important 
investment for the country to make, to satisfy people that this 
is not designed to be anything other than an objectively better 
way to protect people on aircraft.
    Mr. Cleaver. My final question, and I agree with you, but, 
you know, people are concerned nonetheless. Then we have a 
religious group that is also concerned about it because of 
their own religious beliefs, which I respect.
    But I wonder if we reduce the paranoia, the skepticism, if 
we have same-gender scanners like we do presently when we go 
through the screening. I mean, you know, the men are going to 
be dealt with by men, and women by women. So I am wondering can 
we do that with screening? Or does that generate a cost factor 
that causes it to be cost-prohibitive?
    Secretary Napolitano. Well, a couple of things. One is, 
remember, the person who is reading the screen is not down 
there----
    Mr. Cleaver. Yes, I understand that.
    Secretary Napolitano. All right.
    Mr. Cleaver. But what I am saying, Madame Secretary, I 
mean, to somebody sitting at home, who flies three or four 
times a year, and they are scared that, you know, that their 
beauty will be seen, I mean, it seems to me we need to do 
everything we can to create comfort.
    Secretary Napolitano. Right. We are working through that 
particular issue, but remember the passenger always has the 
alternative of going through the standard way, the magnetometer 
with the possibility of a patdown. They would have to do that 
anyway, if they were trying to get on the plane. So that option 
is retained.
    What we have seen in the pilot projects in the airports 
where the scanners have been deployed is that 98 percent of the 
passengers prefer just to go through the scanner. So but again, 
airports are retaining an optional avenue as well.
    Mr. Cleaver. If the Members of our committee could go 
through and then we come to have a committee hearing and see if 
we could find that--see if we can figure out who is who. I 
think if we can't figure out who is who, then I think it ought 
to run. Makes it a good deal.
    Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman's time has expired.
    The Chairman now recognizes the gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    Madame Secretary, you said that securing the border is one 
of the most important missions in the Department, and I have 
several slides I would like to show.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. The first slide, if you could put that up on 
the screen, basically just states the fundamental problem we 
have. We have 6,000 miles of border. The Border Patrol says we 
have 936 under control, meaning we have 5,064 that isn't under 
control. Basically, we have less than 15 percent under control. 
This 15 percent safety standard--I mean, it is something I am 
sure the car companies would like, and I am not sure why car 
company safety standards should be different than our standards 
on terrorism.
    If we could put our second slide up--I believe that you 
were provided with copies of those as well--this is extremely 
troubling. Discuss the Border Patrol agents in a minute, but no 
increase for CBP officers, a reduction in air and marine 
interdiction pilots, no new hard fencing, no expansion of the 
virtual fence, no additional detention bed space. It seems like 
you are going backwards rather than forwards, even though we 
are less than 15 percent.
    Now, I heard you say and explain earlier. The minority has 
not received any confirmation that you changed your budget. 
Perhaps we should read the Washington Post more closely, but we 
didn't receive any e-mails that at least that would mean if you 
are reversing yourself on the cuts, that you have a freeze. But 
when you only have less than 15 percent covered, it is not 
clear why we would even be having a freeze.
    I think the American people would say if we are going to 
spend money, this is one of the places we want the money spent, 
that you really can't control our borders State-by-State. If we 
could go to the last slide, I think it is extremely telling 
that the figures in this draft, which came--the line is hard to 
see there----
    Secretary Napolitano. I can't quite see it.
    Mr. Souder [continuing]. Basically at--and I think you have 
a copy--basically, after 2008 it stops. According to the Border 
Patrol, once we received the hard fence and the electronic 
fence, in 2010 there was nothing, in 2011 nothing to expand it, 
and you have no future plans that show you intend to expand it, 
no vision that is stated for how you are going to do it.
    You are doing BEST teams, and that is good, and ICE teams, 
and we have a few things in the air, but as far as functional 
control of the border, which leads to contraband and people--
and contraband and people can be terrorists, it can be 
narcotics, it can be illegal immigration, but it is basically 
contraband and people, effective control, not just seeing them, 
but effective control.
    So is your testimony that this budget is sufficient and 
will increase control of the borders and move us towards 
control? Are you saying that having 4,300 miles not under 
control is acceptable? Do you think that our border is still 
vulnerable? Do you believe that terrorists will exploit this 
weakness and smugglers such as what we have seen recently with 
Somalia and how they came across? It was a bunch of Somalians, 
and we can't find them.
    Secretary Napolitano. Can you go back to slide No. 2?
    Mr. Souder. Yes.
    Secretary Napolitano. Let us each take one by, if I might 
just go through, Representative. First of all, again, as I 
explained, those positions are not being eliminated. The Border 
Patrol will have the same, and sustain the same number on the 
Southern border, and meet the Congressional mandate on the 
Northern border. In terms of no increase in CBP officers, I 
think that is related to No. 1.
    Reduction for air and marine interdiction pilots. Really 
what we are talking about there is some consolidation and some 
elimination of one-time equipment purchases.
    No new fencing and SBInet. Let me pause a moment there. 
First of all, we will complete and virtually--virtually--have 
completed what Congress appropriated the money for in terms of 
tactical fence, SBInet. My understanding is--from this Congress 
and from this committee--is you want to make sure that I spend 
money smartly and efficiently.
    SBInet, a contract and a concept that was entered into 
years ago, has been plagued with troubles from Day 1. It has 
never met a deadline. It hasn't met its operational capacities, 
and it doesn't give us what we need to have. We will complete 
the first phase of that, but I don't think it would be 
responsible of me to come to this committee and say based on 
the performance and the difficulties we have had standing up 
the first phase, that we should do it all around the border.
    The monies of the budget for technology that are border-
related are things like mobile imaging technology and the like, 
which are more facile, which are easily maintained, which are 
more operable by an actual Border Patrol agent. We want to re-
look at SBInet. We will share that with the committee. We 
intend to do that, but the technology dollars that need to 
match up with the boots on the ground may be better spent in 
another fashion.
    Mr. Souder. Ma'am, Secretary, that in your answer--and I 
understand the SBInet is being used in the evening, the Border 
Patrol is still going through the tests, and they are 
relatively happy with the tests--you have outlined not a single 
mile of additional control. You are basically saying, oh, well, 
we are not cutting back. We are doing some consolidation, but 
we are not cutting back.
    Your vision was for partial tracking. Are you saying that 
there will be additional miles under functional control 
somewhere in this administration, since we have gone 2 years 
without an additional mile being added?
    What you are saying is you are finishing the Bush 
proposals, which were 2 years old, but is there going to be 
another mile done of this part that is it down? Are you saying 
you are going to have functional control? Border Patrol says 
there will be no additional miles of functional control. Do you 
agree with that?
    Secretary Napolitano. I don't know where that statement 
came from, and I am not going to debate a statement I haven't 
seen the source of or whatever, but let me tell you this. The 
Southern border is important to us. It is important for any 
number of reasons, as is the Northern border.
    We keep expanding control. We have, for example, with the 
funds of the Recovery Act, been able to add funding in 
improvements and technology particularly at the Northern 
border. A lot of that number you are talking to is really the 
Northern border.
    The Southern border, we are completing the tactical fence 
you appropriated money for. The technology is going to be 
there, the manpower. If you look at numbers--and if you want to 
look at numbers, look at numbers in terms of illegal 
immigrants, look at numbers of contraband seized--and you will 
see that we are going----
    Mr. Souder. I am sorry. Reclaiming my time, under----
    Chairman Thompson. Excuse me, but you had----
    Mr. Souder. Unemployment is not a way----
    Chairman Thompson. Excuse me.
    Mr. Souder. Unemployment rates are not a way to control 
immigration.
    Secretary Napolitano [continuing]. Controlling immigration.
    Chairman Thompson. The gentleman's time has expired.
    Secretary Napolitano. That is not correct.
    Chairman Thompson. The gentlelady from Arizona. Mrs. 
Kirkpatrick, for 5 minutes.
    Mrs. Kirkpatrick. Madame Secretary, nice to have you here. 
Thank you.
    You know, I share your concern about SBInet, and I am glad 
that you are reassessing the value of that. Does that signal a 
lessening of commitment to use SBInet or any other kind of 
technology along the border?
    Secretary Napolitano. No. That is what I was trying to 
clarify this with Representative Souder. Look, that is a big 
investment. There is a lot of money. It is presumed to have 
cell tower after cell tower after cell tower across some of the 
most hostile aspects of the United States in terms of geography 
and weather and the like.
    It has been very difficult to deploy. It has been very 
difficult to operate. We will finish the first phase, which is 
actually the Arizona phase, but it has caused a lot of 
frustration. Rather than be wasteful or unduly delay further 
technology or other types of technology being used at the 
border, we think it deserves and merits a fresh look.
    Mrs. Kirkpatrick. Thank you.
    Now, I am going to switch direction here a little bit and 
talk about your fifth mission, which is ensuring resilience to 
disasters. We recently had a heavy winter storm in northern 
Arizona, and about a week ago I visited with folks on the 
Navajo Nation to talk with people--first responders--and we met 
in an emergency command center that was set up in the community 
to help folks through.
    I wanted to hear from them first-hand what worked and what 
didn't. It was very apparent that the grit and the guts of the 
local people really pulled them through the disaster, and 
thankfully, there were no casualties. But the concerns about 
what didn't meet are in four areas.
    The first one is communication. Communication just did not 
work, did not work between the National Guard, FEMA, the local 
first responders. It just fell apart in numerous ways. Maybe I 
can get you more detail on that.
    The second thing was that it is evident that there needs to 
be more training in the rural areas regarding emergency relief 
efforts. There was also a lack of collaboration between the 
various units, so in other words it looked like FEMA didn't 
know what the National Guard was doing. They didn't know what 
local communities were doing, a real breakdown in 
collaboration.
    I will just give you one example. They were taking food out 
eventually with our National Guard trucks to communities, but 
they couldn't take hay for the livestock. So there was some 
kind of regulation. They couldn't have hay and food on the same 
truck. So that is just one example.
    But the last thing about what was really interesting is 
they brought up to me they think there needs to be training 
regarding cultural sensitivity with the Federal agencies who 
might be there responding, that there would seem to be a whole 
lack of understanding of the local culture.
    So is there any funding in this budget that you think could 
be directed to address some of those needs?
    Secretary Napolitano. Well, first of all, Representative, 
what I would--first of all, I will take those suggestions back 
to the director of FEMA and have them look at this situation 
directly.
    With respect to coordination with the National Guard, that 
should be occurring, and there should be interoperability. I 
have some familiarity with those individuals, so I don't know 
what broke down, but there have been joint exercises, and 
indeed, in responding to forest fires up in northern Arizona, 
that that has happened almost without a hitch and very 
smoothly.
    So I think we need to troubleshoot this one in particular 
and say, well, what happened here. That doesn't normally happen 
during forest fire season in northern Arizona, where FEMA and 
the National Guard work together hand-in-hand and have 
interoperability and have things. For example, I know the 
National Guard has the accessibility to patch trucks that can 
be used to patch different types of radio systems with one 
another. So we will have to troubleshoot this one in 
particular.
    Mrs. Kirkpatrick. Thank you. I will be happy to get you 
more detailed information about that. Thank you.
    Secretary Napolitano. Yes.
    Mrs. Kirkpatrick. I yield back my time.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Alabama, Mr. 
Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you for being here, Madame Secretary.
    I hope that since the Christmas day bombing attempt, that 
you have explained it to the attorney general that you are in a 
very critical National security role and that from now on 
before he decides to go off half-cocked, that he should consult 
with you and your counterparts in the National intelligence 
before making decisions. You don't have to answer that, but I 
hope you have explained that to him and the President.
    Secondly, right after that attempted attack, one of the co-
chairs of the 9/11 Commission, Lee Hamilton, came out and 
reminded us that it is time for the Congress and the 
administration to use the political will to follow through on 
the last major recommendation, which was consolidating 
jurisdiction for homeland security in this committee.
    It is going to be a tough political lift, but I hope you 
will urge the Speaker and the Majority Leader in the Senate 
that it is time to do it. You all having to come up here to 86 
different committees and subcommittees is just absolutely 
indefensible, and it is causing problems for the Department as 
far as direction and goals and such.
    To that end, I would like to offer for the record without 
objection, Mr. Chairman, the two letters that we have sent to 
the Secretary and the leader, Speaker Pelosi, urging that 
consolidation.
    Chairman Thompson. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rogers. Thank you.
    I want to talk to you about the budget. All in all, I am 
pretty pleased. I want to thank you, CDP, Center for Domestic 
Preparedness. You have adequately funded them and put some 
money for maintenance in that was critically needed at that 
facility and the Noble Hospital training facility there where 
we train health care professionals to be prepared to respond 
after a natural major disaster.
    But one thing that I am concerned about was the 
elimination, or what appears to be the elimination, of a chief 
veterinary officer. Dr. McGinn has been sent out to North 
Carolina, and I understand that position is not going to be 
filled. They are just going to consolidate that with the 
Director of Food Veterinarian Animal Defense.
    The chief veterinary role is a very critical role. We need 
to make sure that we are protecting our food safety and 
preparing for ag terrorism. I am going to introduce a bill. I 
talked yesterday to Dr. Garza, who assures me that position, 
the role is going to continue to be fleshed out under that new 
directorate.
    I am going to introduce a bill, which has got broad 
bipartisan support in the committee, to ensure that that 
position continues to exist. He can call it director of food 
veterinarian animals if he wants to and chief veterinary 
officer, but we want to make sure that somebody has those 
responsibilities going forward to make sure we are protected 
against those threats.
    Then the thing I want to talk to you most about, though, is 
I want to applaud you. I have been for years advocating higher 
use of canine assets for people screening. Your predecessors 
have given it lip service, and you have put some real money in 
there. You are to be commended for the $71 million you put into 
the budget to expand the Lackland facility.
    What I would urge you to do--I had your TSA officials come 
in and brief me earlier this week about our capacity, what we 
are going to be able to accomplish with this--this program, and 
I am not going to go into detail here. I do want the Members to 
get a briefing like I did, though, later about the coverage we 
are going to have.
    My request to you is that while you are doing this--this is 
going to give us 275 additional teams a year out there--we need 
to plus that up. I would urge you that while you are doing it 
to do it right. Instead of making it $71 million, make it $100 
million. Have a second location so we can get about 600 dogs a 
year--teams a year out into the field.
    That would get us in 5 or 6 years to where we have more 
complete coverage of the 430 airports that we got to be 
concerned about. At the level we are at now, it would be 10 or 
12 years, and that is not acceptable. So I would urge you to 
consider going into the line item that you have $360 million 
for new equipment, scanning equipment. Pull that $30 million 
off of that and add it to that canine item.
    I think that would be a good, robust level for us to be 
able to get to comprehensive coverage of these airports in a 
reasonable amount of time. I will be happy to talk more with 
you and your folks about that. There is just no way we can do 
it just at Lackland is my point. We got to have at least a 
second facility that is doing that.
    But again, you are to be applauded. You put some muscle 
behind what you said you were going to do after the Christmas 
day bombing, and I appreciate that.
    Last, the ICE budget. I am a little concerned that I didn't 
see more money in there for ICE agents. We really have a 
shortage of ICE agents, and there are only 52 positions that 
are being added. Can you tell me why?
    Secretary Napolitano. Well, I think the budget, I think, 
adequately meets ICE's enforcement responsibilities. As I 
suggested earlier, one of the things that we are increasing in 
the budget is Secure Communities, which really is a force 
multiplier. Where we have Secure Communities, we identify 
criminal aliens and can do more deporting and removals more 
effectively than ever before.
    So I think while the number of agents is only up to 52, if 
you look at that in conjunction with Secure Communities, you 
see how we are using that as a force multiplier.
    Mr. Rogers. This last one, going back to the canines, do 
you think that it is reasonable to look at plussing that up by 
$30 million to get a second location?
    Secretary Napolitano. Representative, as my staff will tell 
you, I am a big believer in dogs and what dogs can do. So it is 
a resource split and allocation issue, but my mind is very open 
and I--dogs used properly with the properly trained handler can 
really help improve safety.
    Mr. Rogers. Well, the thing that I have told the other 
Members, we are talking about a new technology, this vapor 
weight technology, where the dog doesn't have to sniff the 
person. You just walk by them. That would be very helpful at 
our airports where people who, before they go through technical 
screening, can just walk by these canines. The Christmas day 
bomber would not have gotten on that plane if we had it.
    Thank you.
    Chairman Thompson. The gentleman's time has expired.
    The Chairman now recognizes the gentleman from New Jersey 
for 5 minutes, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Where do we start here? First of all, I would like to 
associate myself with the comments of the Ranking Member 
concerning the categorical assistance to cities and regional 
areas, areas around those cities which were expanded, if you 
remember, 5 years ago. I think that is, hopefully, not just an 
oversight here. I think it is critical to defending America.
    Second, you testified last year after you raised your hand 
that you were going to take a specific look at the bureaucracy 
that you heard my good friend from Alabama talk about. I asked 
you the questions then. You assured the committee that you are 
going to address the issue of bureaucracy, because when you 
have bureaucracy, you have less accountability.
    You saw that in the December 25 episode where who pushed 
Jake was the main question. We realize that DHS is the consumer 
of intelligence and is not the vehicle. The fact of the matter 
is, though, that we don't know who to hold accountable, because 
this bureaucracy is growing and becoming worse--worse.
    Tell me one instance that you have recommended to us in 1 
year where you wanted us to be of assistance to you--and we 
thank you for your service to your country; we want to be 
helpful--I can't recall it, but that doesn't mean it hasn't 
happened. Give me one instance.
    Secretary Napolitano. I am not sure I----
    Mr. Pascrell. Give me one instance where you recommended to 
this committee that we assist you in breaking through the 
bureaucracy of the Department that you head?
    Secretary Napolitano. Well, I don't know exactly where your 
question is headed, but I will tell you----
    Mr. Pascrell. You don't know where exactly--I mean, I can't 
be more direct than that, Madame Secretary.
    Secretary Napolitano. Well----
    Mr. Pascrell. We want to be helpful. We are not asking the 
questions and we are not making the comments here because we 
want to give you more work. We want to give you less work. You 
just testified this morning before Appropriations Committee. If 
you want to continue to go crazy, continue. If you want to be 
going to 86 committee meetings, continue.
    You were asked a year ago. We wanted to be helpful. You 
ignored us, because I haven't seen any recommendations on your 
part. Now tell me where I am wrong, and I will apologize.
    Secretary Napolitano. Well, I think you are wrong in a 
number of ways, but----
    Mr. Pascrell. Where am I wrong, Madame Secretary?
    Secretary Napolitano [continuing]. I don't think--I also--
well, let me finish my answer.
    Mr. Pascrell. Sure.
    Secretary Napolitano. I believe that the Department and 
this committee need to have more, not less, communication. We 
are endeavoring to do that both on the Democratic side and on 
the Republican side. We have endeavored to provide you every 
bit of information that you have asked for.
    We have asked the Congress for the ability to get some 
administrative resources, which are called bureaucracy but are 
in essence the ability to have the infrastructure necessary to 
run what is now the third largest department of the Government. 
I would love to talk about that with you.
    Mr. Pascrell. We have had a year. I am not incorrect. The 
Department is incorrect. This committee stands to be helpful to 
you, and it has not been given that opportunity.
    The second issue. I appreciate the difficulty of your job--
anybody who sits in that position--and I think you appreciate 
it, too. You have to create a budget that meets all the needs 
of the Nation, this Nation, greatest nation in the world, 
during this economic crisis, while at the same time you are 
working our way out of this deficit hole.
    We understand that. We deal with this every day and with 
every department. I am satisfied with the budget, especially 
the necessary increase in funding to boost aviation security. 
You went into that, I believe, in your testimony.
    However, I am greatly dismayed and indeed disturbed that 
for the second year in a row this administration has decided to 
cut critical Fire Grants program that provides equipment and 
training to our firefighters. This year he has decided to cut 
the SAFER program as well, which helps maintain staffing levels 
in our Nation's firehouses.
    Overall, these two programs have been cut by $200 million, 
which is 25 percent less than we passed in fiscal year 2010. At 
a time when we are still fighting our way out of that deep 
recession, those towns can't afford to do it on their own, and 
municipalities are being forced to slash public safety budgets 
every day.
    This is exactly the wrong time to cut vital grants 
programs. They are necessary. They were necessary before 9/11--
before 9/11 is when we started the program--and they are 
necessary today. In fact, there is $3 billion to $4 billion of 
applications in those programs every year.
    Second, I was extremely surprised to see that the budget 
called for four stand-alone grant programs to just be folded 
into the large State Homeland Security Grant Program. Look, I 
know the game. I was the mayor of a city once. It is a very 
interesting way to hide what you really want to do.
    This includes the interoperable emergency communications. I 
guess there is no word that has been used more in this 
committee since 2001 than the word ``interoperable.'' But they 
are gone. We worked to create in the 109th Congress in order to 
support our first responders. This looks like a way to do a 
backdoor cut of these programs. There will be no way to compare 
it, if you fold that into the larger program.
    I think that this is a wrong way to go. I understand it is 
a great way to hide would you really want to do. I assume that 
that is not what you want to do. What in God's name do you want 
to do?
    If I may ask that, Mr. Chairman.
    Secretary Napolitano. Well, listening to mayors and 
Governors, one of the things they asked of me last year was to 
reduce the amount of grant applications and grant reports that 
they had to do. They wanted more flexibility. They wanted the 
ability to use grant funding for things like sustaining and 
maintaining equipment as compared to having to buy new 
equipment all the time in order to achieve grant funding. The 
proposal this year was designed to meet those requests.
    Mr. Pascrell. Well, let me tell you something. That is not 
acceptable. The mayors of this country feel that the program of 
the Fire Act and the SAFER Act are the best-run bureaucratic 
programs in the Federal Government, because there isn't any 
bureaucracy.
    Chairman Thompson. The gentleman's time from New Jersey has 
expired.
    Mr. Pascrell. Well, I have to respond to answers that don't 
really go to the question.
    Chairman Thompson. Well----
    Mr. Pascrell. We are in the same place we were a year ago.
    Chairman Thompson. I think you have made your point, Mr. 
Pascrell.
    The gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Madame Secretary, welcome. Last week a small aircraft 
slammed into a Federal building in my district, reminding us 
that we are still vulnerable. The devastation from what was a 
very small plane was really highly destructive. I walked away 
thinking how could such a small plane almost bring down an 
entire Federal building?
    It is a threat. I want to also commend the first 
responders, because the loss of life could have been so much 
more severe than it actually was. My thoughts and prayers go 
out to the family of the one Federal employee who was injured 
and killed.
    I would just recommend, though, also as you look at--and 
you mentioned General Aviation and I would recommend you 
continue to work closely with them as you look at rulemaking. I 
think, as I have met with them after this tragedy, I think they 
have some very, very good ideas where we can work with 
industry, not against industry, in making this situation and 
helping the American people be safer.
    Another incident, ironically, just north of my district not 
too long ago--Fort Hood. I went to the memorial service. I 
talked to the commander, General Cone. We found out since then 
the Joint Terrorism Task Force had information about this 
individual, that he had been contacting an al-Qaeda operative 
in Yemen, a DOD representative on the JTTF, and yet that 
information was not shared with the base.
    I asked General Cone, ``Would you like to have had that 
information?'' You had a major at your base, you know, who was 
in contact with the top al-Qaeda leader, and yet they didn't 
know about that. I find that to be really inexcusable. His 
question to me was, ``How many more Hasans are out there?''
    It is a DOD issue. It is a JTTF issue, but it is also, when 
you talk about military bases in the United States, it is a 
homeland security issue as well. I know you are smart enough to 
recognize that.
    I do have a few budget questions, but I want to ask you on 
that, because we know al-Qaeda has targeted military 
installations. Fort Dix is another good example. What are you 
doing to ensure that the information-sharing process is 
improved so we can prevent, in this case, 14 individuals from 
being killed in the future?
    Secretary Napolitano. Indeed, without going into the Fort 
Hood situation specifically, but one of the things we have 
really been working on this past year is the amount of sharing 
of intelligence with State and local law enforcement about 
threats and threat streams that are within their jurisdictions 
so that they can be watching out for them.
    Our first responders, in particular 800,000 or so police 
officers, are a force multiplier way beyond whatever Federal 
presence that we have. We have greatly bolstered the fusion 
centers, and I think you will see a lot of activity in that 
regard over this next year really strengthening the standards 
there.
    What really qualifies as a fusion center? What that is 
designed to do, Representative, is have in one place State, 
local, and Federal not only trained officers, but databases and 
analysts. It is not just sharing data that is important. It is 
the analysis that is important.
    Mr. McCaul. I agree. It is also acting on information 
coming in, because there was information on Fort Hood. There 
was information on the Christmas bomber case. There were flags 
being raised. There were dots not only not being connected, but 
dots not being acted upon that I think, had they been acted 
upon, we could have avoided the Fort Hood tragedy and also 
could have revoked the visa of the Christmas bomber.
    I know this is a budget hearing, so I want to ask you a 
couple of questions. I would first like to--as Mr. Cuellar 
mentioned, I really commend you for your efforts working with 
Mexico that is so important with the violence in Juarez, as you 
mentioned, is probably one of the most violent cities in the 
world. Mexico has suffered more killings than the Iraq and 
Afghanistan wars combined.
    Three programs that I saw--one, the Operation Stone 
Garden--I mean, you were in Arizona. It has been a very 
successful program, and yet it is being cut from $60 million to 
$50 million.
    Second, that 287(g) program, which has also been very 
successful, is just maintained at the current level. Then 
finally, the ICE Detention and Removal Office, when I talk to 
ICE officials particularly in the Houston area, they tell me 
they don't have the resources they need to carry out their 
mission. That is just coming from your people on the ground.
    So if you could explain to me those three budgetary items, 
because I think they would go a long way in helping us better 
secure this border.
    Secretary Napolitano. Well, No. 1 was--which was No. 1?
    Mr. McCaul. Operation Stone Garden.
    Secretary Napolitano. Stone Garden. What happened last year 
was there was some extra money that we redeployed to Stone 
Garden. $50 million is what we have had. That is a pretty 
consistent budget request.
    What we have done, however, is basically steer all of that 
money to the Southwest border, whereas previously it could be 
shared, and part of it was used on the Northern border. You 
might imagine yesterday I heard from some Northern border 
representatives that weren't happy about that decision. But my 
decision was that that is where the money is best used right 
now.
    Mr. McCaul. I agree.
    Secretary Napolitano. With respect to 287(g), the strategy 
we are using as we are continuing to assign 287(g)s that we are 
really plussing up Secured Communities. They are more effective 
in terms of actual yielding criminal aliens that have entered 
the United States, so we think that is a better strategy.
    In terms of beds, detention and removal beds in the Houston 
area, Representative, that is one we will get back to you 
specifically on. The bed request, the head request is based on 
our National estimate about what we need. Maybe there needs to 
be adjustment within that National number.
    Mr. McCaul. Because finally, as you mentioned, you said 
when you were attorney general that the Federal Government 
needs to pay its bills when it comes to the burden on State and 
locals. My home State of Texas has a tremendous burden in that 
regard.
    I thank you very much.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from New Jersey--
New Mexico, Mr. Lujan?
    [Laughter.]
    I was trying to give him some more time.
    Mr. Lujan. I appreciate that, Mr. Chairman. I hope my 
friend from New Jersey doesn't get any--just yet, Mr. Chairman.
    Madame Secretary, thank you for being here as well. I want 
to tell you how much I appreciate the fact that DHS and DOE are 
working closely with one another now. After the failed attempt 
on Christmas day, we did very clearly hear the directive from 
the President, asking for DHS and DOE specifically in NSA 
facilities to collaborate to try to solve some of these real 
problems. I want to thank you for not wasting any time on doing 
that.
    A few things that I want to bring up, and some of the 
testimony that we heard from Dr. Albright in our Science and 
Tech Committee, who is from Lawrence Livermore, highlighted the 
importance of the President's directive, but went on to say 
this:
    That explosives have long presented the most prevalent 
threat to transportation security, to critical facilities and 
to individuals. Current events show that explosives continue to 
be the weapon of choice for terrorists worldwide. The threat is 
evolving, and increased access worldwide to the internet has 
provided the terrorists with information to manufacture 
homemade explosives using readily available chemicals.
    Explosives are very difficult to detect in some cases. Only 
trace evidence is available for sampling, and bulk quantities 
of explosive matter must be detected in the presence of other 
potentially confusing or benign materials. TSA officers only 
have a short time to detect explosives and assess the 
situation, if they are to maintain the flow of people and 
goods.
    Continuous and concentrated research and development is 
fundamental to understanding the threat and creating the tools 
that will give our Nation the capability it needs to decrease 
our vulnerability. We now know that there is progress being 
made in bringing technologies forward that will strengthen our 
capabilities and give our TSA agents the tools they need to 
preventing materials from moving forward.
    The one concern that I have, Madame Secretary, is the 
commitment to the investment--substantial investment, up near 
$700 million, if I have my numbers correct, with other 
detectors to--really around metals.
    I wanted to hear from you how we are going to move forward 
so that we are able to bring these technologies forward, also 
deploy and get your ideas on if you feel that it is important 
that rather than a short-term relationship with the NSA DOE 
facilities with Homeland Security, if that should turn into a 
long-term relationship to make sure that we are working closer 
in that regard, and also your thoughts on taking a whole system 
systematic approach in trying to understand the threat that we 
are going to see as opposed to reacting to what we know that 
just happened.
    Secretary Napolitano. Let me address the last first. We 
need to react to things that happen--it would be foolish not 
to--and to adjust in light of what we have already seen. But at 
the same time we need to be thinking ahead. So there is a 
reaction and a pro-action that need to be happening 
simultaneously.
    One of the ways this can occur is with greater use of 
science and technology. That is why the President has directed 
that we really tighten up the relationship with our National 
labs so that their research is really designed, or at least 
partly designed, to help us operationally to think through what 
the next iteration of threat, the materiel used, et cetera.
    So I hope that this relationship, which was really 
catalyzed by the December 25 attempt, becomes part and parcel 
of our National homeland security framework and that we use 
that brain capacity we have in those National labs to greater 
effect for homeland security purposes.
    Mr. Lujan. Mr. Chairman, this is just one area that I hope 
that we can work on together with yourself, with Ranking 
Member, and with all Members of the committee, because when we 
look specifically at these relationships and what some of the 
brightest minds--scientists, physicists--have to offer not only 
with their capabilities with tech transfer and 
commercialization, what that means to creating jobs, but also 
looking at problems like this, where we have threats like this 
every day.
    They really wanted to highlight that, Mr. Chairman, as we 
begin to look at this in a different way and think outside of 
the box, where we can bring together the brightest minds that 
we have that we have made investments in. The modeling 
capabilities, the simulation capabilities that lead to 
technologies that are going to make a difference and save 
people's lives is somewhere that I hope that we turn.
    With that, Mr. Chairman, I yield back my time.
    Chairman Thompson. Thank you very much.
    The gentleman from Florida, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Madame Secretary, I sent a letter to you on January 21 
regarding the visa security program. When can I expect a 
response?
    Secretary Napolitano. Hopefully, very soon. We are trying 
to, and greatly by and large are moved to the point where we 
can respond to every Congressional inquiry within a month.
    Mr. Bilirakis. Very good. I have a couple of questions 
regarding that issue.
    How many visa issuing posts are there overseas currently?
    Secretary Napolitano. For the State Department?
    Mr. Bilirakis. Yes, State Department.
    Secretary Napolitano. I don't know the overall number.
    Mr. Bilirakis. Okay. How many of these locations--can you 
tell me how many locations have visa security units currently?
    Secretary Napolitano. I am going to ask. A small 
percentage.
    Mr. Bilirakis. Okay. Well, I think it is about 14, from my 
estimations. How many have been identified as high-risk 
locations?
    Secretary Napolitano. Well, we just added two--I know of 
that--the past week. I don't know--a number.
    Mr. Bilirakis. Okay. Okay, so my understanding is that 
there are 40 high-risk locations, and the State Department has 
220 locations and that we have units in 14 locations.
    So the next question is on the current pace, how long would 
it take to establish visa security units in locations the 
Department has identified as high-risk? If you can't answer 
that question, I would like to get a response as soon as 
possible.
    Secretary Napolitano. Yes, that is reasonable.
    Mr. Bilirakis. Okay. Do you believe that it is--you know, 
we want to make sure we beef up this program. An example of 
this was the Christmas bomber. I think that could have been 
prevented. So, you know, and I understand that the budget 
recommendation is flat for this year, and that is unacceptable 
to me. So if you could respond to me as quick as possible, I 
would really appreciate it.
    Secretary Napolitano. Yes, Representative. Part of that is 
this is not just the Department of Homeland Security's 
decision. This is really the Department of State where the 
Department of Homeland Security will be allowed into an embassy 
facility to work there. So that is something that we are having 
to work through at the interagency level.
    Mr. Bilirakis. Yes, that is what I am concerned about is 
that there may be some resistance from the Department of State 
in establishing these units. If so, I would like to know which 
locations, where the resistance lies.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from California, 
Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Madame Secretary, I apologize to you, but the intelligence 
authorization bill is on the House floor this afternoon, and 
that is why I was absent for much of this conversation. I did, 
however, hear your testimony.
    As you set out the five priorities for your agency, the 
first one was counterterrorism. I want to applaud that and 
recognize and, I think, agree with you that the Homeland 
Security Department exists to protect the homeland, and there 
is a large terrorist threat.
    I have a question about that and one other. I want to put 
them to you at the same time so that I observe my time limit.
    On the subject of terrorism, I think probably, besides the 
technological corrections that we have already made since the 
Christmas bomber problem, the other problem was the absence of 
sustained leadership focusing specifically on what could happen 
both to aircraft and other things, but certainly, sustained 
leadership at the top.
    So one question I have is what are you personally doing, 
given your busy, hugely busy life and professional obligations, 
to sustain your leadership on the terror threat?
    My second question is to pick up on some of the questions, 
some of the issues Mr. Bilirakis was posing on visas. It is my 
understanding that since the 1990s there has been a requirement 
for a capable exit visa system. It is good to know and to have 
a secure visa entry program, and we are doing better at that, I 
believe, but we still have not implemented our visa exit 
program up to any reasonable, by my lights, standards.
    I was a member of the Congressional commission on terrorism 
that existed between 1999 and 2000. We predicted a major terror 
attack on the United States. Sadly, we were right. But one of 
the gaps we found in U.S. security was a capable exit visa 
system. If people can come here legally and then get lost here, 
that is an enormous vulnerability.
    So my two questions are what sustained leadership are you 
personally giving to the terror, the huge terror threat against 
us, and two, what can we do to expedite an effective and fully 
developed exit visa system?
    Secretary Napolitano. Well, thank you, Congresswoman. I 
think two things. One is that you are right. Sustained 
leadership is important here. It takes a number of forms. One 
is making sure that we have a clear vision for the Department. 
That is reflected in the QHSR, which we really went from 0 to 
60 on this year.
    The second is to make sure that we have a better 
integration of our intel analysis within the Department, with 
other intelligence assets around the Beltway, and that we are 
doing a better job of connecting our intel analysis with 
information threat streams so that can be used by State and 
local law enforcement, so very important around the country. I 
think we have made great progress in that regard this year. We 
are going to be continuing to push that issue.
    The third is really focusing on the sustained effort, and I 
think somewhat creatively, quite frankly--areas like aviation, 
where we have instituted an international aviation initiative, 
where we have entered into MOAs with the National labs that 
didn't exist before.
    So those are the kinds of things that we are working on in 
all the iteration of the Department. But they all blend 
together under the guise of guarding against terrorism and 
ensuring the security of the United States.
    With respect to exit and exit visas, we do have--as someone 
noted before, we have not requested new money there. We have 
$50 million we are going to pull forward into this year for 
U.S. exit. That will be for the air environment.
    The big problem, and one that I have asked the scientists 
and others to look at it: How do we handle the fact that the 
United States has such a huge land border with so many land 
ports of entry and so many lanes? That is under the current 
iteration of technologies a huge, huge budget number. It was 
not one I was prepared to bring forward to the committee this 
year.
    Ms. Harman. Well, I thank you. I just in 12 seconds urge 
you personally to keep asking about what your Department is 
doing on a daily basis, or frequent basis, to focus on the 
terror threat so that it is clear from the top how urgent that 
is.
    On the U.S. exit program, I think we are going to have to 
step up and write the checks, because I think it is 
unacceptable to have the ability for people to come here and 
then get lost in our country and possibly cause harm against 
us.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from Georgia, Mr. Broun, for 5 minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Madame Secretary, I am very pleased to see you in 
attendance today. I hope that you will agree with me that it is 
critical for the Secretary of any Federal agency to be present 
at important oversight hearings. I hope that we can be assured 
that in the future you will be personally present at all these 
extremely important oversight hearings. I hope you assure us of 
that.
    Secretary Napolitano. Representative, I think improving 
communication and being available to the committee is a very 
important part of my responsibilities.
    Mr. Broun. I certainly hope so, and I trust that you will 
be.
    I was also extremely pleased to see that just recently you 
admitted that the Fort Hood massacre was a terrorist attack. I 
think that admission is long overdue, and I am pleased to see 
you finally go ahead and make that admission.
    Madame Secretary, I have serious concerns about regarding 
how your Department plans to use its resources, and I would 
like some clarification on some issues that I feel that the 
American people deserve to hear from you for the recent actions 
of the Christmas day bomber and the open intelligence opinions 
that al-Qaeda will most likely attempt to attack our homeland 
within the next 6 months.
    It is more apparent now than ever that our enemies will 
stop at nothing to attack us. We must work even harder to stop 
them. As I have said before in here in this committee, the 
Marine Corps teaches that you must know your enemy to defeat 
them.
    Many brave Americans work hard to pinpoint and identify 
those who wish us harm. It is foolish for this or other Federal 
agencies tasked with protecting our homeland and our country to 
ignore the hard work and waste of our resources.
    What I would like to see from this Department is greater 
effectiveness at collecting and sharing vital information on 
those who are most likely to attack us, whether that 
information comes from our intelligence agencies or our global 
partners who serve as our first line of defense. Closing these 
gaps in our human intelligence and informational networks is 
absolutely essential.
    One way for us to focus our attention on those people in 
those countries that we know will try to attack us. Time wasted 
screening a grandmother in her mid-80s or a 10-year-old on 
vacation with his family could better be used in screening 
individuals who are coming from somewhere who are more likely 
to produce known enemies to our country and who want to harm us 
and destroy this Nation and everything that we are founded 
upon.
    You stated in your testimony that you and this 
administration are determined to find and fix our security 
vulnerabilities, and I really trust that that is so. I look 
forward to you going on to do so.
    Do you believe, Madame Secretary, what I have suggested 
could prove more effective than our current methods?
    Secretary Napolitano. In what respect, sir?
    Mr. Broun. In focusing upon the countries and the 
individuals and groups of individuals who are most likely to be 
those individuals who want to do us harm?
    Secretary Napolitano. Doing things on a risk-based or 
intel-based way, obviously, is something that we endeavor to do 
across the Federal Government. When you are talking about the 
travel environment, I think it is important to add to that a 
certain amount of unpredictable randomness, which disables a 
terrorist from being able to predict with certainty whether 
they will be subject to secondary screening or the like.
    So it is intel-based, but it is also the greater 
utilization of algorithms of randomness, if I can use that 
phrase, to add onto that to defeat predictability.
    Mr. Broun. Well, I certainly agree with that. There is no 
such thing as 100 percent safety, 100 percent certainty, but I 
think, particularly with limited resources, that it is very 
important to focus upon those nations and those people groups 
who we know want to do us harm. There may be other individuals, 
other people groups, and maybe even homegrown terrorists that 
we have got to focus upon, but we do know without a question 
that there are those.
    I encourage you. I hope that you will utilize your very 
limited resources, because we and the Federal Government are 
out of money. We don't have the money. We are stealing our 
grandchildren's future by creating huge amounts of debt.
    But homeland security is one of the--and National security 
is the primary focus of the Constitution for the Federal 
Government. So focusing upon those individuals, those 
countries, those groups of people that we know the greatest 
preponderance of individuals who want to do us harm come from 
those areas, I hope that you will really focus upon them with 
random screening and other things. I understand the problems 
that you face, but I just encourage you to consider that.
    Are there other an additional methods that could be 
deployed in defense of our homeland that would close those gaps 
and vulnerabilities?
    Secretary Napolitano. Let me ask you to say that again, 
please?
    Mr. Broun. Are there other additional methods, besides 
focusing on those things that we have already talked about, 
that could be deployed in defense of our homeland and that 
would close those gaps and vulnerabilities?
    Secretary Napolitano. Well, I think several. One, as I 
already mentioned, you have got to add a random aspect to all 
of this. In other words we are not doing the same thing at 
every airport across the country. Why? Because we don't want 
there to be predictability.
    I think there is a huge untapped role for science and 
technology here that we should pursue, and I already mentioned 
with Representative Lujan working with, in particular, the 
National labs. I think there we can do more.
    Then third, making sure that across the global environment 
we have increased information collection and sharing to the 
maximum extent that we can. Working with our allies and others, 
I think, really helps provide us with a greater security 
network.
    Mr. Broun. Thank you, Madame Secretary.
    I appreciate the extra time, Mr. Chairman. Thank you.
    Chairman Thompson. The gentleman from Alabama.
    Mr. Rogers. Just I wanted to inquire, do you expect to have 
a second round of questions or----
    Chairman Thompson. We will probably finish just about the 
time for votes. We had thought we could do it, but it looks 
like, because I have been generous with my time on the 
questions, we might not be able to do it.
    Mr. Rogers. Okay. Thank you.
    Chairman Thompson. The gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you. Thank you very much, Mr. Chairman.
    Madame Secretary, it is great to have you here and really 
providing us with some insight into this year's budget.
    I just wanted to sort of add my voice to that of Ranking 
Member King with regard to the Securing the Cities grant. I 
understand the dilemma of the funding, which we tend to always 
in some fashion come up with, whether it is through 
appropriations.
    But when you talk about looking at some of the work that 
the labs have done, there are also other ways of looking at how 
we can address the threat of radiological, biological, 
chemical, and nuclear weapons, and I hope that we will get some 
finding from the Securing the Cities model that could hopefully 
be something that can be helpful for the rest of the Nation.
    We are all very used to the explosive--unfortunately, 
become used to the explosive event that we witnessed in 1993 in 
New York and again in 2000. But there are other very, just as 
meaningful threats to us that we are not conscious of, and it 
is, I think, tools that we develop along the way in 
anticipation of someone utilizing one of these types of 
weaponry that will bode well for the Department and for our 
Nation, so I hope you will give that your highest 
consideration.
    I also wanted to just let you know how pleased I am that 
the budget acknowledges the on-going real possibility of a 
cyber attack. This budget requests $379 million for a National 
Cyber Security Division and $10 million for the National 
Security Cyber Center. I know that you touch on this in your 
testimony, but can you elaborate a little bit more on how this 
funding would be used to buttress your cybersecurity 
capability?
    Secretary Napolitano. Well, it is a number of ways, and 
perhaps one of the things to suggest to this committee is a 
classified briefing on all of the efforts on cyber at a certain 
point in time.
    But it is deployment of prevention and detection 
technology. It is working to secure the .gov domains. It is 
working with the private sector on the .org and .com domains. 
We have opened up this year the NCIC, which is a consolidated 
cybersecurity facility in Virginia, which has allowed us to do 
some things we could not before.
    But I will share with you, Congresswoman, one of our 
greatest challenges--if this committee would ask me what are 
some of the greatest challenges, I would say one of them is 
getting enough cyber experts into Federal service to really 
work on the civilian side of cybersecurity.
    We have direct hiring authority, but I think, as we can all 
appreciate, the length of time it takes to on-board a Federal 
employee takes too long, and for those youngsters that are 
young scientists who really know the cyber world, they get 
impatient. So that is something that we are really going to 
have to work together on.
    Ms. Clarke. I look forward to that, Madame Secretary. You 
are absolutely correct. I think that we have to come up to 
speed, those of us who are of a certain age, about the 
realities of the technology around us and the young people, who 
are very agile with it, and their attention span.
    I think that it will bode us well if we can demonstrate how 
important it is to get young people with that expertise, that 
talent, and maybe not-so-young people, but people who are 
seasoned enough in the technology used, on-board with us before 
the private sector snatches them out.
    Another area that I am concerned about and wanted to just 
raise with you is the area of ASP. We have supported pursuit of 
the laudable goal of improving detection performance, but have 
been concerned with the performance of the system, as well as 
some of the testing over the years. Can you give me a sense of 
the analysis that you and DNDO did to determine the ASP? If you 
can't finish right now, can you get us something in writing?
    Secretary Napolitano. Yes, and indeed we actually took some 
action within the last week. So we will get back to you on 
that.
    Ms. Clarke. Thank you very much, Mr. Chairman. I yield back 
the balance of my time.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from Michigan, 
Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    Secretary, we are delighted to have you here today and 
appreciate your testimony.
    One of the issues that--really, a principal advocacy for me 
is Northern border security, as you know. You and I have had 
some conversations about that. You have been very gracious with 
your time, as has your Deputy Lute. She has been great as well.
    But I just say that because, coming from Michigan, Northern 
border, it is so important to my reason, and I have been fully 
appreciative of what is going on in the Southern border and the 
measures that have been necessary to address the drug cartels 
coming across the border, et cetera, et cetera.
    But I have to go back--circle around here a bit to the 
Stone Garden grant and make my pitch for that. Our area, just 
my immediate region, since everyone's being somewhat parochial 
talking about their region, we have the Ambassador Bridge, 
which is the busiest commercial artery in the Northern tier of 
our Nation. We have the Windsor Tunnel under that.
    We have the Bluewater Bridge, which is the second-busiest 
commercial artery on the Northern tier and the only one that 
you can transit hazardous materials there. We have the CN rail 
tunnel, which is the largest rail entry incarnation, there.
    Immediately across the St. Clair River in Sarnia, we have 
the largest concentration of petrochemical plants, I think, in 
the hemisphere, maybe next to New Jersey, but it is enormous, 
along with the Great Lakes--a number of unique dynamics is what 
I am saying.
    One of my counties was able to get a Stone Garden grant 
several years ago. Now, of course, with the experience, Stone 
Garden at the Southern border got 59 percent in 2008. In 2009 
it was 84 percent. In 2010 it is 100 percent. Now, according to 
the budget here, they are not even eligible. Northern border 
can't even apply for these.
    I am appreciative, as I say, you have to ship the resources 
where you think are necessary. But to go to zero seems rather 
extreme to me, and we need some resources as well. What do you 
think?
    Secretary Napolitano. Well, I appreciate that, and I have 
heard that from others. I will say that Stone Garden shouldn't 
be looked at in isolation from other grant monies that have 
been available and made available up in the Northern region.
    The bulk of the ARA money that was appropriated for ports 
went to the Northern border ports and technology at the ports 
and improvement at those ports, which go to some of the 
structures that you alluded to. So in a tough budget year with 
some decisions to be made, that is where we were. But I think 
that that is something that will continue to be worked on 
throughout the process.
    Mrs. Miller. I appreciate that, and I hope you do revisit 
that, because it really is a policy question. One thing with a 
Stone Garden grant, it is a force--and I am appreciative of 
what you are saying to go to the infrastructure of the grants 
for that, but Stone Garden really has been a force multiplier 
for the locals, which has really been such a fantastic assist 
to whether it is the Coast Guard or the CBP or what have you. 
So that is my pitch on the Stone Garden.
    In regards to the SBInet, and there has been a lot of talk 
about this today, and I am not sure what all has happened on 
the Southern border with the SBInet, but, you know, on the 
Northern border sometimes maybe we even do things--I won't say 
better, but different.
    Secretary Napolitano. Right.
    Mrs. Miller. We actually have the SBInet, as you know, in 
my district, where you are standing up currently. There are 11 
towers that are being constructed. We actually had an ice jam 
in my area, and I took an air boat out to see the last tower 
being constructed on Sunday afternoon, and our experience, I 
think, with SBInet is we are looking forward to this.
    We haven't had much problems, and I think it is going to be 
completely turned over to the CBP in March. So we are looking 
forward to a good experience there--just my pitch on that.
    Since I have limited amount of time, there has been a lot 
of talk about the Christmas day bomber. As the representative 
from Michigan, where this airplane was coming down, you might 
imagine it has been on the front page. It has never fallen off 
the front page of our newspapers.
    Everybody is totally engaged in the debate about whether or 
not the Christmas day bomber should have gotten court-
appointed, taxpayer-funded attorneys--not one, but three in 
this case. I do know there is money put in here for the KSM, 
perhaps, trial in New York or wherever it is going to go.
    I don't think there is any money that has been budgeted for 
the Christmas day bomber, who has already been arraigned in the 
Federal building in downtown Detroit. I guess I am just looking 
for a little guidance on that. What does that mean there?
    You cannot imagine how bad the economy is in Michigan and 
in Detroit and with the resources that we are now faced with on 
something that we are not too happy about to begin with, but 
just from a budgetary standpoint. Do you have any comment on 
that, Secretary?
    Secretary Napolitano. Representative, I was just with 
Governor Granholm and know that the situation in Michigan is so 
serious. I think the actual budget request was not for KSM-
specific. It was for terrorism-related trials. Right now 
sitting here with you, I don't know how that is to be 
apportioned or utilized, but there was a recognition by the 
administration that there would be terrorism-related trials in 
the United States in 2011, and they require additional 
security----
    Mrs. Miller. Well, even in 2010 that is happening, so 
perhaps you could get back to me on if you find out any 
information about any budgetary relief for Michigan for the 
Detroit area for that.
    Since you have been good with your time, I will just very 
quickly also say the Air and Marine Wing of the Great Lakes 
Northern Border Wing that is being set up at Selfridge Air 
National Guard Base in my district currently as we speak as 
well, we are looking forward to a UAV mission this year. I know 
you have spoken about that.
    We are never going to put SBInet all the way around the 
Northern or Southern border or a fence, nor do we want to. But 
I do think that this is a critical component of utilizing off-
the-shelf hardware that has been so effective in theater and 
utilizing with CBP. We are looking forward to that mission as 
well.
    Secretary Napolitano. Very good.
    Mrs. Miller. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman recognizes the gentlelady from Nevada, Ms. 
Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Madame Secretary, nice to see you again. Before I ask my 
question, I would just make two comments. I would like to also 
have the record show that I share the concerns of the gentleman 
from New Jersey about cutting the Fire Grants, because Nevada 
is in special session right now, looking at ways to cut, as 
other cities in Nevada. We really need that money.
    Second, if I could just go back to Mr. Broun's comment 
about looking for alternative ways to make us more secure, 
Creech Air Force Base is in my district, and I visited them and 
witnessed some of the flying of the remotely piloted aircraft. 
I think that is a possibility for use in border control and 
pirates and other things. I would be interested in kind-of how 
you see that as future technology.
    But my question is in the wake of Mumbai in 2008, there was 
a real focus on the problem with a soft target. I think that 
was critical, and I think the Department increased its emphasis 
there. Over time, though, that seems to have diminished. But 
the threat has not diminished.
    Representing a community like Las Vegas, where this is a 
real possibility, I would ask you to show me where in the 
budget or explain what parts of the budget have some commitment 
to going back to that emphasis on the soft target.
    I would also remind you that I sent a letter a couple of 
weeks ago, inviting you to come to Las Vegas and see that 
unique community--we have got a transient population, we have 
got thousands of visitors on any given day, a host of potential 
targets in the area--just so you could see how the public and 
private sectors are working together and see how we might 
incorporate some more of that as part of our National policy.
    Secretary Napolitano. Indeed, I think that, if we can, we 
have got to get up there.
    On the soft target issue, you will find most of that under 
the NPPD directorate and also in the private sector office. We 
have had a lot of outreach. We have had outreach with the hotel 
associations and the hotel operators in the past months.
    Over the holiday season we met with the representatives of 
the 700 largest shopping malls in the country, and we also 
prepared and had on-line training for shopping mall employees 
on what to watch out for, what to look for, and the like.
    That is the kind of thing that provides direct assistance 
in the soft target environment that I think is very, very 
useful.
    Ms. Titus. We look forward to seeing you, and I thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. Well, thank you very much, Mr. Chairman.
    Madame Secretary, welcome.
    Secretary Napolitano. Thank you.
    Mr. Olson. Good to see you again.
    I am going to talk about issues concerning the budget in 
the United States Coast Guard. Madame Secretary, I understand 
in a tight fiscal environment sacrifices have to be made, but 
some of the Coast Guard budget cuts seem penny-wise and pound-
foolish.
    We have invested over $100 million in maritime safety and 
security teams, yet your budget proposes to cut that capacity 
by 42 percent to save $18.2 million. You propose to move to a 
``regional concept'' with the Maritime Safety and Security Team 
program, yet you terminate 395 active-duty military personnel 
instead of transferring them to other MSST units.
    You cut the aviation support to the Maritime Security 
Response Team, the Coast Guard elite counterterrorism team, 
thus eliminating the Coast Guard's tactical ability to board a 
vessel that is actively opposing being boarded by a law 
enforcement agency.
    What is even more disconcerting is that as the Secretary of 
Homeland Security, you are supporting a potential successor to 
the current commandant who wants to further degrade both the 
homeland security and search and rescue functions of the Coast 
Guard.
    I have here a memo from Vice Admiral Papp, recommended by 
you and nominated by the President to be the next Commandant of 
the United States Coast Guard. In this memo Admiral Papp 
indicates a willingness to ``incur additional risk in order to 
inform the fiscal year 2012 and fiscal year 2016 budget 
bills.''
    Madame Secretary, when Admiral Papp talks about incurring 
additional risk, he is not talking about risk to the Coast 
Guard. He is talking about risk to the American public. Given 
that risk continues to threaten our Nation--terrorism, the drug 
trade, human trafficking--why is it sound to put greater risk 
on the American people?
    Secretary Napolitano. Well, as I said earlier--I don't know 
whether you heard me; there was a question raised about that--
that was an early interagency memo that was leaked based on 
earlier budget assumptions that are not in fact the out-year 
budget assumptions for the Coast Guard.
    That is not the policy of the Coast Guard, nor the 
Department of DHS, and so it is difficult to respond to a 
leaked pre-decisional draft document in a public hearing of 
this nature. But Admiral Papp is highly, highly qualified to be 
the next Commandant of the Coast Guard, and I think the Senate 
and the people of America will agree. He has a very, very 
distinguished service record in the Coast Guard and has served 
the people of this country very, very well. So let us just go 
there.
    Now, with respect to the MSSTs, you are right. We have 
consolidated and regionalized them. It was the combined 
judgment with the Commandant of the Coast Guard that we could 
have the same reach in terms of response to possible terrorism 
activities at the regional level as opposed to having so many 
different places with their own MSST. There I understand there 
can be disagreement about that. I am sure those will be 
discussed throughout the appropriations process.
    Mr. Olson [continuing]. I know you don't agree with me, 
because you are rolling your eyes there, but, you know, the 
Coast Guard's--to have an asset on the scene within 2 hours. 
When your life is on the line, 2 hours is it might be an 
eternity--is an eternity if you are in the water. But again, 
Admiral Papp in his memo seems to be willing to modify those 
standards. I don't want to go further, but do you support his 
assertion that more risk is acceptable, loosening the standard 
for on-scene response time?
    Secretary Napolitano. Representative, with all respect, I 
am just not going to get into a dialogue about a draft leaked 
memo. That is not the policy of the Coast Guard, nor the policy 
of the Department of Homeland Security.
    Mr. Olson. Again, I understand that. But the nominee--this 
is his memo.
    Secretary Napolitano. Well----
    Mr. Olson. He wrote it.
    A couple of more questions, then. Admiral Papp seems also 
to reduce the security patrols by 10 to 15 percent, reducing 
the number of Coast Guard response boats in both groups by 
cutting drug enforcement efforts by 25 percent.
    Finally, he will end the Coast Guard's Maritime Security 
Response Team and has said that these reductions are ``just a 
fraction of what is needed, and I am prepared to go further.''
    In my humble opinion, he has gone too far. In conclusion, 
again, I know you responded to my fellow Texan about his 
questions, and I appreciate your position, but if these radical 
proposals that this nominee--if these are things that he is 
actually thinking about that are good for the Coast Guard that 
he will enact when he gets into office, I think he is 
unqualified, and I ask that you reconsider supporting his 
nomination.
    Mr. Chairman, I would like to ask unanimous consent that 
the memo be added to the record.
    Chairman Thompson. Without objection.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Olson. With that, I yield back my time. Thank you.
    Chairman Thompson. Thank you.
    The Chairman now will recognize the gentleman from Texas, 
Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I thank you, Madame Secretary, for appearing today. Just as 
an aside, I maintain a prayer list, and I assure you that I am 
adding you to my prayer list. God bless you.
    Secretary Napolitano. Yes, thank you very much.
    Mr. Green. Madame Secretary, quickly, would the imaging--we 
seem to be getting some feedback--would the imaging equipment 
that we have, the full body scan equipment at AIG, would that 
equipment have detected the bomb that was to be employed on 
Christmas day?
    Secretary Napolitano. Representative, I don't want to go 
into detail in an unclassified setting. Let me just articulate 
it this way. There is no doubt in my mind----
    Mr. Green. Let me if I may, I will take it--I am going to 
retract that. I will retract that and just ask you this.
    Secretary Napolitano. All right.
    Mr. Green. Is it perhaps among the best equipment that we 
have to do it?
    Secretary Napolitano. Yes.
    Mr. Green. Okay.
    Secretary Napolitano. It is objectively better than the 
current iteration of technology.
    Mr. Green. Exactly. I listened to your testimony, and here 
is where I am going. I thought you had good retorts for privacy 
concerns. It is unfortunate that we don't have that message 
pervasive to the extent that privacy advocates across the 
length and breadth of the country would at least give 
consideration to it, if they haven't already--ACLU, for 
example.
    My question is to what extent have we had an opportunity to 
sit, dialogue, and try to work out these concerns with 
organizations like the ACLU?
    Secretary Napolitano. Representative, the chief privacy 
officer of the Department has been meeting with a number of 
members of the privacy advocacy community, for lack of a better 
word. Whether she has met directly with the ACLU I do not know, 
but we have been trying to educate that community on the fact 
that the earlier technology and how it works is just not the 
same as it is right now. So we continue that.
    Privacy is a very important value for us. Civil liberties 
are important values for us. If we are going to continue to use 
different types of technology, we need to take those accounts 
into consideration at the front end.
    Mr. Green. At the risk of being rude, crude, and unrefined, 
I have to go on quickly.
    I think, Madame Secretary, that the logic we employ today 
will not be the logic that we will employ the day after--God 
forbid--a plane traveling at 500 miles per hour has its 
structural integrity compromise at 35,000 feet. Many of the 
folks who would say today, ``I have a problem,'' the day after 
that occurs--and God forbid that it will--they won't use that 
same logic.
    The beautiful thing about being a member of the public is 
you can be here today and there tomorrow and there are no 
consequences. We have the challenge of dealing with the 
consequences of our actions or our inactions, which is why I am 
just encouraging you to do as much as you can as fast as you 
can to get the answers that you have to the public, because I 
think you do a good job at responding to the privacy concerns. 
I really do. I think we need to get that message out.
    Secretary Napolitano. Thank you.
    Mr. Green. I want to encourage you to do what the President 
is doing, but I will tell you today with the health care issue 
and C-SPAN live, but I would tell you that it wouldn't hurt to 
have some of those people who have some of the sharp questions 
in the same room with you, televised so that people can hear 
you respond and know that this has been addressed, that it is 
of importance to you.
    Now, quickly, there is about $21 million that has been 
estimated to be the cost to transition from the Federal 
Protective Service, FPS, to the National Protection and 
Programs Directorate. Apparently, there is not a request for 
this $21 million in the budget. Can you tell me quickly does 
this mean that we are now abandoning this program? Or does it 
mean that you have some other plans that we are not privy to?
    Secretary Napolitano. Representative, we have a spend plan, 
and that transition has basically occurred from ICE to the 
NPPD. The budget accordingly reflects that that transfer has 
basically occurred.
    Mr. Green. Okay. Let me move----
    Secretary Napolitano. In addition, there was in the FPS 
account--my understanding is there was approximately $200 
million that had been unspent so that there are unspent monies 
as well to be deployed for FPS. So those two things go 
together.
    Mr. Green. Thank you. Quickly now, the TWIC card. Some 
ports, as I understand it, are employing a card that is local 
along with the TWIC card, which is mandatory. Is there a need 
for multiple cards at these ports, or is the TWIC card one that 
should suffice for all ports?
    Secretary Napolitano. You know, I would have to know more 
about the local port setting and which workers are being used 
for it. But the TWIC card is designed to be a National--you 
know, it is a National check, a National card.
    Mr. Green. The reason I ask is because there are the 
workers--I have had some to complain to me about having to have 
multiple cards. Apparently, there may be multiple costs 
associated with it. Just when you make wages, every dollar 
counts, and I want to represent them well.
    Final question on TWIC is this. Do we have the scanners for 
all of the TWIC cards now? Are scanners in place across the 
country for the cards? We deployed the cards before we deployed 
the scanners, so have we deployed the scanners?
    Secretary Napolitano. We have a schedule to deploy the 
scanners beginning at the larger ports, but they are not all in 
place right now.
    Mr. Green. There is a concern about fraudulent cards being 
developed. I am sure you are aware of it. There is even some 
question as to what crime is committed when that card is used. 
We know crimes are committed, but there is some debate about 
whether we go Federal, whether you are going to go local in 
terms of the crime. Perhaps some directive to some of the ports 
may be helpful.
    Secretary Napolitano. Yes, we will take a look at that.
    Mr. Green. Okay. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from New Orleans, Mr. Cao.
    Mr. Cao. Thank you, Mr. Chairman.
    Chairman Thompson. Five minutes.
    Mr. Cao. Madame Secretary, I just want to say that I have 
been one of your biggest fans, and I continue to be one of your 
biggest fans of the Congress, because I feel that you have done 
a tremendous job, given the complex environment in which we 
live. I would also like to thank your staff, who have worked 
very closely with us to promulgate rules in connection with 
CDLs that are very, very favorable to recovery.
    But with that being said, I just wanted to reiterate the 
issues that we discussed prior to the hearing. In connection 
with the rules that are being promulgated, a problem might 
arise in connection with adjacent parishes to Orleans, who 
right after Katrina experienced a short period of increase in 
income, and it might present a problem for them in getting the 
CDL loans forgiven. So I would ask that you and your staff 
look, revisit the rules in connection with those parishes.
    Secretary Napolitano. Yes, sir. We would do that.
    Mr. Cao. The second issue that I would like to address is 
the special CDL to private entities with service agreements 
with local governments. We have also discussed this prior to 
the hearing. I just want to give you the background of it.
    Ochsner and Jefferson Parish have been working 
unsuccessfully since 2007 to obtain funding under this special 
CDL program enacted following Hurricane Katrina. This special 
CDL program assists local governments in providing essential 
services to their communities, and under the implementing 
regulations promulgated by DHS, private nonprofit hospitals 
such as Ochsner are eligible to use these special CDL proceeds.
    I just want to point your attention to the preamble to the 
regulations, which basically states to that fact. Because of 
this regulation, Jefferson Parish has deemed it appropriate to 
provide special CDL loan proceeds to Ochsner, because they 
provided Jefferson Parish with the essential health care 
services after Katrina when Charity Hospital was destroyed.
    Based on my understanding, Jefferson Parish and Ochsner 
have corresponded and met with FEMA officials numerous times 
and as of February 2010, FEMA has yet to approve Jefferson 
Parish's application for this special CDL for Ochsner. So if 
you can look into that issue I would really appreciate it.
    Secretary Napolitano. I will ask FEMA to do that. Yes, sir.
    Mr. Cao. Thank you very much.
    My last question that I would like to ask you concerns the 
Maritime Safety and Security Team. Based on what I have heard 
so far, I guess, based on your budget, the team will be 
eliminated. The team in New Orleans serves a special role in 
security post-Katrina, and I wonder whether or not there is a 
way that this team can be pared down instead of fully 
eliminated.
    Secretary Napolitano. I think the theory of the Coast Guard 
there, Representative, was that particularly in places where we 
have also another, a large Coast Guard footprint, that simply 
paring down didn't make as much sense as simply consolidating 
to another nearby area.
    Of course, New Orleans has a huge Coast Guard footprint. It 
is the same with New York. With the consolidation of the MSST 
team, they still have one of the largest Coast Guard 
deployments in the United States, so kind of the theory in 
terms of making smart and effective use of the dollars that we 
do get appropriated was that it was better to handle it this 
way rather than simply reduce the size of teams.
    Mr. Cao. Thank you. That is all the questions I have.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from California, 
Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Thank you, Madame Secretary, for your presence here today.
    I want to talk a little bit about how we approach some of 
these complicated technological questions. I will tell you that 
I was frustrated for a number of years on not only the results, 
but the process of how we were mapping vulnerabilities for 
infrastructure in the United States, most of it held in the 
public sector.
    At one point I suggested that we outsource, for lack of a 
better word, the mapping to the National labs, who actually 
have some of the expertise available that we really didn't 
have, and I think still do not have, in the Department. That 
also relates to cybersecurity.
    I know it is important that the cybersecurity function be 
in the Department. I don't quarrel with that. But I do think 
that there is an expertise that could be brought in from the 
National labs that is really hard to hire. I am wondering if 
you have thought about that. That is question No. 1.
    Question No. 2, I will never forget in this room the 
testimony we received from the inspector general. I asked the 
question whether there had been the US-VISIT. US-VISIT had been 
hacked, and he said, ``Who would know?'' They didn't even 
deploy detection intrusion security. So I think from that, we 
need to do an assessment, a cyber assessment of our own 
Department. It is always better to have somebody from outside--
that than to do it yourself.
    Finally, I am interested--I know that your ICE director is 
a career prosecutor from DOJ. The responsibilities are split 
between departments, and I am wondering what kind of mechanisms 
have been put into place for the ICE director to share with the 
DOJ the need for additional immigration judges.
    We are so short on immigration judges, and I remember when 
I was in local government, we had, I think, the second-largest 
county jail in the State of California. We had an overcrowding 
problem, but the answer was, in large measure, judges. It 
wasn't the need for more space. It was a need to process cases.
    I think if you look at the amount of delay and the--not in 
every case, but when you have somebody who stays for a very 
long time, they are eating up a big budget at $90 a day. It 
really makes more sense for the Government overall in some 
cases to hire, but it is different departments. I am wondering 
what kind of mechanisms to share that mechanism exist, if there 
is anything we can do to assist in that.
    The final question is--it is kind of a little one, but I 
promised I would ask--customs and border security at Dulles 
Airport. They are not highly paid. They have got, you know, 
crummy hours and a hard job. I was shocked to find out that 
they have to pay for their parking on top of everything else 
out at Dulles. Is there any way to do something about that? So 
those are my three questions for you.
    Secretary Napolitano. On parking, I don't know. I will find 
out.
    On the judges and the relationship between what we are 
doing on the enforcement side, we have the impact on the 
justice system. There were at least two joint meetings between 
DHS and DOJ at OMB when the President's budget for 2011 was 
being prepared to look at precisely that intersection. That is 
having been a prosecutor and a practitioner in the Ninth 
Circuit, I really appreciate that particular issue in a 
fundamental way.
    With respect to cyber and use of the National labs and red-
teaming ourselves, as I suggested earlier, it might be time for 
this committee to have a cyber hearing of some sort, perhaps in 
a classified setting, to get--excuse me, to get a better sense 
of where it is that we are heading. I think we have made great 
strides this year, but there is no doubt that we have much work 
to do.
    Ms. Lofgren. Can I follow up on the infrastructure 
vulnerability, because it is not just cyber? I mean, it is 
cyber, but they are--you know, we had, harking back to some of 
the lists we had, we had, I mean, the Santa Cruz Boardwalk 
placed in Santa Clara County and miniature golf courses on the 
list. I mean, it was an embarrassment to everyone.
    I spent a lot of time on it, and the real problem was that 
we were asking people who really didn't know in local 
governments and in law enforcement to do something that was 
outside their field of expertise.
    When you look at the entire system--and I don't think we 
have accomplished it yet--you know, you can't protect unless 
you know the critical vulnerabilities. Have you given a thought 
on how we might team that, how to swarm that effort?
    Secretary Napolitano. Well, we have done a lot in the sense 
of really looking at where are the Nation's critical and what--
first of all, what is a critical infrastructure?
    Ms. Lofgren. Right.
    Secretary Napolitano. How do you define it? Where is it? 
How is it protected? What private sector section does it belong 
in that we need to interact with? Then how do we--to the extent 
that is a cyber network, how do we deal with that? To the 
extent it could be a possible target, how do we deal with that? 
Also the relevant consequence management, should there be a 
successful attack.
    I would just suggest that I think that there again, there 
has been a lot of good work done in the last 7 years. There is 
more work to be done, and the National labs can be very helpful 
there as well.
    Ms. Lofgren. Thank you.
    Mr. Chairman, I wonder--certainly, we don't want to discuss 
here publicly what we know has not been attended to in our 
various jurisdictions, but maybe we can look to have a more 
confidential session with the Secretary to explore that, and I 
think that----
    Chairman Thompson. We had already taken note based on an 
earlier conversation.
    Ms. Lofgren. Oh, very good.
    Chairman Thompson. We will coordinate their schedules for 
that to occur.
    Ms. Lofgren. Thank you very much.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentlelady from California, 
Ms. Richardson.
    Ms. Richardson. Whew! I don't know about you, but I am glad 
we are getting down the line here. Madame Secretary, it is 
great to see you as always, and thank you for your attendance 
and your frankness regarding this serious issue. I have got 
four key questions, so I am going to ask them quick, and if I 
can get your indulgence, I would appreciate it.
    No. 1, your fiscal year 2009 budget was 52.7. How much of 
that did you actually spend--was expended?
    Secretary Napolitano. I will have to get back to you on 
that.
    Ms. Richardson. Okay. My second question. Madame Secretary, 
we on the committee are very much aware of the administration's 
supplemental budget request to provide an additional $5.1 
billion to the disaster relief fund. Of these funds, $1.5 
billion is to be used to pay for arbitration judgments in favor 
of the entities affected by Hurricane Katrina, such as Charity 
Hospital in New Orleans.
    Looking past the significant amount of money that is 
needed, I am troubled that the Civilian Board of Contract 
Appeals found in at least two cases that the experts 
representing FEMA were less experienced and less credible and 
have spent less time in the building than the entities' 
representatives, and were also unlicensed.
    In other words the officials chosen by FEMA to make the 
judgments related to public assistance decisions were not the 
type of individuals who should have been making the decisions 
in the first place. I realize that initial part was done prior 
to you coming; however, what are you intending to do to ensure 
that we have the right people making the decisions on public 
assistance?
    Secretary Napolitano. Well, we have done a lot of work in 
FEMA, as I think Representative Cao acknowledged. Part of that 
is making sure we do have the right people making the right 
judgments.
    One of the really reforms that happened this last year was 
the Congress passing the ability to arbitrate some of these 
claims so that we could get them resolved, decisions made, and 
people could get on with their lives.
    The supplemental that the President has submitted will 
cover those arbitrations. It will also cover, I think, $1.1 
billion that will be necessary for the schools and their 
reconstruction, the ones that are still left. And so with that, 
we think we will really end the year with the Katrina-Rita 
arbitrations done.
    Ms. Richardson. According to my notes, $1.5 billion, which 
is quite a lot of money. I think what this committee is looking 
for are: Have specific standards been put in place to ensure 
that the new people who are coming in or the people who are 
there at a minimum are licensed? As this report said, less 
experienced, less credible and all those things--do we have 
some sort of standards in place to ensure that that has been 
corrected?
    Secretary Napolitano. Congresswoman, I have asked the 
general counsel to make sure that we have the right people in 
place to do that.
    Ms. Richardson. Okay. My third point--and I am now down to 
2 minutes--looking at the budget, and what I really have spent 
a lot of my time working on, I want to associate myself with 
all of my colleagues, their concerns with the SAFER and 
firefighter grants.
    I am going to have a--I don't see myself supporting the 
budget as it is with that decrease. Also, the Emergency 
Operation Centers, I just find something that I personally 
worked on for about 10 years from the local government to 
today, seeing it evaporate before our very eyes is disturbing.
    Then finally, looking at the Coast Guard as well, you know, 
it just makes us wonder. We understand the size of your 
Department and all the areas, but these suggested decreases are 
very concerning to us as the committee and to me personally.
    But finally, the cargo security, which you know I have a 
great interest in, and we have had a couple of discussions, and 
I think your first time here I mentioned to you the 9/11 
requirements that were coming forward, and it is my 
understanding the Chairman mentioned it to you as well, and I 
am very concerned with the potential, from what I see here, of 
47.87 percent. In my business here, what I know about money, 
once you cut that much, you probably never get it back.
    When I look at on the flip side more money being spent for 
Secret Service--now, in this very committee we had the head of 
the Secret Service say that the complaints or the threats that 
have come through have not been any greater than any other 
President, which I found surprising, but that is what he said--
candidate protection and all that.
    You know, I am concerned that the pendulum is not swinging 
too far one way and we are missing the foxes, literally, in our 
bedroom. So for me, because this happens to be my bedroom 
community that I live in, I would just have serious issues with 
the decisions made regarding cargo security and wanted to hear 
your thoughts.
    Secretary Napolitano. Well, I think I have already shared 
those. We will be happy to provide you with further.
    But we think with the 10+2 rule, with 24-hour notification, 
with the transformation to electronic record collection as 
opposed to having to move paper, that that combined with the 
fact that you can't just look at cargo coming in one way--that 
is just one way; if you were to view the United States as a 
house, it is only one way to the house--there are a lot of 
things, other things that need to be covered.
    But that, the methodology that we are using, will yield the 
greatest security and that the margin added for the 100 percent 
requirement doesn't give you that additional amount of security 
where we would be better off doing some other things.
    Ms. Richardson. Well, Madame Secretary, and as I close, 
your predecessor was not particularly supportive of the reality 
of achieving the 9/11 time frames. I believe when you came, you 
were equally not as committed of meeting those time frames. So 
I hope to work with the Chairman and this committee. I view it 
as a serious issue.
    We went on a Congressional delegation, and when I asked at 
that port, and it was a foreign port, how many of the cargo are 
you inspecting other than what is required of being pulled 
aside, and the answer was none.
    I believe, just as we saw, you know, we can all panic and 
respond and knee-jerk with the Christmas day bomber, but I 
believe it is not a question of if. It is when eventually this 
will come back to bite us.
    So I look forward to working with you. I know you believe 
in security, and that is why you are serving, and we are 
grateful for it. But it is a No. 1 priority for me. Thank you 
very much for your time.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much, and 
sorry for my delay managing bills on the floor.
    I thank you, Madame Secretary, for being here. Let me start 
out by acknowledging all the men and women that work for the 
Department of Homeland Security. I am still trying to calculate 
whether it is the largest or next-to-largest of our 
departments, but certainly it has had some steep mountains to 
climb in terms of the many district groups that have come 
together. I want to thank them very much for their service and 
thank you.
    As was indicated when we conversed, I do understand that 
the Christmas day bomber had origins beyond some of the 
boundaries and responsibilities of TSA, in particular the TSO 
officers, and I think that should be noted. But we know that we 
want to be perfect. We have to, because we are in the business 
that we are in.
    So I have a series of quick questions, and since this is a 
budget hearing, I would like to mention some policy issues that 
you might not have time to talk about, but I would suggest 
starting out with.
    I do think we need a time frame for discussions on 
comprehensive immigration reform. Of course, there are 
overlapping jurisdictions, and that might be a policy question 
that one might want to have in our budget writing to at least 
set us on track for something that I think is enormously 
important.
    My committee has held several hearings on encouraging 
private sector entities to secure themselves against a 
potential attack. As you know, this is generally not done by 
regulation, but through DHS voluntary partnership with the 
private sector.
    We had a hearing on the Mumbai attack so that we would 
understand what could happen in the United States and what is 
being done in the United States. The PS-Prep program, a part of 
the 
9/11 Act, was discussed. It is clear that this program could be 
leveraged to assure that our private sector partners are taking 
tangible steps to secure facilities that have been targeted by 
terrorists.
    Please discuss the status of this program, when it will 
begin to certify businesses and the amount of money dedicated 
to it in the budget both at FEMA and the Office of 
Infrastructure. That is the PS-Prep program--I don't know if 
you heard me. Then I will just leave you.
    I would appreciate whether or not we are funding Science 
and Technology more or staffing it up, because the complaint is 
that we cannot get needed security inventions or technology 
confirmed quick enough.
    I understand the air cargo question was asked, but if you 
have a better answer as to when you might think we would 
complete that requirement. I would like to find out whether or 
not the Gallatin match, where they don't have to match, has 
been added.
    Then the Citizen Corps--I understand we are not funding it, 
and we were just making progress. Administrator Fugate was in 
Houston talking about the value of the Citizen Corps. We were 
working to get the Corps--this is the response teams citizens 
in minority neighborhoods, which we had really not reached. I 
just want to know are we lowering the funding, or do we have 
funding that we can utilize? I would like to see it bumped up.
    I yield to the Secretary.
    Secretary Napolitano. Representative, on several of these, 
why don't I ask your indulgence and just get back to you with 
specifics on those?
    I do want to pause a moment on S&T, however.
    Ms. Jackson Lee. Just let me know the ones you are going to 
get back to me on.
    Secretary Napolitano. Well, the rest of them. I have got 
them here. We are taking notes.
    But we now have an Under Secretary for Science and 
Technology in place. She was confirmed not too long ago, but we 
have been working really vigorously to make sure that Science 
and Technology is really incorporated throughout the 
Department, not just in that directorate.
    But we are using that in terms of helping set standards, 
set requirements for the contracting that we do moving forward. 
That, we think, will help drive innovation on the vendor side, 
which is very important.
    Ms. Jackson Lee. But it is the speed as well. It is too 
slow, and you are hurting small businesses. We really want to 
work with you on that.
    Secretary Napolitano. Yes. We would be happy to work with 
you.
    Ms. Jackson Lee. All right. Thank you.
    Chairman Thompson. Thank you very much.
    Unanimous consent to recognize Mr. Rogers for a follow-up 
question.
    Mr. Rogers. Great. Thank you, Mr. Chairman.
    Madame Secretary, earlier our colorful good friend from New 
Jersey was trying to get you to name one thing in the last year 
you had asked us to do. What he was after was a follow-up to my 
questioning about jurisdictional consolidation. We need you to 
urge the President and Speaker Pelosi and Leader Reid to make 
this political lift.
    As you had mentioned early, the size of your Department is 
substantial. This Congress had the same difficulty when it 
established the Pentagon and put everything under HASC in the 
House and SASC in the Senate for the Armed Services, the 
various branches.
    We need you to exercise what Lee Hamilton called for, and 
that is the call for the political will to consolidate 
jurisdiction in this committee. That is what he was trying to 
get you to say. What have you done? Have you asked for it?
    We have had so many of your people in leadership positions 
testify before this committee about their frustration of having 
86 different committees and subcommittees they have to answer 
to. I heard Ms. Richardson make a reference to our joint 
concern about the Fire Grants and the SAFER grants. Those come 
out of the Science Committee. Transportation has Coast Guard as 
well as on and on and on, Judiciary, Oversight.
    It is a political lift, because they are going to aggravate 
a lot of Chairmen when they start trying to take jurisdiction 
away from them and consolidate it here, but it needs to be done 
to make sure your Department has uniform and consolidated 
leadership in the Congress, know what the Congress is expecting 
for you, and take a lot of burden off of you all.
    So I would like to ask are you willing to do that? Are you 
committed to trying to see that the Congress pursue that 
remaining 
9/11 Commission recommendation that has not been satisfied?
    Secretary Napolitano. Well, Representative, it is something 
we have discussed with Congressional leadership. We have raised 
not just the number of committees, but the amount of work 
attendant upon that.
    Just this morning in our Appropriations Subcommittee, the 
Chairman was making some very legitimate complaints, really, 
about the delay in getting some reports. But I think he was 
surprised when I pointed out that just in that subcommittee we 
had 300 mandatory reports. That doesn't even include this 
committee or the volume of correspondence and hearings that 
this committee generates.
    So the answer is that that is one recommendation of the 9/
11 Commission we would like to see pursued. It is something 
that we have spoken with Congressional leadership about.
    Mr. Rogers. Great. Have you spoken about it with the 
President as well?
    Secretary Napolitano. I have.
    Mr. Rogers. Excellent.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from Texas had a follow-up.
    Mr. Green. Yes. You indicated, Madame Secretary, that you 
were going to deploy the TWIC card readers, but you did not 
give me the date. I would like to have the date of deployment 
for those readers, please.
    Secretary Napolitano. I think some have been deployed. 
There is a schedule by which they are rolling out. We will get 
that schedule to you. I don't have it at my fingertips.
    Mr. Green. All right. I would like to get the schedule.
    Finally, I would like to associate myself with the comments 
of the Chairman with reference to the 9/11 Commission 
recommendation of 100 percent cargo screening. It is important 
to us. Thank you.
    Chairman Thompson. Thank you very much, Madame Secretary. I 
have one question before we close the hearing. I understand 
that the President has established a long-term natural disaster 
recovery working group. Can you just kind of give the 
committee: If you are involved in that at all, and just how is 
it coming?
    Secretary Napolitano. Yes, I co-chair it with the Secretary 
of HUD. It is designed to--we have a National Response 
Framework, which is what you do in the immediacy of a disaster 
and the immediate aftermath, but what you do long-term to 
restore housing, small business, neighborhoods, communities.
    At what point does HUD take over the housing? At what point 
is SBA brought in? Do you waive certain requirements for loans 
and CDBG grants and the rest if it is part of a long-term 
recovery from a natural disaster that you otherwise wouldn't 
have?
    I believe we are scheduled to give our recommendations to 
the President in early April, and we are on schedule to do 
that. We would be happy to conduct a briefing for the committee 
after the President has a chance to look at them.
    Chairman Thompson. Right. One of the issues I want you to 
look at is to what extent does pre-disaster mitigation come 
into being. We are still, as you know, paying a tremendous tab 
for Katrina and some other natural disasters.
    But if we have in place some pre-disaster mitigation 
program, even though hurricanes and other things would come, to 
the extent that we could fortify areas with significant 
construction requirements and some other things, the cost over 
time would be less than what we are faced with right now. So I 
would hope that you would look at it.
    We have been working with a number of groups around the 
country, trying to see whether or not there are some 
opportunities. There are some real smart people who have looked 
at cost-effective mitigation efforts, especially for homeowners 
and other people who live in some of those impacted areas.
    With a little help from HUD and DHS, I think we could push 
the concept that would drive down insurance rates and a number 
of other things so that the dollar figure for the cost would 
not be less. Let me suggest that there is a group called the 
smartersafer.org.
    Secretary Napolitano. I am sorry--the Smarter Safer----
    Chairman Thompson. Smarter Safer Coalition. They have been 
corresponding with your office. We will provide to you some 
information on it. These are people who come up with bright 
ideas. I would think that some of those vetting of those ideas 
would bear fruit for what you are looking at, and I would 
suggest that after we provide it, if you would do it, we would 
appreciate it.
    Secretary Napolitano. Be happy to look at those. 
Absolutely.
    Chairman Thompson. I thank you for your time. You have been 
most gracious. Four hearings in 2 days is probably a record, 
but if this one was any indication of those, you have done all 
right, and I want to thank you for that. The Members of the 
committee might have additional questions for you, and we will 
ask you to respond expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 4:59 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions Submitted by Chairman Bennie G. Thompson of Mississippi for 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1a. I am pleased that you are taking on this major 
challenge to the institutional stability of your agency by proposing a 
``Balanced Workforce'' program in your fiscal year 2011 budget request. 
The ratio of contractors to Federal employees at the Department is an 
issue that the committee has repeatedly identified. This new initiative 
to address this over-reliance is certainly encouraging; however, I do 
have some questions.
    What is the Department's strategy to determine what positions will 
be changed over from contract to Federal? Will you simply stop renewing 
large contracts that are slated to expire or will there be a position-
by-position analysis?
    Answer. We will use workforce planning efforts to identify the 
proper balance of Federal employees and contractor resources to achieve 
the Department's mission. To this end, under direction of the Under 
Secretary for Management, the Office of the Chief Human Capital Officer 
(OCHCO) has established a Balanced Workforce Program office. The 
executive for this office will work closely with key stakeholders in 
developing a long-term comprehensive strategy for the Department. 
Contracts will be reviewed to ensure that the work is not inherently 
Governmental, unauthorized personal services, or core/critical 
competency.
    Question 1b. I agree with the statements by contractor industry 
groups that ``in-sourcing solely for the sake of in-sourcing or on the 
basis of arbitrary quotas'' would be a detriment to the Department as 
it fulfills its missions. How are you avoiding arbitrary quotas and 
ensuring that there is a systematic approach in identify positions for 
conversions?
    Answer. We are not setting quotas, but under the leadership of the 
Balanced Workforce Program office, assessing the unique workforce need 
of each Component. Our approach is to ensure that functions that are 
identified as inherently Governmental, unauthorized personal services, 
or core/critical competency are performed by Federal employees. 
Approximately 3,500 positions have been identified as such and will be 
in-sourced. Thereafter, the Balance Workforce Program office will 
provide the oversight necessary to ensure the Department develops a 
systematic approach to determine the appropriate ratio of Federal 
employees to contractors.
    Question 1c. Please provide a breakdown of how many positions you 
expect to transition in fiscal year 2011, Department-wide and by 
agency, and the anticipated cost savings or avoidance for such position 
conversion.
    Answer. Please refer to the chart below.

                      DEPARTMENT OF HOMELAND SECURITY WORKFORCE BALANCING  FISCAL YEAR 2011
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                                                                         Fiscal Year
                                                                                          2011 Total    Fiscal
                                                                               Fiscal        Cost      Year 2011
                      Component                       Contractor     FTEs     Year 2011   Reduction    Increase
                                                       Positions                Cost          to      in Federal
                                                                               Savings   Contractual   Personnel
                                                                                           Services     Funding
----------------------------------------------------------------------------------------------------------------
CBP.................................................         950        475      $40.6       $140.6      $100.00
OHA.................................................          20         16        2.30         4.20        1.90
S&T.................................................          35         35        0.42         7.12        7.12
USCG................................................         300        300        2.70        41.33       26.83
NPPD................................................         306        360       13.20        56.90       43.70
ICE.................................................          47         47        2.35         9.40        7.05
                                                              20  .........        2.50         2.50  ..........
OSEM--Executive Secretary...........................           1          1        0.23         0.11        0.87
FEMA................................................          28         14        1.46         3.03        1.56
A&O.................................................         138        125       17.77        36.89       19.11
USM--Office of Human Capital........................          15         15        0.00         6.10        2.30
USM--HRIT...........................................          25         25        0.00         5.40        3.87
USM--Office of Procurement..........................           0          0        0.00         0.00        0.00
USM--Office of Security.............................          72         72        0.00         6.08        2.85
CFO.................................................          38         19        0.00         1.85        1.85
OCIO................................................          27        106        0.00        12.41       12.41
WCF.................................................           0         34        0.00         6.48        5.27
                                                     -----------------------------------------------------------
      Total DHS.....................................       1,322      1,419      $72.75      $329.61     $236.69
----------------------------------------------------------------------------------------------------------------

    Question 2. As you know, this committee has raised many concerns 
with the development of the Transformation and Systems Consolidation 
(TASC). We have determined that the previous administration failed to 
conduct the proper due diligence prior to issuing a ``Request for 
Proposal.'' Keeping that in mind, and seeing that there are funds 
within the fiscal year 2011 budget to fund TASC, what steps are you 
taking to make sure that the Department will get a system that will 
resolve DHS' well-documented financial management issues?
    Answer. The Department has taken a top-down approach in guiding the 
consolidation of financial, acquisition, and asset management systems. 
DHS is in the process of establishing an Executive Steering Committee 
(ESC), which will provide strategic leadership and direct the 
Department's vision for TASC. It is anticipated that the ESC will be 
headed by the Under Secretary for Management and membership will be 
derived from the Department's CXOs and Components.
    A departmental Integrated Management Team (IMT), consisting of the 
Offices of the Chief Financial Officer (OFCO), the Chief Procurement 
Officer (OCPO) and the Chief Information Officer (OCIO) are performing 
a thorough review of the TASC initiative. DHS has developed program 
management planning documents, processes, and plans in accordance with 
DHS Acquisition Directive 102-01 (AD 102-01) and insights gained from 
the IMT. DHS is also taking steps to ensure adequate staffing for the 
TASC program management office (PMO) that continues to build a robust 
team of full-time Federal employees with expertise in project 
management, systems accounting, change management, acquisition 
management, business intelligence, accounting services and systems to 
successfully manage TASC. TASC leadership has a risk management plan 
which was presented to Congress in the fiscal year 2010 TASC Report to 
Congress.
    Based on recommendations contained in the December 2009 GAO report 
titled, ``Financial Management Systems: DHS Faces Challenges to 
Successfully Consolidating its Existing Disparate Systems, GAO-10-76,'' 
the oversight of the Independent Verification and Validation (IV & V) 
team is now performed by the Department's OCIO.
    Independent verification and validation (IV & V) contractors 
continue to support the Department's CFO, providing comprehensive and 
mature oversight throughout the program life cycle. Specifically, IV & 
V reviews documents and processes for completeness and correctness; 
quality assurance over project deliverables and cost; and compliance 
assessments against enterprise architecture, security, performance 
requirements, and organizational standards.
    Question 3. Like you, I am concerned about the human resources 
challenges that DHS faces. Accordingly, I want to make certain that the 
Office of the Chief Human Capital Officer has an adequate budget to 
address the Department's long-standing problems with morale and 
diversity and to promote a common culture among all DHS employees. The 
budget request for this office is $24.9 million; a slight decrease from 
fiscal year 2010 enacted levels.
    Please outline what portion of the Department's $24.9 million 
request will be allocated to meet your goals for: (1) Hiring reform; 
(2) workforce diversity and outreach; and (3) leadership development?
    Answer.
    The Department expects to allocate a portion of its $24.9 million 
as follows:
  <bullet> Hiring Reform.--$7.6 million (to include policy development, 
        workforce engagement, human capital planning, and human 
        resources program accountability, but not information 
        technology-related investments.)
  <bullet> Workforce Diversity and Outreach.--$2.7 million.
  <bullet> Leadership Development.--$6.3 million (not including the 
        operational component of SES candidate development programs, 
        which is within the working capital fund).
    Question 4a. Having the appropriate personnel to carry out the 
important mission at the Office of Intelligence and Analysis (I&A) is 
essential. However, in previous years, I&A has been unable to hire and 
sustain the number of FTEs requested.
    What steps are you taking to improve the process by which you 
recruit, clear, and hire personnel to meet your FTE request for this 
year? What improvements do you expect to have in place to fill the FTE 
request for fiscal year 2011?
    Answer. The Office of Intelligence and Analysis (I&A) senior 
leadership has made hiring up to full strength as rapidly as possible a 
top priority. Internal improvements include:
  <bullet> Weekly senior leadership meetings chaired by the Under 
        Secretary to focus on the hiring effort;
  <bullet> Working with the Department's Office of the Chief Human 
        Capital Officer (OCHCO) to establish open continuous 
        announcements, whereby the best qualified group of candidates 
        is referred for selections to multiple similar positions. This 
        significantly improves the overall efficiency of our hiring 
        process;
  <bullet> Drastically decreasing the time it takes to process hiring 
        packages--from crafting position descriptions to selecting 
        candidates, to staffing hiring packages, managers are held 
        accountable for making hiring a top priority; and
  <bullet> I&A has a full-time trained Recruitment and Outreach 
        Coordinator focused on a targeted college and university 
        recruitment program. Recently, I&A participated in a virtual 
        career fair with other Intelligence Community (IC) 
        organizations, where over 8,000 applicants registered for I&A's 
        virtual booth.
    I&A is also working with relevant stakeholders to improve the 
efficiency of the external processes that affect hiring time frames.
  <bullet> I&A is working with OCHCO on regaining some form of Direct 
        Hire Authority.
  <bullet> To reduce the amount of time it takes for a selected 
        candidate to clear the investigation process, I&A has increased 
        coordination efforts with the Office of Personnel Management by 
        assigning a Security Specialist from I&A to the Department's 
        Office of Security to facilitate rapid processing of I&A 
        applicants through the DHS security clearance process.
    Question 4b. Are there additional authorities you need in order to 
better execute the hiring and/or retention of qualified personnel?
    Answer. Direct Hire Authority would increase I&A's ability to 
compete for talent with the IC and the private sector and I&A is 
working with OCHCO and OPM on regaining some form of Direct Hire 
Authority.
    Question 4c. What steps have you taken to ensure you are hiring, 
retaining, and developing a diverse workforce?
    Answer. I&A is committed to actively seeking a diverse and 
competent workforce. In the first two quarters of fiscal year 2010, the 
I&A Recruitment and Outreach Coordinator and I&A managers participated 
in numerous college and university career fairs and job fairs likely to 
provide candidates to help I&A increase its diversity numbers with 
regard to African Americans and Hispanics. Examples include 
participation in the Norfolk State University Career Fair and 
University of Texas-Pan American Career Fair. I&A also has participated 
in events sponsored by U.S. Military affiliates and veterans groups and 
plans to participate in upcoming events with groups such as the League 
of United Latin American Citizens, Asian Pacific American Association, 
Blacks In Government, Society of American Indian Government Employees, 
and Federally Employed Women, as well as the Federal Hiring Event for 
People with Disabilities.
    Question 5a. In June 2009, Mr. Bart Johnson, the then-Acting Under 
Secretary for Intelligence and Analysis, testified before our 
Subcommittee on Intelligence that contractors made up 60 percent of 
I&A's workforce. He acknowledged that this was a problem and that I&A 
was working to shift the balance between contractors and Federal 
employees.
    How does your budget request support a contractor-to-Federal 
employee conversion?
    Answer. The fiscal year 2011 budget request includes conversion of 
87 contractors to permanent Government employees. This is in addition 
to the conversion of 110 contractors appropriated to I&A in fiscal year 
2010.
    Question 5b. What percentage of I&A's workforce is currently made 
up by contractors?
    Answer. I&A's workforce is currently made up of 55 percent 
contractors.
    Question 5c. By the end of fiscal year 2010, what will the 
percentage be?
    Answer. I&A's goal for the end of fiscal year 2010 is to have the 
percentage of contractors at no greater than 47 percent.
    Question 5d. By the end of fiscal year 2011?
    Answer. I&A's goal for the end of fiscal year 2011 is to have the 
percentage of contractors at no greater than 38 percent.
    Question 6a. In light of the attempted terrorist attack on Flight 
253 on Christmas day 2009, I am surprised that the budget does not 
request greater investment in CBP's passenger prescreening programs and 
technology, such as CBP's National Targeting Center and Advance 
Passenger Information System. That said, how does CBP plan to change or 
improve its passenger prescreening processes in the upcoming fiscal 
year?
    Answer. The administration had to weigh a number of competing and 
worthy priorities while it was formulating the fiscal year 2011 budget. 
However, after careful consideration of its priorities, the needs of 
the American public and all the available options, the administration 
decided to focus its resources on the priorities contained in the 
President's budget.
    CBP carefully examined its passenger screening processes and 
procedures and has already implemented or planned a number of 
initiatives that will improve its capabilities. The most significant of 
these include the Pre-Departure Program, exploring expansion of the 
Immigration Advisory Program (IAP), and the CBP partnership with TSA.
    The Pre-Departure program was created to identify and prevent the 
boarding of high-risk travelers who seek to travel on a commercial air 
carrier destined for the United States. The Pre-Departure Program 
mirrors the IAP vetting procedures; the NTC-Passenger works with the 
CBP Regional Carrier Liaison Group, which then reaches out to the local 
U.S. Immigration and Customs Enforcement Attache, CBP Attache, Air 
Carrier Security Office, etc to assist with contacting the specific 
airlines to recommend that these identified travelers not be permitted 
to board an aircraft destined to the United States.
    The fiscal year 2011 budget request maintains IAP operations at its 
current level and allows for evaluation of expansion to various other 
sites. Expansion criteria is based on several factors, including but 
not limited to, the amount of passenger traffic from the airport to the 
United States; the number of high-risk passengers traveling from the 
airport to the United States; and the conclusion of successful 
negotiations between the United States and the respective foreign 
government.
    Question 6b. The budget requests an additional 103 intelligence 
analysts for CBP's Office of Intelligence and Operations Coordination 
(OIOC). According to the budget, these analysts are to support CBP 
Intelligence Watch, Operations Coordination, and the Commissioner's 
Situation Room.
    Please elaborate on the kind of work that these analysts will 
perform, and how their activities will fit into the mission of CBP and 
DHS. Also, please describe the OIOC's relationship with I&A.
    Answer. The CBP Office of Intelligence and Operations Coordination 
(OIOC) is responsible for providing intelligence support to decision-
makers from the policy level to the action level--officer and agents 
responsible for securing the U.S. border. OIOC is CBP's representative 
in the DHS Intelligence Enterprise, led by the DHS Office of 
Intelligence and Analysis (I&A). The relationship between the 
Components is collaborative and mutually supporting.
    The additional 103 intelligence analysts will enable OIOC to 
enhance current programs, including:
  <bullet> 24x7 National Intelligence Watch that provides watch and 
        warning to the entirety of CBP;
  <bullet> 24x7 Tactical Intelligence Cell that provides direct support 
        to the CBP National Targeting Center-Passenger;
  <bullet> Management of CBP intelligence collection and requirements 
        processes;
  <bullet> Short-term analytic efforts focused on immediate and near-
        term threats;
  <bullet> Begin development of a CBP-wide common intelligence picture 
        (CIP) providing real-time intelligence and basic war-gaming 
        capability throughout this agency.
    Question 7a. On the morning of February 18, a dog involved in a CBP 
training exercise at Dulles International Airport bit a 4-year old 
girl. This was an unusual incident in the otherwise impressive record 
of the program's 40-year history. However, I am aware that there have 
been changes to the curriculum and training and a discontinuation of 
the Labrador breeding program. Please provide answers to the following 
items:
    What actions has CBP taken since February's attack to reassess its 
program?
    Answer. On the advice of Counsel, we are declining to respond, as 
we anticipate that this matter will soon be in litigation.
    Question 7b. Describe changes made to the training prior to 
February's incident.
    Answer. No changes were made in the training of the passenger 
processing sub-discipline prior to the February incident.
    Question 7c. Explain the rationale used in discontinuing the 
Labrador breeding program.
    Answer. The breeding program has not been discontinued; however, it 
has been temporarily suspended pending a reassessment, due to the 
numerous discrepancies found during an initial evaluation. This 
evaluation consisted of reviewing all the administrative functions of 
the breeding program, as well as selection testing of the canines in 
the rearing program at the time. The decision was made to temporarily 
suspend the breeding program due to the fact that all the canines in 
the program failed to demonstrate that they possessed the necessary 
genetic drives to perform detection work at the required level.
    Question 7d. Have there been any studies to compare breed 
characteristics in the various CBP work environments such as airports, 
land ports of entry, border checkpoints to verify how breeds respond in 
those locations?
    Answer. No conclusive studies comparing breed characteristics in 
the various CBP work environments have been conducted.
    Question 7e. Has there been any discussion within CBP of how 
different breeds are perceived by the public and how the public 
responds to them?
    Answer. No, the CBP Canine Program is focused on procuring canines 
that possess the necessary genetic drives to fulfill its mission.
    Question 8a. Section 428 of the Homeland Security Act authorized 
the creation of the Visa Security Program, which deploys ICE agents to 
high-risk areas worldwide to conduct security reviews of visa 
applications. According to a 2008 DHS Office of Inspector General 
report, ICE's Visa Security Units offer valuable resources to consular 
officers in support of visa operations. However, I understand that DHS 
has run into resistance establishing these units at certain embassies 
and consulates.
    Have there been delays in the establishment of visa security units 
in new locations? If so, please identify the source(s) of the delays.
    Answer. In 2008, ICE and the State Department collaborated on VSP's 
site selection methodology and presented the joint findings to the HSC. 
Additionally, DOS and ICE VSP released a 2008 cable to all posts 
highlighting the joint accomplishments of the State Department and ICE 
VSP efforts overseas. At posts where ICE VSP operations have been 
established, DHS and State Department personnel have established strong 
and productive partnerships that enhance the security of the visa 
process.
    While ICE VSP's cooperation with the State Department has been 
largely successful, ICE VSP has occasionally faced concerns from 
individual Chiefs or Deputy Chiefs of Mission towards the establishment 
of new VSUs in certain locations. The process for evaluating an 
agency's request for locating a position in a Mission overseas is set 
forth in NSDD-38. Under NSDD-38 procedures, a Chief of Mission must 
determine whether to accommodate additions to Mission personnel. The 
Chief of Mission will consider available space, resources, support 
capabilities, the threat level at post, and existing presence at post 
of the agency requesting new positions when making a determination on 
an NSDD-38 request.
    Question 8b. Have these delays contributed to the fact that there 
is no additional request of funds for the program for the next fiscal 
year?
    Answer. Based on the funding provided in each year, ICE has been 
able to deploy to approximately 3-4 posts per year. ICE presently has 
fiscal year 2010 funds available to open new Visa Security Units (VSUs) 
in Sana'a, Yemen; Tel Aviv, Israel; Jerusalem, Israel; and London, 
United Kingdom, and to expand ICE's existing presence in Amman, Jordan; 
Saudi Arabia; and Frankfurt, Germany. ICE is currently moving forward 
with deployment to these posts. ICE currently has funds to sustain 
operations at the new posts, but will require additional funds for 
future expansion.
    Question 8c. What effect has the Flight 253 incident had on 
prospects for expansion of the Visa Security Program?
    Answer. The determination of high-risk locations is a fluid and 
dynamic process that changes as new threats are identified. Since 
Flight 253, ICE is updating the list of high-risk posts. Based on this 
new analysis, ICE will continue to aggressively expand the VSP within 
its allotted resources.
    Question 9a. Our current immigration detention system is comprised 
of a patchwork of ICE-owned facilities, private detention centers, and 
hundreds of State and local facilities.
    How will ICE use the funding proposals in this budget request to 
accomplish the ambitious detention reform goals ICE announced last 
year?
    What role do you see the Alternatives to Detention programs playing 
in ICE's detention management strategy in the future?
    Answer. ICE will use the funding proposals in the fiscal year 2011 
budget request to accomplish detention reform goals by:
  <bullet> Monitoring and adjusting, as needed, the implementation of a 
        medical classification system to support immigration detainees 
        with unique medical or mental health needs.
  <bullet> Minimizing transfers, thus decreasing costs associated with 
        transportation and delays in proceedings.
  <bullet> Creating a library of contracts for all facilities with 
        which ICE has active agreements, and centralizing all contracts 
        under ICE headquarters' supervision. At present, the Office of 
        Acquisitions at ICE headquarters negotiates and manages only 80 
        of the approximately 270 contracts for detention facilities. 
        The remaining contracts are overseen by several ICE field 
        offices and the Office of the Federal Detention Trustee. ICE 
        will aggressively monitor and enforce contract performance in 
        order to ensure contractors comply with terms and conditions--
        especially those related to conditions of confinement. When 
        confronted with repeated contractual deficiencies, ICE will 
        pursue all available avenues for remedying poor performance, 
        including termination of contracts. In the long term, this 
        effort is expected to yield cost savings and a better managed 
        and more efficient contracting process, though these 
        initiatives may require additional resources at headquarters.
  <bullet> Completing the hiring of 39 Federal employees to provide on-
        site oversight at ICE's largest detention facilities, where 
        more than 80 percent of immigration detainees are housed, and 
        strengthening the day-to-day oversight at these facilities. ICE 
        is developing training courses, policies, and procedures to 
        ensure this cadre of personnel is well-trained and managed. 
        These 39 Federal employees will replace ICE employees who were 
        given temporary duty assignments in fiscal year 2010 to perform 
        this mission.
  <bullet> Continuing to house non-criminal, non-violent populations 
        based on a risk assessment and custody classification in the 
        appropriate facilities. ICE is planning to pilot this risk 
        assessment tool beginning in May 2010. These populations 
        include arriving asylum seekers, who are generally housed at 
        facilities such as the Broward Transitional Center, in Florida. 
        ICE will also complete two residential facilities as 
        immigration detention facilities for non-criminal, non-violent 
        populations. In fiscal year 2010, DRO transitioned the T. Don 
        Hutto Residential Center in Taylor, Texas, from holding 
        families, to holding 512 single adult females in a residential 
        custody environment.
  <bullet> Updating the Performance-Based National Detention Standards 
        (PBNDS), which are currently with the publisher and 
        implementing new Family Residential Standards.
  <bullet> Continuing our efforts to consolidate existing detention 
        facilities into fewer facilities that are more in line with the 
        administration's detention reform initiatives.
  <bullet> Continuing the recently established Detention Monitoring 
        Council reviews of detention facility inspection reports, 
        assessments of corrective action plans, ensuring remedial plans 
        are implemented, and determinations of whether the use of a 
        facility should continue.
    The Alternatives to Detention (ATD) program has a critical role in 
ICE's detention management strategy, by providing ICE with the option 
to release individuals that are considered to be low-risk. Each 
potential participant will be evaluated on a case-by-case basis by 
trained ICE officers using a refined risk assessment tool created by 
the Office of Detention Policy and Planning. This tool will assist the 
officers in making a determination on an appropriate level of reporting 
and technology, based upon multiple factors that include, but are not 
limited to, ties with the community, family obligations, criminal 
history, and their stage in the immigration court proceedings. With the 
assistance of the ATD program, ICE will be able to release low-risk 
individuals and families from detention and free up bed space for 
higher-risk aliens, criminals, and others who could be a danger to the 
community.
    On January 25, 2010, the Executive Office for Immigration Review 
and ICE began a fast-tracking pilot for participants on ATD in 
Baltimore and Miami. The goal of the pilot program is to reduce the 
average length of time that participants remain on ATD, pending a 
hearing, from 310 days to 180 days. As of April 13, 2010, 213 
participants have been placed into the pilot program.
    Question 10. The committee is pleased to see that the TSA budget 
provides resources to address the video surveillance gap that was 
identified earlier this year, when a security breach shut down the 
Continental Airlines terminal at Newark International Airport. 
Certainly, we could have seen a better response from TSA and local law 
enforcement authorities if the Port Authority's video surveillance 
system had been fully operational at the terminal exit lane.
    What steps is TSA taking, in conjunction with its local law 
enforcement and aviation partners, to ensure that surveillance programs 
are operational and effective at all times?
    Answer. Following the security breach at Newark International 
Airport on January 3, 2010, the Transportation Security Administration 
(TSA) immediately deployed a team of security experts to visit numerous 
airports to review breach compliance plans, discuss and observe breach 
drills, share best practices, review and observe Closed Circuit 
Television systems (CCTV), and conduct training as required. 
Additionally, the TSA directed a Nation-wide data call of all airport-
owned CCTV systems to ensure proper operational capabilities are 
maintained.
    Question 11. The budget requests approximately 4,000 new personnel 
for TSA, with the majority of them providing checkpoint support at the 
Nation's airports, including administering AIT systems.
    How do the additional 4,000 positions fit in the checkpoint support 
model?
    By the end of fiscal year 2011, how will the addition of 1,000 new 
AIT machines affect TSA's workforce overall? What percentage of the TSO 
workforce do you project will be working on AIT systems in fiscal year 
2011?
    Answer. The additional 1,000 Advanced Imaging Technology (AIT) 
machines will require 3,550 more Full-Time Equivalent (FTE), which will 
be distributed to the receiving airports based on the Transportation 
Security Administration's Staffing Allocation Model. Also included in 
the fiscal year 2011 request are 210 FTE for Behavior Detection 
Officers (BDOs) to enable expansion of the Screening of Passengers by 
Observation Techniques (SPOT) program at additional airports.
    As Transportation Security Officers (TSOs) are cross-utilized for 
multiple screening functions, the majority of new TSO positions 
requested in fiscal year 2011 will operate the AIT machines on a 
rotational basis.
    Question 12a. Please provide an update for when TSA will complete 
the implementation of its Secure Flight passenger pre-flight watch list 
matching program for all carriers operating domestic flights, and what 
the schedule is for implementing Secure Flight for foreign and domestic 
air carriers operating in-bound flights to the United States.
    Answer. Secure Flight will ultimately conduct watch list matching 
for approximately 68 covered domestic airlines and 148 foreign 
airlines. The Secure Flight program began operational cutover to 
airlines on January 27, 2009. To date, 41 airlines have successfully 
cutover to Secure Flight, including four foreign airlines. Eleven 
airlines are partially cutover. Testing is underway with 29 airlines. 
Secure Flight is deploying to domestic and foreign airlines in a phased 
process. Each airline will integrate the capability to submit Secure 
Flight Passenger Data over the coming months. Secure Flight deployments 
for domestic airlines began in early 2009. Testing and deployment with 
foreign airlines began later that year. The anticipated cutover for 
both domestic and foreign airlines is the end of calendar year 2010.
    Question 12b. What type of coordination efforts are occurring 
between TSA and Customs and Border Protection now, what will those 
efforts look like with the implementation of Secure Flight?
    Answer. The Transportation Security Administration and the U.S. 
Customs and Border Protection jointly operate the Secure Flight 
International Capabilities Project. This project, which began in 
January 2009, identifies and coordinates the capabilities and 
activities required to align CBP and TSA with respect to policy, 
process, and technology for handling foreign airlines. To date, this 
project has been successful in putting in place the policy, process, 
and technology required for a seamless transition from CBP-performed 
watch list matching to Secure Flight.
    Question 13. Given the delays in issuing regulations, the prolonged 
grant application processing time, and the relative shortage of 
expertise in surface transportation modes generally, why is there a 
decrease in funding requested for TSA for ``Surface Transportation 
Security Operations and Staffing?''
    Answer. The development of various regulations directed by the 
Implementing Recommendations of the 9/11 Commission Act of 2007 
continues to advance and the Transportation Security Administration 
(TSA) believes that these are critical regulations that need to be 
implemented. TSA has streamlined its grants processes to ensure that 
its responsibilities in this area are completed well in advance of the 
onset of the grant period of performance. TSA has identified 
efficiencies to support critical operations in fiscal year 2011. To do 
this, TSA looked across all of its programs and identified reductions 
that could be made without degradation to the existing level of 
service.
    Question 14. Throughout the budget request, Coast Guard listed that 
it is responsible for the inspection of over 48,000 Transportation 
Worker Identification Credentials but there were no funding requests 
tied to TWIC inspections. Additionally, the Coast Guard has the lead 
role in overseeing security for the MTSA facilities.
    For fiscal year 2011, what resources are allocated for the Coast 
Guard to conduct TWIC inspection? Similarly, what resources are 
allocated for MTSA enforcement?
    Answer. Transportation Worker Identification Credential (TWIC) 
inspections are carried out as part of the Coast Guard's Marine 
Transportation Security Act of 2002 (MTSA) enforcement program. Funding 
and personnel associated with MTSA implementation for vessel and 
facility security in fiscal year 2010 is $44.7 million and 372 
positions. These resources are part of the existing base of Coast Guard 
resources that support the Ports Waterways and Coastal Security and 
Marine Safety missions.
    Question 15. I understand that recapitalization is a necessary task 
since many of the Coast Guard's surface and air assets are aging and 
need to be replaced. To that end, Coast Guard has requested funding for 
several replacement surface and air assets including the purchase of 
the fifth National Security Cutter, Fast & Medium Response Cutters, and 
a Maritime Patrol Aircraft.
    How will these new assets affect Coast Guard's ability to carry out 
its homeland security missions?
    Answer. Recapitalizing aging assets is necessary to sustain mission 
performance. The Coast Guard's effort to replace high and medium 
endurance cutters (HEC and MEC), patrol boats (WPBs) and medium-range 
surveillance fixed-wing aircraft at, near, or beyond their service life 
is an on-going, sustained initiative to provide capable and cost-
effective assets for our personnel to execute Coast Guard missions. 
These assets directly contribute and enhance the Coast Guard's missions 
(e.g., ports, waterways, and coastal security, drug and migrant 
interdiction, defense readiness, search and rescue and other law 
enforcement, etc.). New assets will expand maritime domain awareness, 
enhance end game capabilities through advanced flight decks and small 
boats, and improve C4ISR capabilities to enhance interoperability with 
partner agencies.
    Question 16. The 2012 Presidential campaign preparations include a 
temporary shift of 22 special agents from investigative units to the 
program in order to support future staffing requirements.
    How will the transfer of these agents from the investigative unit 
to the Candidate Nominee Protection program affect the Service's on-
going criminal investigative mission?
    Answer. The administration's fiscal year 2011 budget request seeks 
to reallocate FTE from the Investigations and Field Operations account 
to the Protection, Administration, and Training account to cover the 
specialized training requirements in advance of the 2012 Presidential 
campaign.
    While agents assigned to Investigations are routinely used to staff 
temporary protective details and other protective support functions, 
the Secret Service will continue to sustain a robust and viable 
investigative agenda. As in previous campaign periods, the Secret 
Service will prioritize our investigative initiatives as necessary to 
efficiently manage the investigative case load during this challenging 
period. The Secret Service will focus on crimes involving organized 
criminal groups, large financial losses, and those investigations with 
significant community impact.
    The Secret Service continues to build unique partnerships with 
other agencies which aid our investigative mission during campaign 
years. The Secret Service has established a National network of 
Electronic Crimes Task Forces (ECTF) to leverage the resources of 
academia; the private sector; and local, State, and Federal law 
enforcement agencies in an organized effort to combat threats to our 
financial payment systems and critical infrastructures. The Secret 
Service currently maintains 29 ECTFs, to include the first 
international ECTF located in Rome, Italy.
    Additionally, the Secret Service has established a network of 
Financial Crimes Task Forces (FCTF). These FCTFs, located in 38 cities 
across the United States, combine the resources and manpower of 
multiple local, State, and Federal law enforcement agencies to combat 
organized criminal groups.
    Through the use of the ECTFs and FCTFs, the Secret Service 
leverages law enforcement resources from other agencies and departments 
to sustain on-going investigations. The task force model allows us to 
maintain continuity of investigative operations while Secret Service 
agent personnel are assigned to temporary protective assignments.
    To further manage increased investigative demands, the Secret 
Service, in partnership with the Department of Homeland Security, 
developed the National Computer Forensics Institute (NCFI) in Hoover, 
Alabama, a cyber crimes training facility designed to provide State and 
local law enforcement officers with training, equipment, and expertise 
in computer forensics and digital evidence analysis. To date, roughly 
420 State and local police officers have completed training at the 
NCFI. These officers are now available to assist with Secret Service 
investigations as necessary.
    The Secret Service has also positioned Criminal Research 
Specialists (CRS) in major field offices throughout the United States. 
CRS personnel assist special agents with criminal investigations, but 
they do not participate in protective duties. Therefore, CRS personnel 
can further sustain continuity of investigative operations while agents 
are performing protective duties.
    Question 17. Madame Secretary, Congress in the SAFE Port Act 
authorized $400 million for port security grants for fiscal year 2011. 
However, the President's fiscal year 2011 budget only requested $300 
million. Please explain why the Department will only request $300 
million to help localities protect their ports, especially in light of 
an anticipated reduced U.S. Coast Guard presence at a number of ports?
    Answer. Section 112 of the Security and Accountability for Every 
Port Act of 2006 (SAFE Port Act) amended 46 USC  70107 and authorizes 
$400 million for the Port Security Grant Program (PSGP) for fiscal 
years 2007 through 2011.
    The fiscal year 2011 budget request includes the same amount of 
funding that was appropriated in fiscal year 2010: $300 million. In 
fiscal year 2009, the PSGP received its full authorized amount of 
funding ($400 million) and received an additional appropriation of $150 
million through the American Recovery and Reinvestment Act of 2009, 
providing a total of $550 million for the program.
    Question 18. It has been the committee's longstanding conviction 
that the Office of Risk Management and Analysis needs to take on a more 
prominent role within DHS and work in a consistent manner with DHS 
components on how to establish and follow risk-management protocols.
    Please explain why you are seeking a $152,000 decrease in Risk 
Management and Analysis' budget for technical assistance to other DHS 
components?
    Answer. The Department of Homeland Security (DHS) is committed to 
risk management as a means to achieve homeland security. As stated in 
the Quadrennial Homeland Security Review, homeland security is 
ultimately about effectively managing risks to the Nation's security. 
The Office of Risk Management and Analysis (RMA), in conjunction with 
partners from across DHS and the homeland security enterprise--
including Federal, State, local, Tribal and territorial government 
organizations, the private sector, and our international partners--is 
working to achieve a consistent and integrated approach to risk 
management that will increase the effectiveness of homeland security 
risk management. RMA has taken several critical first steps for 
building and institutionalizing integrated risk management. The office 
established a risk governance process with the DHS Risk Steering 
Committee (RSC). The RSC ensures that there is collaboration, 
information-sharing, and consensus-building across the Department as we 
identify and integrate best practices for risk management and analysis. 
In September 2008, the RSC published a DHS Risk Lexicon that 
establishes a common language for discussing risk-related concepts and 
techniques, and then in January 2009 released an Interim Integrated 
Risk Management Framework that sets the foundation for a common 
approach to homeland security risk management.
    The projected decrement in program funds will not significantly 
impact RMA's capability to provide technical assistance. In fiscal year 
2010, RMA converted program dollars for contract support into salaries 
and benefits for an additional 13 Federal employees. By establishing an 
``in-house'' technical assistance capability, RMA is able to more 
effectively and efficiently meet the needs of the Department's 
components. For example, RMA is currently providing risk management 
technical assistance to the Office of Policy, the Science and 
Technology Directorate, the Transportation Security Administration, the 
U.S. Immigration and Customs Enforcement, and the Federal Emergency 
Management Agency. In addition, for longer-term projects, RMA has 
established the business protocols for having DHS components provide 
the funding to RMA for their specific technical assistance requirement.
    Question 19a. As you know, the committee has been very concerned 
about the cost overruns and development missteps associated with the 
SBInet program. The budget request goes as far as to defer a funding 
request for the next fiscal year due to SBInet's delays in deployment.
    How is S&T's Testing/Evaluation Division working with SBInet 
program officials to establish operational testing requirements?
    Answer. The S&T Director, Test and Evaluation and Standards, and 
the S&T Director, Operational Test are the final approval authority for 
the SBInet TEMP. S&T is also a member of the SBInet Test & Evaluation 
(T&E) Working Integrated Product Team (WIPT). While the Office of the 
Border Patrol will serve as the Operational Test Director, S&T is 
providing oversight and guidance for the test process and procedures 
and will participate in the actual conduct of the test.
    Question 19b. What responsibility does this division have to 
establish testing requirements for other operational components?
    Answer. Paragraph (12) of Section 302 of the Homeland Security Act 
of 2002 charges the Secretary, acting through the Under Secretary for 
S&T with the responsibility for ``coordinating and integrating all 
research, development, demonstration, testing, and evaluation 
activities of the Department.'' To carry out these and other test and 
evaluation (T&E) related legislative mandates, S&T established the Test 
and Evaluation and Standards Division (TSD) in 2006 and created the 
position of Director of Operational Test & Evaluation in 2008.
    To fulfill its mission, TSD develops and implements robust 
Department-wide T&E policies and procedures. Working with the DHS Under 
Secretary for Management, TSD approves Test and Evaluation Master Plans 
(TEMP) that describe the necessary Developmental Test and Evaluation 
(DT&E) and Operational Test and Evaluation (OT&E) tasks that must be 
conducted in order to determine system technical performance and 
operational effectiveness based upon vetted Operational Requirements 
Documents. In addition, the Director of OT&E approves the operational 
test plan for oversight programs, to ensure adequacy of the T&E 
activity in support of Acquisition Decision Event 3 program reviews.
    Question 20. The President's fiscal year 2011 budget request calls 
for a nearly 20 percent cut in the University Programs portfolio. This 
is the largest single cut to the S&T budget. Even in this tight fiscal 
climate, the Domestic Nuclear Detection Office and other agencies 
throughout the Government have found a way to continue supporting 
science research. Yet, S&T plans to eviscerate the Centers of 
Excellence, Minority Serving Institutions Program, and University 
Scholars--programs that enjoy strong Congressional support. What is the 
reason for the decrease?
    Answer. There were many competing priorities facing the Department 
as the fiscal year 2011 budget was being built. Many hard decisions and 
trade-offs had to be made in order to provide funding for the highest 
priority needs across a vast and diverse mission space. The Department 
still feels that the long-term development of basic research 
capabilities is the future of DHS and is supportive of the Science and 
Technology Directorate's University Programs. The Department maintained 
University Programs at the level possible, but delivery of near-term 
operational technologies was a higher priority.
    The reduction to the University Programs budget, specifically 
Minority Serving Institutions and Educational Programs, will not impact 
any students who have already been awarded scholarships or fellowships. 
All scholarships and fellowships are fully funded for the length of the 
award when the candidate is selected.
    Question 21. The committee has repeatedly voiced concerns with the 
large number of inaccuracies that have been discovered within the E-
Verify program.
    Question 21a. How is DHS working to improve the accuracy of the 
data contained in the system in order to provide timely verifications?
    Question 21b. What resources do you need in fiscal year 2011 to 
improve the program?
    Answer. The 2009 Westat report of the E-Verify program used a model 
to estimate the program's total accuracy rate for the first time, 
finding that 96 percent of all E-Verify initial responses was 
consistent with the person's work authorization status, and finding the 
remaining 4 percent of queries was inconsistent with an individual's 
work authorization status, which the study found was primarily due to 
identity fraud. The report evaluated the program covering the time 
period of September 2007 to June 2008 and provided recommendations for 
system improvements.
    USCIS has already implemented or is planning to implement over two-
thirds of the primary recommendations that relate to program 
improvements. Several of the remaining recommendations are aimed at 
informing future policy-making and require legislative changes. The 
recommendations that we have addressed since June 2008 are part of our 
work to continuously improve E-Verify. USCIS has several initiatives 
planned that will continue to improve E-Verify accuracy by expanding 
the Photo Tool, enhancing monitoring and compliance activities, 
improving data matching and providing an avenue for employees to check 
themselves in E-Verify prior to employment to combat employment-related 
discrimination. These initiatives include:
  <bullet> Expanding the E-Verify Photo Tool by September 2010 by 
        adding Department of State U.S. passport photos to the E-Verify 
        system. Adding U.S. passport photos would assist employers in 
        authenticating the validity of a U.S. passport presented by an 
        employee during the Form I-9 process. Currently, the Photo Tool 
        only checks against DHS-issued documents (any permanent 
        resident card or employment authorization document presented by 
        the employee).
  <bullet> Exploring the feasibility of adding driver's license data to 
        E-Verify. E-Verify is examining the possibility of a pilot 
        program with one State. If deployed, E-Verify will match 
        presented driver's license data with the data on record with 
        the issuing State, thereby reducing the possibility of 
        fraudulent driver's licenses being used to gain employment 
        authorization.
  <bullet> Expanding current monitoring and compliance efforts by 
        revising existing algorithms to better detect misuse and 
        identity fraud in the system, as well as expanding the number 
        of employer behaviors monitored to better detect employer 
        misuse, abuse, and discrimination.
  <bullet> Developing a Fraud Alert tool which will further identify 
        Social Security Numbers potentially used fraudulently in E-
        Verify and lock them to prevent further use.
  <bullet> Working to deploy E-Verify Self Check, which will allow 
        individuals to verify the accuracy of their Government records 
        outside of the employment process. Self Check will allow 
        workers to update their records before being hired while 
        protecting the privacy and security of personal information and 
        ensuring the system is not used to pre-screen applicants or 
        discriminate in the hiring process. We anticipate Self Check 
        will result in fewer adverse actions against authorized 
        workers.
  <bullet> Improving helper text to decrease typos and strengthening 
        data-matching algorithms.
    The fiscal year 2011 budget request for E-Verify is $103.4 million. 
In addition, the fiscal year 2010 appropriation included $30 million of 
2-year funding for E-Verify. Of the $30 million, USCIS expects to carry 
over approximately $15 million into fiscal year 2011. The 2-year 
funding was specified by the Congress for continued improvement of the 
E-Verify system including:
  <bullet> an identity assurance tool, which will be deployed with the 
        Self Check feature and expanded at later phases to include 
        users of the system;
  <bullet> additional capacity to investigate fraudulent use of the 
        system, which is reflected in the expansion of our monitoring 
        and compliance program; and
  <bullet> development of a Self Check tool to allow authorized workers 
        to validate the accuracy of their records on file with Federal 
        Government agencies.
    Question 22. Various outbreaks--including H1N1--have tested the 
ability of the National Biosurveillance Integration Center to obtain 
and integrate biosurveillance data from throughout the Government. To 
date, NBIC has struggled to stand up operations. Secretary Napolitano, 
having just gone through the H1N1 crisis, can you speak to the value of 
the NBIC and its future given the meager budget request--just $7 
million for fiscal year 2011?
    Answer. The $7 million requested in fiscal year 2011 to support 
NBIC is sufficient to maintain current operations. Funding will support 
development of analytical biological surveillance and impact reports--
similar to the reports completed during the 2009-H1N1 pandemic. These 
reports are collaboratively developed among interagency partners and 
will be made available for interagency use.
    The $1 million reduction from fiscal year 2010 funding reduces the 
amount available to reimburse detailees or liaison officers from 
partner agencies to serve at NBIC to provide analytic and collaborative 
capabilities. The reduction in funding could affect up to six detailees 
depending on grade. While the lack of reimbursements may be interpreted 
as a disincentive to interagency participation in NBIC, as highlighted 
in the Government Accountability Office's report, ``Biosurveillance: 
Developing a Collaboration Strategy is Essential to Fostering 
Interagency Data and Resource Sharing,'' Federal agencies are not 
actively participating in NBIC. To foster collaboration and information 
sharing between agencies, we must reevaluate NBIC's structure to ensure 
its mission is transparent and participating agencies understand its 
value-add during biological incidents.
    To further information flow into NBIC and strengthen collaboration 
with State and local partners, the DHS Office of Health Affairs (OHA) 
is working to enhance partnerships with specific States, the private 
sector, non-governmental agencies, and the international community. 
Beginning with the $5 million provided to NBIC in fiscal year 2010 to 
support a demonstration project with the North Carolina Collaboratory 
for Bio-Preparedness, we aim to validate integrated information sharing 
of public health, animal surveillance information, environmental 
monitoring, and other biosurveillance information. We continue to work 
with our Federal partners.
    In addition to North Carolina, NBIC is engaging with other States 
to establish biosurveillance data-sharing pilot outreach programs. 
These States include: New Jersey--a State with a very mature DHS-State 
fusion center relationship and a robust information sharing tool; 
Minnesota--a State nationally known for their superior food defense 
capabilities through information analysis; and, Washington State--a 
State that has demonstrated advanced capability to integrate critical 
infrastructure analysis into decision-making schemes. As we work with 
State and local partners and follow GAO's recommendations, we hope to 
demonstrate the value of situational awareness to respond to biological 
incidents.
    Question 23. For the 476 new BioWatch detectors that OHA seeks to 
purchase with the increase requested in the fiscal year 2011 budget, 
will any or all be deployed to any new locations or will they all be 
used to replace and add to existing BioWatch detection systems in the 
29 host cities where BioWatch systems are currently located?
    Answer. DHS agrees that the BioWatch program is a much-needed 
system that provides early detection of a biological attack and the 
Department remains focused on supporting this program. In fiscal year 
2011, $173.5 million is requested to support the BioWatch program. 
Approximately $84 million will be used to procure and potentially 
deploy units for a four-city operational field test of the Generation-3 
system. The four-city operational testing will include inserting 
Generation-3 detectors alongside existing Generation-1 and Generation-2 
detectors in each of the four areas. The specific locations within each 
jurisdiction will include existing sites, and will consider new 
locations to improve the networks (i.e., additional sites both indoors 
and outdoors.)
    The Generation-3 program consists of a multi-year deployment 
strategy over a 4-year period. The Generation-3 revised baseline 
schedule is reflected by the major milestones below:
  <bullet> Field Test Program Contract Award (Phase I)--November 12, 
        2009;
  <bullet> Field Test Program Task Order 1 Award--February 2, 2010;
  <bullet> Field Test Program Task Order 2 Award--3rd Quarter fiscal 
        year 2010;
  <bullet> Completion of Field Testing--2nd Quarter fiscal year 2011;
  <bullet> Technology Readiness Review--2nd Quarter fiscal year 2011;
  <bullet> Phase II Contract Award for Low Rate Initial Production 
        (LRIP) and Operational Test & Evaluation (OT&E)--4th Quarter 
        fiscal year 2011 or 1st Quarter fiscal year 2012;
  <bullet> Conduct OT&E: Start--4th Quarter fiscal year 2012, Finish--
        3rd Quarter fiscal year 2013;
  <bullet> Initial Operational Capability (IOC)--3rd Quarter fiscal 
        year 2013;
  <bullet> Deployment of Gen-3 detectors Nation-wide, fiscal year 2013-
        fiscal year 2016;
  <bullet> Completed network fiscal year 2017.
   Question Submitted by Honorable Henry Cuellar of Texas for Janet 
         Napolitano, Secretary, Department of Homeland Security
    Question 1a. Since its implementation in 1997, the Foreign Language 
Awards Program (FLAP) has been instrumental in identifying and 
utilizing Customs and Border Protection (CBP) employees who are 
proficient in a foreign language, a skill especially important in their 
role of dealing directly with foreign travelers and trade. Under the 
program, which incorporates more than two dozen languages, CBP Officers 
and Agriculture Specialists who qualify after language proficiency 
testing can earn awards of between 1 and 5 percent of their pay if they 
use a language other than English for more than 10 percent of the time 
during their daily duties. Thousands of frontline CBP employees use 
their language skills in this way every day.
    CBP employees' foreign language skills enhance the agency's 
important homeland security and trade-related missions. Rewarding 
employees for using their language skills to protect our country, 
facilitate the lawful movement of people and cargo across our borders, 
and collect revenue that our Government needs makes sense. Congress 
agreed that employees should be encouraged to develop their language 
skills by authoring FLAP. Not only does it improve efficiency of 
operations, it makes the United States a more welcoming place when 
foreign travelers find CBP Officers can communicate in their language.
    At CBP, this program has been an unqualified success, and not just 
for employees but for the travelers who are aided by having someone at 
a port of entry who speaks their language, for the smooth functioning 
of the agency's security mission. For these reasons I am quite 
concerned that the fiscal year 2011 DHS budget proposed to eliminate 
this Congressionally-authorized program, and was further surprised to 
learn that, on February 4, 2010, CBP notified its employees that it was 
immediately suspending this program citing lack of fiscal year 2010 
funding.
    Why was this program immediately suspended?
    What budget planning went into this decision to immediately suspend 
and eliminate FLAP at CBP?
    Question 1b. How will the suspension of this program impact 
recruitment and retention of employees who are proficient in a foreign 
language?
    Answer. CBP Officers and Agriculture Specialists hired since June 
2004 and initially assigned to the Southern border, Puerto Rico, and 
Miami have a minimum Spanish proficiency requirement as a condition of 
employment. Officers and Agriculture Specialists lacking sufficient 
proficiency in Spanish receive five additional weeks of language 
training. Notwithstanding the suspension of the FLAP, managers will 
continue to encourage all employees to utilize their enhanced foreign 
language proficiency to accomplish the agency's mission. Managers also 
have the option to use other traditional awards (e.g., ``on the spot'' 
and ``time-off'') to recognize employees who utilize their superior 
foreign language proficiencies and significantly contribute to the 
accomplishment of the mission.
    CBP believes there will be a minor impact on the agency's ability 
to retain employees. FLAP was originally implemented as an incentive 
for CBP Officers and Agriculture Specialists to learn foreign languages 
to complement duties at the ports of entry. However, since the 
initiation of FLAP there have been some changes to benefits available 
to CBP Officers and Agriculture Specialists:
  <bullet> These personnel now receive enhanced retirement benefits 
        similar to other law enforcement officers; and
  <bullet> Journeyman-level increases are being pursued to address the 
        heightened responsibility due to the increased scope and 
        complexity of these core positions since 9/11.
    Question 1c. FLAP has a dedicated funding source--customs user fees 
collected from the traveling public and the trade community. How will 
customs user fees that formerly funded FLAP now be distributed?
    For what programs will these user fees be used? And is this customs 
user fee diversion supported by statute?
    Answer. Currently, FLAP awards are funded through customs, 
immigration, and agriculture user fees. Due to a substantial reduction 
of airline travel and commercial conveyances entering the United States 
in recent years, there has been a substantial decline in fee revenues. 
The customs user fee currently supports approximately $10.2 million of 
the FLAP program. This funding will be redirected towards other 
requirements that are eligible under the fee legislation. The savings 
in customs user fees from the FLAP reduction will allow CBP to more 
fully fund overtime and premium pay.
Questions Submitted by Honorable Christopher P. Carney of Pennsylvania 
    for Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. Madame Secretary, in 2008, the TSA issued a notice of 
proposed rulemaking for the Large Aircraft Security Program (LASP) 
which would create a set of security standards for large general 
aviation aircraft. My understanding is that the initial proposed rule 
did not address security and operational issues sufficiently and is now 
being revised with appropriate technical input from stakeholders. I 
know that you've testified before about this issue and have expressed 
your desire to work with stakeholders to get this and other rules 
completed cooperatively.
    Since it decided to revise the LASP, the TSA has taken this 
approach and is now nearing completion on a supplemental rulemaking. 
However, I understand that the agency missed a self-imposed deadline to 
get this rulemaking out before the end of last year and that it does 
not expect to issue it until later this year. Although I understand 
that the TSA still does not have an administrator, I worry that this 
rule is being delayed too long.
    When do you expect to issue the supplemental rulemaking for the 
LASP?
    Does the Department have adequate resources to complete this rule?
    Answer. The Transportation Security Administration's (TSA) is 
currently developing a Supplemental Notice of Proposed Rulemaking 
(SNPRM) for the Large Aircraft Security Program, taking into 
consideration more than 7,000 public comments received from the 
original Notice of Proposed Rulemaking and input from the use of open 
public forums, workshops, and stakeholder meetings. TSA expects to 
issue the SNPRM later this calendar year.
    Question 2. When will the Department start work on the next QHSR?
    When do you expect to request funding to begin the work on the next 
QHSR?
    Answer. Focused efforts on the next QHSR, due to Congress on 
December 31, 2013, are anticipated to begin sometime in early 2012. The 
Department is currently focused on completing the Bottom-Up Review 
(BUR), which was initiated shortly before the completion of the 2009 
QHSR and will inform the development of the fiscal year 2012-2016 
budgets. Departmental initiatives and analytic efforts that flow from 
the BUR and budget build, as well as development of the next DHS 
Strategic Plan, will be principal focus areas through calendar year 
2011; all of which are necessary antecedents to the next QHSR.
    The Department will request funding for the next QHSR as part of 
the fiscal year 2012-2016 budget request.
  Questions Submitted by Honorable Laura Richardson of California for 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. A number of steel pipe and tube producers are located 
in the Los Angeles Metropolitan Area, including Western Tube & Conduit 
located in Long Beach in the 37th Congressional District. Western Tube 
along with others in the domestic industry have joined together and 
filed cases on imports of circular welded steel pipe and light walled 
rectangular tubing from China. The industry obtained relief from these 
unfairly traded imports in 2008 and antidumping and countervailing 
duties were put into place ranging from 100 percent to 300 percent.
    In mid-2009, industry officials began to monitor imports of light-
walled rectangular (LWR) tubing into the West Coast sea ports of Long 
Beach and Los Angeles. Their research uncovered anomalies with many 
shipments of LWR products that indicated that some of these entries 
were being misclassified as another product, i.e. ``used books'' or 
violating country of origin rules by having incorrect labeling. In some 
instances the industry tracked the shipping records and noted that 
while the product may have been listed as made in Vietnam the contents 
of the shipment never originated from that country, but instead came 
from China. The domestic industry documented this information beginning 
in September 2009 and presented the data to officials at Customs 
Headquarters in Washington, DC.
    In an effort to elevate this issue of customs fraud and 
circumvention the industry obtained support from members of the 
California delegation and a letter was sent in late December 2009 by 
Representative Richardson and Representatives Farr, Napolitano, Roybal-
Allard and Rohrabacher to Customs. The Acting Deputy Commissioner for 
Customs provided a response to Members in mid-January 2010 and 
indicated that the agency was reviewing the information.
    Secretary Napolitano, over the past 5 months I have been working 
with officials at steel pipe and tube companies located in my district 
and others located nearby on issues related to circumvention of duties 
specifically of entries arriving at the Long Beach and Los Angeles 
seaports. The industry has taken great steps to provide my office with 
documentation of entries of steel tubing entering at these ports 
without correct classification. This has resulted in a loss of 
collection of duties on these imports from China which were found to be 
traded unfairly in 2008. The duties range from 100 percent to 300 
percent and were put into place to provide relief for the industry. As 
each day passes, the industry who makes these products in the region 
and who employs approximately 2,000 workers in the area are losing the 
opportunity to compete in their own market because these unfairly 
traded imports are entering duty-free.
    I believe that the Department should communicate throughout the 
agency that commercial enforcement is critical to the economic security 
of the company. I also believe that it is equally important that the 
Secretary send a strong message to everyone in the agency and 
especially to those at Customs that any type of fraud will not be 
tolerated and if anomalies are reported that the agency take swift and 
appropriate actions to ensure that these practices end. What can we do 
to ensure that this issue is resolved as quickly as possible to help 
protect the companies and jobs in my district and around the country?
    Answer. CBP is aware that U.S. industry is highly concerned with 
the evasion of Antidumping/Countervailing Duties (AD/CVD) that includes 
not only steel tubing but all products, and how this evasion erodes the 
ability for U.S. industry to successfully compete. Please know that CBP 
takes all matters of evasion of duty very seriously, and in 
coordination with ICE, the investigative arm of DHS, employs every 
available method in accordance with law to address these matters.
    CBP is not permitted to disclose the details of an on-going 
investigation and or trade enforcement action (including CBP fines, 
penalties, or forfeitures cases) or any significant action taken by CBP 
to enforce the customs and related laws--including but not limited to 
seizures, exclusions, or collection of duty. If the investigation or 
action results in judicial action, the conclusion of a commercial 
allegation can and often does take years for completion. The effect of 
this lengthy process is the assumption by U.S. industry that AD/CVD 
cases are not being actively enforced.
    CBP is currently monitoring 288 AD/CVD cases under order and 12 AD/
CVD cases in preliminary status that have been issued by the Department 
of Commerce (DOC). The number of AD/CVD cases that enter the 
preliminary stage of investigation continues to increase. In many of 
these cases, CBP has encountered various types of circumvention schemes 
such as the misuse of entry type, misdescription or misclassification, 
false country of origin, smuggling, and transshipment.
    To direct an effective trade facilitation and enforcement approach, 
CBP focuses its actions and resources around priority trade issues 
(PTIs) that pose a significant risk to the U.S. economy, consumers, and 
stakeholders, such as AD/CVD. CBP's Office of International Trade (OT) 
is responsible for the trade policy, program development, and 
regulatory oversight functions of CBP.
    Within OT, the Commercial Targeting and Enforcement Division is 
charged with the development of operational plans to address non-
compliance; manage targeting criteria; develop audit and other post-
entry verification actions; and develop penalty and enforcement 
procedures for all of the PTIs. This is done through a series of 
offices located around the country, staffed by subject matter experts. 
These offices are designated as National Targeting and Analysis Groups 
(NTAGs).
    The sole focus of the South Florida NTAG in Plantation, Florida is 
AD/CVD enforcement. The South Florida NTAG is responsible for 
monitoring and analyzing all newly instituted AD/CVD cases and 
establishing criteria to ascertain whether applicable entries are being 
entered as AD/CVD entries (type 03). The research conducted involves 
analyzing the use of entry type codes and changes in import patterns, 
importers, manufacturers, and changes in price/quantity.
    On a local level, Import Specialists monitor their PTI areas and/or 
commodity, and initiate trade enforcement actions. Those actions are 
recorded in CBP systems and available at a National level for other 
Import Specialist and NTAGS for review. NTAGs will review those results 
and determine if National and/or further action is necessary.
    CBP Service Ports are equipped with Commercial Enforcement Analysis 
and Response (CEAR) Teams, comprised of subject matter experts from 
local CBP and ICE commercial fraud enforcement operations. With the 
combined expertise of the CEAR members, the group identifies viable 
enforcement actions to take on violations presented to the group, which 
may include the initiation of an investigation by ICE, a penalty 
imposed by CBP, or a combination of both criminal and civil actions.
    CBP has been successful in many instances in stopping evasion that 
we have detected or when U.S. industry provides us with an allegation 
of evasion. With every success, however, there are likely evasion 
schemes that go undetected. ICE can only investigate so many importers, 
and many cases cannot be proven, especially with transshipment issues. 
Several nations do not allow CBP or ICE teams to investigate in their 
respective countries. Additionally, some importers are foreign entities 
and cannot be thoroughly investigated and pursued in the United States 
as to their duty liability, and CBP is left with only the bond amount 
for duty collection.
    We understand that there is a monetary gain in not paying the AD/CV 
duty on these subject products, and that certain foreign manufactures 
and U.S. importers will attempt to circumvent AD/CVD cases. As such, 
CBP will continue to target importers and manufactures for potential 
evasion of AD/CVD cases and use all available means to enforce the 
cases.
    Question 2a. Madame Secretary, in 2008, the TSA issued a Notice of 
Proposed Rulemaking for the Large Aircraft Security Program (LASP) 
which would create a set of security standards for large general 
aviation aircraft. My understanding is that the initial proposed rule 
did not address security and operational issues sufficiently and is now 
being revised with appropriate technical input from stakeholders. I 
know that you've testified before about this issue and have expressed 
your desire to work with stakeholders to get this and other rules 
completed cooperatively. In my opinion, this is the best way to 
approach the rule-making process because it ensures that policy-makers 
have developed rules utilizing needed security and technical expertise 
from the industry.
    Since it decided to revise the LASP, the TSA has taken this 
approach and is now nearing completion on a supplemental rulemaking. 
However, I understand that the agency missed a self-imposed deadline to 
get this rulemaking out before the end of last year and that it does 
not expect to issue it until later this year. Although I understand 
that the TSA still does not have an administrator, I worry that this 
rule is being delayed too long.
    When do you expect to issue the supplemental rulemaking for the 
LASP?
    Question 2b. Does the Department have adequate resources to 
complete this rule?
    Question 2c. Do you plan to make it a priority of yours to see that 
the LASP rule is completed as soon as possible?
    Answer. The Transportation Security Administration (TSA) views 
strengthening general aviation security as one of its top priorities. 
The TSA is currently developing a Supplemental Notice of Proposed 
Rulemaking (SNPRM) for the Large Aircraft Security Program, taking into 
consideration more than 7,000 public comments received from the 
original Notice of Proposed Rulemaking and input from the use of open 
public forums, workshops, and stakeholder meetings. TSA expects to 
issue the SNPRM later this calendar year.
 Questions Submitted by Honorable Bill L. Owens of New York for Janet 
         Napolitano, Secretary, Department of Homeland Security
    Question 1a. I am pleased to see that ICE's budget request includes 
the establishment of a Border Enforcement Security Task Forces (BEST), 
including one in Massena, New York.
    What kind of results can the community expect to see from a BEST?
    Answer. Establishing a BEST in Massena will allow ICE and its law 
enforcement partners in the region to efficiently focus on 
investigating cross-border criminal activity related to contraband 
smuggling, human smuggling, money laundering, weapons trafficking, and 
its associated violence on the Akwesasne Mohawk Indian Reservation. 
Since 2005, the BESTs have been extremely successful in addressing the 
threats of cross-border crime. The BESTs are flexible platforms from 
which the Department of Homeland Security (DHS) investigates and 
targets transnational criminal organizations and emerging threats that 
exploit vulnerabilities along the Nation's borders. The Massena BEST, 
through its partnership with local, county, State, Tribal, Federal, and 
international partners in the region, will address transnational 
criminal organizations operating and living in the shared communities 
of New York State and the Canadian provinces of Ontario and Quebec. In 
addition, the Massena BEST will complement and enhance already 
established BESTs in Detroit and Buffalo to effectively target and 
dismantle major criminal organizations based in the greater Toronto 
area that use smuggling routes through all three locations.
    Question 1b. What other steps is DHS taking to improve the security 
of tribal lands along our borders?
    Answer. ICE is addressing the security of tribal lands along our 
borders primarily through the Shadow Wolves. The Shadow Wolves are 
Native American trackers that patrol the Tohono O'odham Indian Nation, 
a 2.8 million-acre reservation in Arizona with a 75-mile-long border 
with Mexico. The Shadow Wolves were established by Congressional 
mandate in the early 1970s in response to the rampant smuggling 
occurring through the Tohono O'odham Indian Nation. The Shadow Wolves' 
primary mission is to interdict smuggled narcotics using both modern 
technology and the ancient art of tracking.
    In fiscal year 2007, several Shadow Wolves were detailed to the 
Blackfeet Indian Reservation (Montana) and the Bay Mills Chippewa 
Indian Reservation (Michigan) to assess the viability of establishing 
similar units along the Northern border. Although the details did not 
produce any enforcement results, they were successful in creating 
points of contact and opening dialogue between the Tribal governments 
and the local ICE Resident Agent in Charge offices. The Shadow Wolves 
details were coordinated with Customs and Border Protection (CBP), 
Office of Field Operations (OFO) and Office of Border Patrol, along 
with Tribal and local law enforcement agencies.
    DHS is also addressing the security of our Tribal lands along the 
border through its Southwest border efforts. Personnel from ICE's 
Office of Investigation (OI), Detention and Removal Operations (DRO), 
and Office of Intelligence (INTEL) as well as myriad Federal, State, 
and local law enforcement agencies are currently partnering in BEST and 
the Southwest border surge; efforts that will improve security along 
the Southwest border. ICE has also increased participation with 
government of Mexico agencies to assist in providing additional 
security to border communities at large. Furthermore, other DHS 
initiatives undertaken by CBP, particularly OBP, will also impact the 
security of these communities.
    Question 2. Northern border communities have historically 
benefitted from Operation Stonegarden, a program that provides grants 
to local law enforcement on the border to increase their operation 
readiness. Northern border States have always been eligible for these 
grants and received funding in fiscal year 2008 and fiscal year 2009. 
Yet the President's budget request for fiscal year 2011, which includes 
$50 million for Operation Stonegarden, proposes limiting eligibility to 
the Southern border only. What is the rationale for excluding Northern 
border communities from applying for this funding?
    Answer. The fiscal year 2011 request for Stonegarden is only for 
the SW border because of DHS concern about the continuing threats on 
this border.
    Question 3. I would like to know if the Department of Homeland 
Security has considered streamlining the Trusted Traveler Program so 
that participants can use a single card at international points of 
entry along the U.S.-Canadian border. Further, has TSA considered 
creating dedicated security screening lanes at airports for 
participants in one of CBP's Trusted Traveler Programs?
    Answer. The Department of Homeland Security's (DHS) U.S. Customs 
and Border Protection (CBP) operates four Trusted Traveler Programs: 
NEXUS, Free and Secure Trade (FAST), Secure Electronic Network for 
Travelers Rapid Inspection (SENTRI), and Global Entry. There are over 
730,000 approved, low-risk travelers enrolled in these programs, which 
offer secure and expedited immigration, customs, and agriculture 
processing on arrival into the United States.
    Over the last 2 years, CBP has taken steps to streamline all of its 
Trusted Traveler Programs so that they are easily accessible and 
convenient for international travelers. For example, all of the Trusted 
Traveler Programs are served by a single on-line application system 
called the Global Online Enrollment System (GOES). The integration of 
all the programs into a single database and on-line application is key 
part of a unified trusted traveler program.
    Whereas Global Entry does not have a separate credential, CBP 
redesigned the credentials for NEXUS, SENTRI, and FAST to make them 
more secure and have the same look and feel. All three credentials 
comply with requirements of the Western Hemisphere Travel Initiative 
(WHTI); members holding a credential receive facilitated processing 
when entering at the land border through trusted traveler dedicated 
lanes but can be used by U.S. and Canadian citizens to enter the United 
States through any lane at any land or sea port of entry. NEXUS, 
SENTRI, and FAST cards can be verified at the border electronically 
through CBP's databases. All three documents are accepted by the 
Transportation Security Administration as identity documents for the 
purposes of entering the sterile area of an airport.
    Although virtually harmonized, it is unlikely that CBP will change 
the names of the respective programs due to bi-national agreements and 
brand recognition. The NEXUS program is jointly managed by the United 
States and Canadian governments. NEXUS allows entry from Canada into 
the United States at land, and designated air, and small boat arrival 
locations. SENTRI is managed solely by the United States.
    Global Entry is a CBP Trusted Traveler pilot program that provides 
expedited clearance of pre-approved, low-risk air travelers into the 
United States. Global Entry allows approved members to use an automated 
kiosk at designated airports to bypass the regular CBP Passport Control 
queues so that customs, agriculture, and immigration processing is 
expedited. Membership is currently limited to U.S. citizens, U.S. 
nationals, and U.S. lawful permanent residents, as well as to citizens 
of the Netherlands via a joint arrangement. Unlike the other programs, 
Global Entry does not require the use of a separate credential; the 
traveler presents his or her passport or lawful permanent resident 
card, which is linked to Global Entry membership.
    TSA piloted the Registered Traveler program, which provided a 
service similar to your proposal to dedicate security screening lanes 
at U.S. airports for members of CBP's Trusted Traveler Programs. At the 
conclusion of the pilot, Registered Traveler transitioned to a private 
sector-run, market-driven program. Three Registered Traveler vendors 
provided operations at participating airports, but have since ceased 
operations due to financial reasons. TSA has encouraged interested 
vendors to work directly with airports and air carriers if they wish to 
develop similar Registered Traveler programs. DHS will evaluate future 
private sector proposals to include consideration of possible benefits 
to members of CBP's Trusted Traveler Programs.
 Questions Submitted by Honorable Bill Pascrell, Jr. of New Jersey for 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. I was extremely surprised to see that the budget called 
for four stand-alone grants programs to just be folded into the larger 
State Homeland Security Grant Program. This includes the Interoperable 
Emergency Communications Grants that Mr. Reichert and I worked to 
create in the 109th Congress in order to support our first responders 
in the wake of the lessons we learned on 9/11. If these critical grant 
programs are folded in we have no way to track their funding from year 
to year--to me this looks like a way to do a back-door cut of these 
programs. Will the Department commit to the committee that if these 
grant programs remain folded into the State Homeland Security grants 
that in next year's budget you will ensure that there is a breakdown of 
how much funding went directly for these priorities including 
interoperability grants? Without that information this committee is 
blind to understanding if key priorities are being properly addressed.
    Answer. FEMA's Grants Reporting Tool (GRT) is built to track both 
sub-program spending as well as National priority data. As such, if the 
Interoperable Emergency Communications Grant Program (IECGP) is 
consolidated as a stand-alone program into the larger State Homeland 
Security Program (SHSP), the GRT would be configured to capture the 
IECGP spending data independently. The GRT would also continue to be 
configured to track overall National spending activities relative to 
interoperable communications; this data would be construed across a 
plethora of grant programs for which interoperable communications is an 
allowable spending area, including IECGP. If the IECGP is subsumed into 
the overall State Homeland Security Program (i.e. it would not continue 
to be stood up as a separate grant program, even if consolidated into 
SHSP), the GRT would still be configured to track spending activities--
including planning, training, exercises, equipment, and personnel--
relative to the Interoperable Communications National priority.
    Question 2. In recent years we've seen CBP try to focus its limited 
resources by creating new programs that grant significant benefits to 
companies that can demonstrate strong internal controls. An example of 
this is the Importer Self-Assessment Program. This permits importers to 
self-assess their customs compliance to avoid official CBP audits and 
reduce the threat of delays for Government inspections. The new Broker 
Self-Assessment pilot program follows a similar model, and allows 
customs brokers to police themselves if they agree to follow approved 
security plans. These programs are designed, in large part, to help 
alleviate CBP's audit burden and facilitate trade in a speedier 
fashion. Of concern, however, is the lack of a specified standard for 
measuring HS classification accuracy.
    After all, how effective is it to have participants in such 
programs audit themselves without any CBP-provided objective standards 
for measurement?
    Do you believe that such programs would have greater success if CBP 
established objective, standardized controls for measuring HS 
classification accuracy?
    Answer. The annual compliance measurement of the Importer Self-
Assessment participants has been 99.5 percent overall and slightly over 
99 percent in classification (major transactional discrepancies) over 
the last 4 years. CBP will explore ways to enhance the self-testing 
conducted by participants, which may include establishing measurement 
standards for particular risk areas.
    Honing measurements and standards can be effective in sustaining 
and possibly surpassing the overall compliance goals of the ISA 
program, which would include HS classification accuracy.
    Question 3. According to CBP, commodity reporting errors contribute 
significantly to the estimated $1 billion in duty revenue losses to the 
U.S. Treasury per year. What's more, substandard commodity reporting 
plays a significant negative role in Customs targeting efforts. 
Presumably, CBP is trying to address these shortcomings through the 
Importer Security Filing (also known as ``10+2''). However, 10+2 
remains critically dependent on timely and accurate commodity 
classification, and there has been no evidence to suggest that 
commodity classification accuracy has improved.
    What are some of the major reasons why classification errors are so 
pronounced?
    What will you do to help remedy the problem?
    Answer. CBP uses an annual statistical audit to measure revenue 
loss due to non-compliance. Our measurements of this revenue loss over 
the last 5 years have declined from $470 million in fiscal year 2005 to 
$285 million dollars in fiscal year 2009. As a percentage of all 
duties, fees, and taxes that CBP does collect, these statistical 
estimates represent about 1 percent on average of the roughly $30 
billion that the agency collects within a given year. Misclassification 
of goods is a primary cause of this revenue loss, mainly because the 
complexity of the tariff allows for even the most common of mistakes to 
cause a wide percentage shift in the rate of duty applied to imported 
goods.
    However, classification is an area that we directly address through 
targeting, operations, and other enforcement activities. These 
activities provide a benefit in both reinforcing compliant behavior 
from importers 99 percent of the time as the statistical audits show, 
while allowing the agency to focus on the 1 percent of revenue that is 
not paid to the agency when duties are due.
    Regarding the Importer Secure Filing (ISF), the law requiring 
importers to supply this information strictly prohibits CBP from using 
it for purposes other than ensuring cargo safety and security and 
preventing smuggling. As a recent source of data layered on top of 
existing ones, CBP cannot use it to address revenue issues. However, 
this does not impact the other existing and well-used data sources 
available to the agency for cargo and post-release trade enforcement, 
and CBP remains committed to measuring, targeting, and applying risk 
management principles to revenue loss related to non-compliance and 
fraud.
 Questions Submitted by Honorable Daniel E. Lungren of California for 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1a. The request for the chemical and biological program at 
the Science and Technology Directorate is slightly decreased from 
fiscal year 2010 levels. The Congressional justification states that 
the decrease reflects the ``funding of higher priority items within the 
Department.'' It also states that as a result of the decrease, subject 
matter expertise and support for the NBIC will be reduced.
    Is it fair to assume, therefore, that the NBIC is not a terribly 
high priority for the Department, at least not until its fate is 
determined, and that Congress will continue to see budget requests for 
this program decrease?
    What is the plan for the NBIC? Are we wasting time and money by 
continuing an endeavor that is not achieving its goals, or do those 
goals need to be redefined? In what way will the Department engage the 
Congress in its discussions surrounding the future of NBIC?
    Answer. The $7 million requested in fiscal year 2011 to support 
NBIC is sufficient to maintain current operations. Funding will support 
development of analytical biological surveillance and impact reports--
similar to the reports completed during the 2009-H1N1 pandemic. These 
reports are collaboratively developed among interagency partners and 
will be made available for interagency use.
    The $1 million reduction from fiscal year 2010 funding reduces the 
amount available to reimburse detailees or liaison officers from 
partner agencies to serve at NBIC to provide analytic and collaborative 
capabilities. The reduction in funding could affect up to six detailees 
depending on grade. While the lack of reimbursements may be interpreted 
as a disincentive to interagency participation in NBIC, as highlighted 
in the Government Accountability Office's report, ``Biosurveillance: 
Developing a Collaboration Strategy is Essential to Fostering 
Interagency Data and Resource Sharing,'' Federal agencies are not 
actively participating in NBIC. To foster collaboration and information 
sharing between agencies, we must reevaluate NBIC's structure to ensure 
its mission is transparent and participating agencies understand its 
value add during biological incidents.
    To further information flow into NBIC and strengthen collaboration 
with State and local partners, the DHS Office of Health Affairs (OHA) 
is working to enhance partnerships with specific States, the private 
sector, non-governmental agencies, and the international community. 
Beginning with the $5 million provided to NBIC in fiscal year 2010 to 
support a demonstration project with the North Carolina Collaboratory 
for Bio-Preparedness, we aim to validate integrated information sharing 
of public health, animal surveillance information, environmental 
monitoring, and other biosurveillance information. We continue to work 
with our Federal partners.
    In addition to North Carolina, NBIC is engaging with other States 
to establish biosurveillance data-sharing pilot outreach programs. 
These States include: New Jersey--a State with a very mature DHS-State 
fusion center relationship and a robust information-sharing tool; 
Minnesota--a State nationally known for their superior food defense 
capabilities through information analysis; and, Washington State--a 
State that has demonstrated advanced capability to integrate critical 
infrastructure analysis into decision-making schemes. As we work with 
State and local partners and follow GAO's recommendations, we hope to 
demonstrate the value of situational awareness to respond to biological 
incidents.
    DHS has and will continue to make every effort to engage 
interagency participants as well as promote outreach and data sharing 
with appropriate State, local, Tribal, and territorial agencies. NBIC 
and the biosurveillance Federal agency participants are now engaged in 
a formal review of the biosurveillance mission-space, interagency value 
of data-sharing and data integration, methodology to enhance 
collaboration and the development of metrics to monitor and evaluate 
mission success.
    As we work to refine NBIC by engaging State, local, Tribal, and 
territorial partners, we will update Congress on the status of NBIC and 
associated challenges that arise.
    Question 2. Some have argued that despite improvements in the 
interagency process and the issuance of several important reports and 
other strategy-type documents, the Nation does not have a truly 
National biodefense strategy. And that, more specifically, DHS does not 
have its own Department-wide biodefense strategy. When can we expect a 
biodefense strategy and implementation plan from DHS?
    Answer. The recent Institute of Medicine (IOM) report on BioWatch 
and Public Health Surveillance recommended that ``DHS enhance efforts 
to develop a mechanism for providing a national situational awareness 
of biological threats and significant disease outbreaks, to better 
inform rapid decision-making and response through cross-jurisdictional 
data sharing and analysis of data.'' OHA takes this report seriously 
and sees great value in the Commission's work. The Obama administration 
has taken steps to enhance the Nation's capabilities. After this Report 
was published, Assistant Secretary Dr. Garza met with the Executive 
Director of the WMD Commission to discuss OHA's related efforts and to 
build a relationship that will allow DHS to use the report card as a 
catalyst for continuing to improve National capabilities.
    A National Biodefense strategy to detect and protect the Nation 
against biological threats requires coordination among Federal 
agencies, State, local, Tribal, and territorial officials, and 
representatives from the private sector. DHS is working internally and 
in coordination with key stakeholders to develop an approach that can 
effectively and systematically address detection, preparedness, and 
response to biological threats.
   Questions Submitted by Honorable Mike Rogers of Alabama for Janet 
         Napolitano, Secretary, Department of Homeland Security
    Question 1. Strategic planning is key when proposing any budget. We 
must be certain that our homeland security dollars are being spent 
wisely, with adequate attention not only to the Office of Health 
Affairs immediate goals, but to those of the entire Department and the 
Nation. With that in mind:
    When can we expect a strategic plan from the Office of Health 
Affairs?
    What are the specific goals of that strategic plan?
    How do these goals reflect the work currently on-going within the 
three OHA divisions (Weapons of Mass Destruction & Biodefense, Medical 
Readiness, and Component Services)?
    What are the primary tasks each of your employees will deliver on 
in the coming year?
    How do these break down into monthly deliverables and 90-day 
deliverables?
    I would like a list of the deliverables for each main division and 
each office within each division for these time periods.
    Has the Science and Technology Directorate reviewed the draft 
strategic plan, and what were their comments?
    Have OHA staff been afforded the opportunity to provide anonymous 
input and feedback on the plan? Please provide a written copy of this 
feedback.
    Answer. I agree that strategic planning is essential when 
developing a budget request. It is for this reason that I directed the 
Deputy Secretary to conduct a bottom-up review of the Department's 
activities, to ensure that future budget requests align to National 
priorities.
    The Office of Health Affairs (OHA) is finalizing a Strategic 
Framework the week of April 5, 2010. The Framework will outline goals 
and strategic objectives for fulfilling OHA's responsibilities in 
support of my priorities, the DHS mission, and in alignment of the 
Quadrennial Homeland Security Review (QHSR). We will provide you will a 
copy of the framework when it is complete. On April 6, 2010 all the 
employees of OHA will gather for an ``All Hands'' meeting to discuss 
the new Framework and their path forward.
    OHA's updated milestones and measures will be included in the 
Fiscal Year 2011-2015 Future Years Homeland Security Program report to 
Congress.
    Question 2. As important as the strategic plan itself are the 
people who draft and carry out that plan.
    What are the qualifications of senior leadership within OHA? Please 
demonstrate that your top-level management meets these qualifications.
    What is the position description and qualifications required for 
the Director of the Food, Agriculture, and Veterinary Defense Division?
    Answer. OHA senior leadership consists of a Chief Medical Officer 
(CMO) and Assistant Secretary, Deputy CMO/Principal Deputy Assistant 
Secretary, an Associate Chief Medical Officer for Medical Readiness, an 
Associate Chief Medical Officer for Component Services and a Deputy 
Assistant Secretary for WMD Biodefense. The qualifications of the 
individuals holding those positions are listed below.
  <bullet> CMO/Asst Sec.--Senate-confirmed position, qualifications 
        public record. MD, MPH, 13 years as a practicing physician and 
        medical educator.
  <bullet> DCMO/PDAS.--Vacant.
  <bullet> ACMO Medical Readiness.--MD, 17 years experience in 
        emergency medicine.
  <bullet> ACMO Component Services.--MD, MPH, EMS Fellowship, 18 years 
        emergency medical experience.
  <bullet> DAS WMD-Biodefense.--Career SES, 20 years military 
        experience in operational, finance, and policy-making roles; 7 
        years at DHS in Executive positions.
    The qualifications required of the Director of the Food, 
Agriculture, and Veterinary Defense Division include, but are not 
limited to:
  <bullet> Doctor of Veterinary Medicine required; a Master of Public 
        Health or Master of Science in Epidemiology, or similar 
        Master's degree in a relevant health sciences discipline is 
        preferred.
  <bullet> Demonstrated ability to serve as an expert and advisor on 
        incidences of animal and food-borne disease conditions, as well 
        as the public health impacts of zoonotic and infectious 
        diseases.
  <bullet> Knowledge of veterinary and/or public health emergency 
        management and operations.
  <bullet> Ability to lead and manage the agricultural security and 
        food defense activities within the division, OHA, and DHS.
  <bullet> Demonstrated skill to plan, organize, and recommend 
        implementation of a National level animal disease program and 
        food defense program which results in substantial favorable 
        consequences.
  <bullet> Ability to lead the development of strategies and 
        recommendation and the implementation of operational plans that 
        will promote improvement in safety of animal agriculture, 
        reduction in animal disease risk, and prevention of food-borne 
        illnesses.
  <bullet> Demonstrated skill in effective and clear communications to 
        senior-level Government and private sector officials on a 
        variety of policy, programmatic, and scientific information.
  <bullet> Skill in building consensus among internal and external 
        stakeholders and in obtaining and maintaining cooperation and 
        support to resolve policy and program issues.
  <bullet> Ability to communicate technical information in a non-
        technical environment.
    Question 3. I understand that Dr. Jon Krohmer, Principal Deputy 
Assistant Secretary (PDAS) and Deputy Chief Medical Officer (CMO), has 
been detailed to work on health matters for Immigration and Customs 
Enforcement. I would like to request the document showing the line of 
succession for the position of Assistant Secretary for Health Affairs/
CMO. My understanding is that it is the PDAS who is in charge in the 
absence of the Assistant Secretary/CMO. Statutorily, the Chief Medical 
Officer is required to be a medical doctor, and it would therefore 
follow that the PDAS/CMO would also be. In Dr. Krohmer's absence, then, 
do you have a medical doctor as the Acting PDAS/CMO?
    Answer. Per the Post-Katrina Emergency Management Reform Act of 
2006, the Chief Medical Officer (CMO) ``shall possess a demonstrated 
ability in and knowledge of medicine and public health.'' The statute 
does not require the individual appointed as Chief Medical Officer to 
be a medical doctor. Any individual that meets the qualification 
standard set forth in 6 U.S.C. 321e(b) would be qualified to be 
appointed by the President to the position of CMO, subject to the 
advice and consent of the U.S. Senate.
    Dr. Garza, as CMO and Assistant Secretary of Health Affairs, 
possesses both an M.D. and a Masters in Public Health (M.P.H). The 
position of Principal Deputy Assistant Secretary (PDAS) and Deputy 
Chief Medical Officer (DCMO) is vacant at this time. At this time, 
there is no Acting PDAS/DCMO. The duties of this position are currently 
being fulfilled by others in senior OHA management.
    The line of succession for the Office of Health Affairs is depicted 
in the table below.

------------------------------------------------------------------------
        Office of Health Affairs                   Career Status
------------------------------------------------------------------------
Assistant Secretary and Chief Medical     Presidential Appointee with
 Officer.                                  Senate Confirmation.
Principal Deputy Assistant Secretary and  Career.
 Deputy Chief Medical Officer.
Director of Operations..................  Career.
Chief of Staff..........................  Non-Career SES or Schedule C.
Associate Chief Medical Officer, Medical  Scientific Professional.
 Readiness.
Associate Chief Medical Officer,          Career.
 Component Services.
Deputy Assistant Secretary for Weapons    Career.
 of Mass Destruction and Biodefense.
------------------------------------------------------------------------

    Question 4. Last fall, DHS published proposed guidance for first 
responder preparedness and response to a widespread anthrax attack. I 
submitted public comments at that time, and I again commend OHA for 
taking this important step and for giving State and local officials 
needed guidance.
    When do you plan to publish the final guidance?
    What will your guidance recommend with regard to the anthrax 
vaccine in the Strategic National Stockpile--in terms of placement on 
an approved equipment list to facilitate State access, and in terms of 
dealing with expiring vaccine?
    Answer. Representative Rogers, thank you for your commendation. An 
interagency working group produced the guidance for first responder 
preparedness and response to a widespread anthrax attack. During the 
public comment period, approximately 300 comments were received. The 
DHS Office of Health Affairs (OHA) is leading the adjudication process 
and the guidance document is currently under review by our Federal 
interagency partners.
    The guidance recommends pre-event vaccination for high-risk 
responder groups. However, the guidance does not make any 
recommendations regarding expiring vaccines contained in the Strategic 
National Stockpile (SNS). Though the guidance does not address expiring 
vaccine, there are on-going discussions as to how to best manage the 
expiring vaccine in the SNS, including the option of making expiring 
vaccine available to responder organizations considered to be in the 
high-risk categories on a volunteer basis.
    Facilitating State access to Anthrax Vaccine Adsorbed (AVA) vaccine 
by including it on FEMA's Approved Equipment List (AEL) has been a 
priority for OHA. We have been working closely with the Interagency 
Board (IAB), an organization sponsored by the Federal Government that 
serves as an independent and unbiased expert panel to make 
recommendations related to standardization and appropriate deployment 
of technologies to first responders. We hope to gain the support of the 
IAB to include AVA on the Standardized Equipment List (SEL), from which 
FEMA bases the AEL. OHA will continue to work with the IAB and FEMA to 
ensure our Nation's first responders are protected from and prepared to 
respond to biological threats.
    Question 5a. The Weapons of Mass Destruction (WMD) Commission just 
released a report card that flunked the administration in several areas 
of WMD preparedness.
    How is your budget reflective of the WMD Commission's 
recommendations to enhance laboratory biosecurity and other 
biopreparedness needs, in particular those areas deemed insufficient by 
the latest report card?
    Answer. DHS takes the Prevention of WMD Proliferation and Terrorism 
Report Card produced by the Graham-Talent Commission on the Prevention 
of Weapons of Mass Destruction, Proliferation and Terrorism seriously 
and sees great value in the Commission's work. The Obama administration 
has taken steps to enhance the Nation's capabilities. After this Report 
was published, Assistant Secretary of the Office of Health Affairs 
(OHA) Dr. Garza met with the Executive Director of the WMD Commission 
to discuss OHA's related efforts and to build a relationship that will 
allow DHS to use the report card as a catalyst for continuing to 
improve National capabilities.
    The National Biosurveillance Integration Center (NBIC) was 
authorized in 2007 to enhance the capacity of the Federal Government to 
rapidly identify, characterize, localize, and track biological events 
of National concern through integration and analysis of data relating 
to human health, as well as animal, plant, food, and environmental 
monitoring systems (both National and international). Since it was 
initiated, NBIC has provided critical biosurveillance information on a 
number of incidents including the 2009 Salmonella St. Paul event and 
the 2009-H1N1 pandemic.
    NBIC works to identify biological incidents early and alerts senior 
leaders of emerging threats against the population. It is critical that 
the Nation has the ability to recognize and track biological events 
early to prevent or mitigate associated consequences.
    Question 5b. In what ways does your budget support the need for 
enhanced guidance for emergency planning and citizen engagement, 
specifically in terms of the Federal Emergency Management Agency's 
request?
    Answer. The report card recommends that we ``work with a consortium 
of State and local governments to improve preparedness in the event of 
a WMD attack'' and highlights our efforts relating to Comprehensive 
Preparedness Guide 101. It goes on to recommend working with citizens, 
private sector, and non-governmental organizations to improve guidance 
and preparedness.
    While a number of the items in the fiscal year 2011 budget will 
advance this effort, two in particular will make targeted advances to 
address this recommendation. The Technical Assistance Program provides 
needed support to State and local governments to implement a variety of 
preparedness programs across the continuum of homeland security. The 
lessons learned from the program, along with the materials developed in 
support of the program, serve as the foundational materials for the 
enhancement of the Comprehensive Preparedness Guides as well as public 
education materials in support of Community Preparedness. This will 
include a joint effort with the private sector community to update the 
existing planning recommendations issued in 1993, as well as guides 
addressing the variety of hazards faced by a community.
 Questions Submitted by Honorable Michael T. McCaul of Texas for Janet 
         Napolitano, Secretary, Department of Homeland Security
    Question 1a. For fiscal year 2011, Congress provided $20 million 
for the Homeland Security Presidential Directive (HSPD)-12 program for 
fiscal year 2010 to issue new, secure identity cards to Department of 
Homeland Security employees and contractors to access secure 
facilities, communications, and data. With the increasing prevalence of 
our Government computers being infiltrated the HSPD-12 program needs to 
be deployed as quickly as possible to lock down our computer networks 
from hackers.
    Congress has also directed the Department of Homeland Security, 
Office of Security, to provide a report on your progress in issuing new 
identity cards and remaining needs for additional infrastructure and 
materials needed to complete the project.
    Please give us an update on the issuance of the HSPD-12 cards 
including a timeline on the obligation of the funds and progress on 
deployment of these secure cards for this fiscal year.
    Answer. The Department has made the issuance of the DHS PIV card to 
DHS employees and contractors a top priority. At the beginning of the 
DHS PIV card surge deployment, DHS had issued 21,372 as of January 22, 
2010. At the end of second quarter of fiscal year 2010 (March 31, 
2010), DHS issued an additional 16,738 cards for a cumulative total of 
38,110 PIV cards issued. The Office of the Chief Security Officer is 
working closely with DHS Components to ensure that DHS will have issued 
100,000 PIV cards across the components in fiscal year 2010. The 
Department will issue 250,000 PIV cards by the end of fiscal year 2011 
utilizing existing resources.
    The following table provides the projected timeline for obligating 
funds for HSPD-12 cards:

------------------------------------------------------------------------
  HSPD-12 Card Issuance Procurement     Amount
                Plan                    ($000)       Contract Awarded
------------------------------------------------------------------------
U.S. Treasury Certificate Authority        $267  Fiscal year 2010 Q 2
 Services.
DHS HSPD-12 Core Infrastructure            $159  Fiscal year 2010 Q 2
 (operations/network costs).
DHS PIV Card Stock..................       $245  Fiscal year 2010 Q 2
NCR Card Issuance, Installation          $1,330  Fiscal year 2010 Q 2
 Support, & Enterprise Training.
GPO Security Printing of DHS PIV         $1,770  Fiscal year 2010 Q 3
 Cards.
Enrollment/Card Issuance                 $3,765  Fiscal year 2010 Q 3
 Workstations and Consumables.
Card Issuance Contract Labor and        $10,385  Fiscal year 2010 Q 3
 Deployment Support.
Internet-based Appointment                 $145  Fiscal year 2010 Q 4
 Scheduling Tool.
PKI Certificates and CIWS Interfaces     $1,909  Fiscal year 2010 Q 4
Reserved for contract overages or           $25  .......................
 miscellaneous expenses.
                                     -----------------------------------
      Total IMD Costs...............    $20,000  .......................
------------------------------------------------------------------------

    Question 1b. What are you requesting for fiscal year 2011 for HSPD-
12 deployment?
    Answer. The Office of Security fiscal year 2011 budget request does 
not include funding for HSPD-12 Deployment. The Department expects to 
obligate fiscal year 2010 funds for contracts in the third quarter that 
will carry the Department's efforts into fiscal year 2011. The 
Department is working with components to identify funding, such as 
component base funding for legacy badging systems, to meet any other 
fiscal year 2011 and the out-year requirements. The Department is 
committed to fulfilling its requirements under HSPD-12 utilizing base 
resources in fiscal year 2011.
    Question 2. During the President's State of the Union message he 
highlighted ``bio-terrorism.'' But when I read through the supporting 
document the next day I noticed he was referring to a plan to stockpile 
medications for a possible bio-attack. There is a Bio-Watch program 
underway. Are we keeping our focus on this most needed detection 
system?
    Answer. DHS agrees that the BioWatch program is a much-needed 
system that provides early detection of a biological attack and the 
Department remains focused on supporting this program. The fiscal year 
2011 budget request maintains current biodetection capabilities, 
referred to as the Generation-1 and Generation-2 program, and moves 
forward with the major acquisition to upgrade systems with autonomous 
biodetection capabilities, referred to as Generation-3. Significant 
testing and evaluation is required of all potential autonomous 
biodetection capabilities to ensure the technology is capable of 
meeting end user requirements prior to DHS committing to a procurement 
decision. The updated timeline for the Generation-3 program is 
reflected by the major milestones below:
  <bullet> Field Test Program Contract Award (Phase I)--November 12, 
        2009;
  <bullet> Field Test Program Task Order 1 Award--February 2, 2010;
  <bullet> Field Test Program Task Order 2 Award--3rd Quarter fiscal 
        year 2010;
  <bullet> Completion of Field Testing--2nd Quarter fiscal year 2011;
  <bullet> Technology Readiness Review--2nd Quarter fiscal year 2011;
  <bullet> Phase II Contract Award for Low Rate Initial Production 
        (LRIP) and Operational Test & Evaluation (OT&E)--4th Quarter 
        fiscal year 2011 or 1st Quarter fiscal year 2012;
  <bullet> Conduct OT&E: Start--4th Quarter fiscal year 2012, Finish--
        3rd Quarter fiscal year 2013;
  <bullet> Initial Operational Capability (IOC)--3rd Quarter fiscal 
        year 2013;
  <bullet> Deployment of Gen-3 detectors Nation-wide, fiscal year 2013-
        fiscal year 2016;
  <bullet> Completed network fiscal year 2017.
    The deployment of an automated biodetection capability may 
facilitate expanding biomonitoring efforts to indoor locations that are 
not well-supported by the current technology as well as shortening the 
detection time following an attack. The Nation's detection capability 
through the BioWatch program is augmented by coordination of State and 
local assets through local BioWatch Advisory Committees and 
Jurisdictional Coordination programs, organization of interagency 
support on the Federal level and a robust exercise program directed 
towards notification through response. DHS also leads an interagency 
effort that produces guidance documents to support State and local 
responses.
    Question 3. It seems to me we need the earliest possible detection 
system to alert emergency rooms and citizens, and properly deploy 
countermeasures and vaccines. Is the $89 million in the proposed budget 
enough for the full deployment of bio-watch units next year?
    Answer. DHS agrees that the BioWatch program is a much-needed 
system that provides early detection of a biological attack and the 
Department remains focused on supporting this program. In fiscal year 
2011, $173.5 million is requested to support the BioWatch program. 
Approximately $89.5 million will be used to maintain the current 
National network, establish a more comprehensive quality assurance 
program, optimize the BioWatch network to maximize probability of 
detection of an attack, expand the current BioWatch exercise program 
that includes extensive interaction with Federal, State, and local 
partners, provide State and local partners better situational awareness 
with web-based modeling capabilities backed up by a robust reach-back 
capability to the National laboratories, and work with the interagency 
on technology evaluations.
    Approximately $84 million will be used to procure and potentially 
deploy units for a four-city operational field test of the Generation-3 
system. If one or both candidates pass current testing, we plan to 
procure units for deployment into other existing BioWatch 
jurisdictions. The four-city operational testing phase will evaluate 
BioWatch systems in a variety of outdoor and indoor environments to 
ensure the systems operate properly before committing the Government to 
a large-scale buy.
    The final Generation-3 National network will be deployed over a 
period of 3-4 years after the aforementioned operational test and 
evaluation in four cities. The Generation-3 schedule is reflected by 
the major milestones below:
  <bullet> Phase I Contract Award--November 12, 2009;
  <bullet> Task Order 1 Award--February 2, 2010;
  <bullet> Task Order 2 Award--3 Q fiscal year 2010;
  <bullet> Completion of Field Testing--2 Q fiscal year 2011;
  <bullet> Technology Readiness Review--2 Q fiscal year 2011;
  <bullet> Phase II Contract Award for Low Rate Initial Production 
        (LRIP) and Operational Test & Evaluation (OT&E)--1 Q fiscal 
        year 2012.
  <bullet> OT&E:
    <bullet> Start--4 Q fiscal year 2012;
    <bullet> Finish--3 Q fiscal year 2013;
  <bullet> Initial Operational Capability (IOC)--3 Q fiscal year 2013;
  <bullet> Approval for Full Rate Production (FRP)--3 Q fiscal year 
        2013;
  <bullet> Contract Award for FRP--4 Q fiscal year 2013;
  <bullet> Deployment of Gen-3 detectors Nation-wide, fiscal year 2013-
        fiscal year 2016;
  <bullet> Completed network fiscal year 2017.

                                 <all>

</pre></body></html>
